<html>
<title> - REVIEWS OF THE BENGHAZI ATTACKS AND UNANSWERED QUESTIONS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
        REVIEWS OF THE BENGHAZI ATTACKS AND UNANSWERED QUESTIONS

=======================================================================



                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 19, 2013

                               __________

                           Serial No. 113-59

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform





                  U.S. GOVERNMENT PRINTING OFFICE
85-095                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              MARK POCAN, Wisconsin
DOC HASTINGS, Washington             TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
ROB WOODALL, Georgia                 DANNY K. DAVIS, Illinois
THOMAS MASSIE, Kentucky              PETER WELCH, Vermont
DOUG COLLINS, Georgia                TONY CARDENAS, California
MARK MEADOWS, North Carolina         STEVEN A. HORSFORD, Nevada
KERRY L. BENTIVOLIO, Michigan        MICHELLE LUJAN GRISHAM, New Mexico
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 19, 2013...............................     1

                               WITNESSES

Ambassador Thomas R. Pickering, Chairman, Benghazi Accountability 
  Review Board
    Oral Statement...............................................     9
    Written Statement............................................    12
Admiral Michael G. Mullen, USN (Retired), Vice-Chairman, Benghazi 
  Accountability Review Board
    Oral Statement...............................................    20
    Written Statement............................................    23
Mr. Mark Sullivan, Chairman, Independent Panel on Best Practices, 
  Former Director, United States Secret Service
    Oral Statement...............................................    26
    Written Statement............................................    28
Mr. Todd Keil, Member, Independent Panel on Best Practices, 
  Former Asst. Secretary for Infrastructure Protection, U.S. 
  Department of Homeland Security
    Oral Statement...............................................    32
Ms. Patricia Smith, Mother of Sean Smith
    Oral Statement...............................................   107
Mr. Charles Woods, Father of Tyrone Woods
    Oral Statement...............................................   108

                                APPENDIX

Letter to Chairman Darrell Issa from Kate Doherty Quigley........   122
Interim Report on the Accountability Review Board................   126
Status Update on Investigation of Attacks on U.S. Personnel and 
  Facilities in Benghazi.........................................   225


        REVIEWS OF THE BENGHAZI ATTACKS AND UNANSWERED QUESTIONS

                              ----------                              


                      Thursday, September 19, 2013

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 9:40 a.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Mica, Duncan, McHenry, 
Jordan, Chaffetz, Walberg, Lankford, Amash, Gosar, Meehan, 
DesJarlais, Gowdy, Farenthold, Hastings, Lummis, Woodall, 
Massie, Collins, Meadows, Bentivolio, DeSantis, Cummings, 
Maloney, Norton, Tierney, Clay, Lynch, Connolly, Speier, 
Cartwright, Pocan, Duckworth, Davis, and Grisham.
    Staff Present: Ali Ahmad, Communications Advisor; Brien A. 
Beattie, Professional Staff Member; Molly Boyl, 
Parliamentarian; Lawrence J. Brady, Staff Director; Daniel 
Bucheli, Assistant Clerk; Caitlin Carroll, Deputy Press 
Secretary; John Cuaderes, Deputy Staff Director; Adam P. Fromm, 
Director of Member Services and Committee Operations; Linda 
Good, Chief Clerk; Frederick Hill, Director of Communications 
and Senior Policy Advisor; Mitchell S. Kominsky, Counsel; Jim 
Lewis, Senior Policy Advisor; Mark D. Marin, Director of 
Oversight; John Ohly, Professional Staff Member; Ashok M. 
Pinto, Deputy Chief Counsel, Investigations; Susanne Sachsman 
Grooms, Minority Chief Counsel; Jennifer Hoffman, Minority 
Communications Director; Chris Knauer, Minority Senior 
Investigator; Julia Krieger, Minority New Media Press 
Secretary; Elisa LaNier, Director of Operations; Jason Powell, 
Minority Senior Counsel; Dave Rapallo, Minority Staff Director; 
Daniel Roberts, Minority Staff Assistant/Legislative 
Correspondent; and Valerie Shen, Minority Counsel.
    Chairman Issa. The committee will come to order.
    The Oversight Committee exists to secure two fundamental 
principles. First, Americans have a right to know that the 
money Washington takes from them is well spent. And second, 
Americans deserve an efficient, effective government that works 
for them.
    Our duty on the Oversight and Government Reform Committee 
is to protect these rights. Our solemn responsibility is to 
hold government accountable to taxpayers, for what they know is 
important for how they decide. And in fact, our job is to work 
tirelessly in partnership with citizen watchdogs to deliver the 
facts to the American people and bring genuine reform to the 
Federal bureaucracy. This is our mission.
    I now would ask unanimous consent to read into the record 
statements from two witnesses who will not be available, but 
family of the victims of the 9/11 attack on Benghazi.
    Without objection so ordered.
    First, a letter from Kate Doherty Quigley. And she says in 
a letter to the ranking member and myself, thank you for your 
invitation to participate in the committee's September 19, 
2013, hearing concerning the attacks on the U.S. facility on 
September 11, 2012, during which four Americans, including my 
brother, Glen Doherty, was killed. I am unable to do so but 
submit for the committee's consideration the following 
questions concerning events that led to my brother's death in 
particular. I ask that because I am unaware of the answers 
these questions have been provided. First, my understanding is 
that it took 8 hours for the rescue team from Tripoli to travel 
200 miles to reach their destination in Benghazi, that there 
were no dedicated transportation assets in place and that the 
team received no help getting through barriers like the 
Benghazi airport and checkpoints in that city.
    If this is correct, why was it so given the urgency of the 
mission, recognizing the difficulty of what ifs, and that is 
the way it is written, I nevertheless, ask, if those conditions 
were so, had been different would the outcome have been less 
tragic? Secondly, Glen lived his life to the fullest and took 
pride in teaching others how to be their best. Glen died 
serving with men he respected protecting the freedoms we enjoy 
as Americans and doing something he loved.
    He is an American hero to those who did not know him, but 
for those of us who did know him, he is a best friend who 
leaves behind a giant hole in our hearts. My thanks go out to 
those in Congress and the administration who strive to learn 
what mistakes were made that night so that U.S. personnel can 
be better protected in the future. And it is signed Kate 
Doherty Quigley.
    Chairman Issa. Secondly, a letter that is signed from Chris 
Stevens' family. Chris Stevens died in the service of his 
country. He died doing what he loved most, working to build 
bridges of understanding and mutual respect between the people 
of the United States and the people of the Middle East and 
North Africa.
    He was loved by many more Libyans than those who hated him 
for being an American. A few dozen fanatics penetrated his 
compound, but more than 30,000 people in Benghazi demonstrated 
in protest over his death. Chris was successful because he 
embodied the traits that have always endeared Americans to the 
world, a commitment to democratic principles and respect for 
others regardless of race, religion or culture.
    Chris regarded and liked each person he met as an 
individual. He respected their views whether or not he agreed. 
One of his friends told us a tale that reflects his success on 
a small scale. Picnicking in the Libyan countryside, they met a 
local family. Chris immediately greeted them and suggested that 
they be photographed together. The young son of the patriarch 
of the family suspicious and negative toward Americans, refused 
to participate. So Chris continued chatting with the others. 
When it was time to leave, the initially suspicious son 
presented Chris with a bouquet of flowers. ``This is because 
you were so respectful to my father,'' he said.
    Chris was not willing to be the kind of diplomat who would 
strut around in fortified compounds. He amazed and impressed 
Libyans by walking the streets with the lightest of escorts, 
sitting in sidewalk cafes chatting with passersby. There was a 
risk to being accessible. He knew it, and he accepted it.
    What Chris would never have accepted was the idea that his 
death would be used for political purposes. There was security 
shortcomings no doubt. Both internal and outside investigations 
have identified and publicly disclosed them. Steps are being 
taken to prevent their recurrence. Chris would not have wanted 
to be remembered as a victim. Chris knew and accepted that he 
was working under dangerous circumstances. He did so just as so 
many of our diplomats and development professionals do every 
day. Because he believed the work was vitally important, he 
would have wanted the critical work he was doing to build 
bridges of mutual understanding and respect, the kind of work 
that made him literally thousands of friends and admirers 
across the broader Middle East to continue.
    So rather than engage in endless recrimination, his family 
is working to continue building bridges he so successfully 
began. One year ago this week, in response to tremendous 
outpouring of support from around the world, we launched the J. 
Christopher Stevens fund. The mission of the fund is to support 
activities that build bridges between the people of the United 
States and those of the broader Middle East.
    This was the mission to which Chris dedicated his life. We 
are grateful to each contribution received from friends and 
family, from the government of Libya and from people near and 
far moved by Chris and his story.
    In the coming weeks and months, we will launch a number of 
innovative programs and initiatives. The focus of our activity 
is on young people, both here in America and across the Middle 
East and North Africa.
    Chris served in the Peace Corps in Morocco, and his death 
was felt acutely by the Peace Corps family. Last year in 
response to numerous queries from returned Peace Corps 
volunteers during Peace Corps Week, we encouraged returned 
volunteers to fan out across America and speak with youth about 
their experience abroad. We are now working with the Peace 
Corps to expand their reach into schools and communities across 
the country.
    The Center for Middle East Studies at the University of 
California, Berkeley, where Chris studied as an undergraduate, 
announced on September 11th, the Ambassador J. Christopher 
Stevens Memorial Fund for Middle East Studies. Endowed by the 
J. Christopher Stevens Fund, our purpose is to encourage and 
inspire students in Middle Eastern and North African 
scholarship.
    In Piedmont, California, where Chris spent his teen years, 
the Piedmont unified school district board of education has 
voted to name the Piedmont High School library the Ambassador 
Christopher Stevens Memorial Library.
    Chris was inspired by Piedmont high school's motto, 
``achieve the honorable.''
    Later this year, together with a coalition of public and 
private partners, we will launch the J. Christopher Stevens 
virtual exchange initiative. This initiative will embrace the 
power of technology to fuel the largest ever increase in 
people-to-people exchanges between the United States and the 
broader Middle East, vastly increasing the number and diversity 
of youth who have a meaningful cross-cultural experience as 
part of their formative education and reaching over 1 million 
youth by 2020.
    Later this year the University of California Hastings 
College of the Law from which Chris graduated in 1989, will 
host the Ambassador J. Christopher Stevens Symposium. The event 
will emphasize law and public policy as used in the practice to 
advance global understanding and peace principles to which 
Chris was committed.
    There have been more awards bestowed and honors given to 
Chris' memory, than we would ever have thought possible. But as 
we have said before, we have received letters from thousands of 
people all over the world who were touched by Chris' example. 
His openness touched a cord in their hearts. Chris would have 
wanted to be remembered for that. Thank you. The family of 
Chris Stevens.
    And without objection, they will both be placed in the 
Record.
    Chairman Issa. Briefly in my opening statement, today, we 
want to both do our job as constitutional officers and be very 
cognizant of the wishes of the family. We will hear on the 
second panel from additional family members. Like the first, 
they both want answers to questions, and they want Chris's 
memory to be one of his diplomacy and his service. They don't 
want this to be a political football.
    The committee's primary obligation as the Oversight and 
Reform Committee is to do oversight leading to meaningful 
reform.
    Last week marked the 12th anniversary of the September 11th 
attack on the United States. It marked the 1-year anniversary 
of the terrorist attack on the diplomatic facility in Benghazi. 
The attack cost Americans their lives, Ambassador Christopher 
Stevens, State Department information officer Sean Smith, and 
two American security officers, former U.S. Navy SEAL, Tyrone 
Woods and Glen Doherty.
    Today, we honor their memories and the heroic service to 
our Nation. We recognize also the family members of the fallen 
who are with us today are those who truly experience that loss 
firsthand.
    Last October, Secretary Hillary Clinton convened the 
Accountability Review Board, or ARB, as required by law to 
examine the facts and circumstances surrounding the hideous 
attacks and the report findings and recommendations. The ARB 
report was delivered to Congress on December 18, 2012. While 
the ARB made some important findings, it also raised serious 
additional questions.
    First, the ARBs structure, along with the State Department 
culture, raises questions about the extent to which it can be 
independent. Although it is a meaningful document, this 
committee has not been able to receive the background 
information or were the rerecorded notes sufficient to allow 
for a true review of the review?
    As we convene this hearing, the committee down the hall, 
the Foreign Affairs Committee, has authored significant reforms 
in the form of legislation. Part of what we will do here today 
is to continue fueling the discovery process for that purpose.
    In preparation for today's hearing, the staff has prepared 
approximately a 100-page report which is entitled ``Benghazi 
Attacks, Investigative Update Interim Report on the 
Accountability Review Board.''
    I ask unanimous consent it now be placed in the record.
    It raises important questions on the review board process. 
Today our panel includes distinguished former government 
officials who know firsthand how important this process is, and 
who dedicated their lives to this public service. And we thank 
you for being here today.
    Any criticism of the accountability review process or the 
law passed by Congress in 1986 that created it, should be cast 
on Congress and the process that they were asked to do and not 
to the individuals who headed this. I believe that to the 
extent that the ARB was currently and traditionally used, it 
has done its job. Our criticism today is was it the appropriate 
investigation? Was it complete? Did it have the processes 
necessary to do a thorough review? Did it have the authority to 
go beyond the State Department? Was the record such that it 
could be reviewed and reviewed again as many tragic and large 
investigations will?
    I think we all understand that if the attack 12 years ago 
on 9/11/2001 had been reviewed through the accountability 
review process, it would not have been sufficient for the 
American people. Therefore, our investigation today and the 
subject of this hearing is to look at what could be done, what 
was done, what was learned through the ARB. And I want to thank 
Ambassador Pickering and Admiral Mullen personally for their 
work. They made many reform suggestions. My understanding is 
all of them have been accepted. My understanding, further, is 
acceptance and implementation can be different.
    In particular, one of the questions that will not be 
answered today but undoubtedly will be asked is if four 
individuals were held accountable and in testimony, at least 
one was recommended for firing, why is it none lost a day's pay 
and all are back on the job? That is a question for the current 
administration and not one for this panel.
    Additionally, we are joined by Director Sullivan and Todd 
Keil. Their review is a second review, and it is broader in 
nature than Benghazi. And it is important because one thing 
that America learned from the attacks on 9/11, 2012 is that, in 
fact, the system failed the people who were in that compound in 
Benghazi.
    Without a doubt, there are problems with in how decisions 
are made for security of our various diplomatic facilities 
throughout the world. I look forward particularly in that 
Director Sullivan has firsthand knowledge of primary protection 
of an individual, such as an Ambassador or the President of the 
United States, but he also understands that compounds and 
facilities, both preplanned and ad hoc such as a hotel the 
President might be staying in, have to be taken as they are but 
made to work.
    That for me says a lot about the nature of our diplomatic 
facilities throughout the world. Diplomatic compounds that are 
Inman compliant need not be looked at in any great additional 
detail. They are, in fact, set back, they are, in fact, 
fortresses.
    The only thing that needs to happen in Inman-compliant 
facility is for the rules and the procedures to be followed for 
them to be extremely secure. But the vast majority of 
consulates, offices, USAID facilities and the like throughout 
the world are not Inman compliant. In fact, our investigation 
has shown that a great many exceptions occur every day, if you 
will, waivers to what is supposed to be. Often this comes in 
the form of defining a facility in a way different than what it 
actually is. And a multi country office has a different 
standard than a consulate or an embassy, but if, in fact, 
principal officers are there and the risk of attack is high, 
they must be looked at in that sense.
    So I for one believe that this interim report closes--and I 
hope it really will--the chapter on the service of Ambassador 
Pickering and Admiral Mullen because I believe their service, 
although limited to the rules of the ARB, has been honorable, 
and they have done the best they could under the rules that 
Congress gave them in 1986.
    And with that, I'm going to ask unanimous consent that my 
entire opening statement be placed in the record since I used 
so much time for the earlier reading. And I yield back and I 
recognize the ranking member for his opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    I want to begin by recognizing Mrs. Patricia Smith, and Mr. 
Charles Woods who are here to testify about their sons who were 
killed in Benghazi, Sean Smith and Tyrone Woods.
    Nobody can fully comprehend the anguish they are suffering. 
I know from my own experience that losing someone so young and 
so promising is one of the most difficult things we ever 
experience in life.
    Sadly, there are now other mothers and fathers, husbands 
and wives, sisters and brothers who are also grieving after the 
shootings this week at the Washington Navy Yard less than a 
mile from this very room. Our hearts go out to those families 
as well.
    In addition, although Ambassador Stevens' family was not 
able to attend today, and the Doherty--they sent a written 
statement, as did Glen Doherty's sister, and Mr. Chairman, I'm 
very, very pleased and I thank you for not only reading their 
statements into the record, but making sure that they are part 
of the record.
    I look forward to hearing that testimony, and I hope we can 
learn more about who these very brave individuals were. I want 
to learn about their hopes and their dreams and their service 
to our country.
    I believe our goal at today's hearing should be to honor 
them as heroes, because that is exactly what they were. They 
believed in this Nation and they devoted their lives to 
protecting it.
    There are other ways our Nation should honor these men. 
First, we must hunt down those responsible and bring them to 
justice. Progress on this front may not always be visible to 
the public, but as our Nation demonstrated in the relentless 
worldwide 10-year pursuit of Osama bin Laden, the United States 
does not forget. We never forget. And I believe I speak for the 
entire committee when I say that our commitment to this goal is 
bipartisan and unwavering.
    Another way to honor their memories is to obtain 
information about what happened in Benghazi. Chairman Issa 
issued a report earlier this week that provided some new 
information but, unfortunately, he chose not to work with any 
Democratic committee members. So today I offer him my own 
report that I would like to provide to the committee and the 
witnesses.
    As this report explains, our goal was to supply detailed 
information in response to some of the specific questions that 
have been raised relating to the attack. Our report is based on 
the review of tens of thousands of pages of classified and 
unclassified documents, 16 transcribed interviews, and one 
deposition.
    Our report provides new details about the intense and 
terrifying week last September when events at embassies and 
consulates around the world put U.S. personnel on hair trigger 
alert for days. These included events not only in Benghazi, but 
also in Khartoum, Sana'a, Karachi, Lahore and Islamabad where 
crowds of thousands marched, set fires and breached United 
States compounds repeatedly.
    Mr. Chairman, I ask that our report be made part of the 
record.
    Chairman Issa. Without objection so ordered.
    Mr. Cummings. Thank you.
    Another critical way we should honor the memories of these 
heroes is by implementing the recommendations and reforms that 
were put forth to improve the security of our diplomatic and 
military forces around the world. This is so important. This is 
the committee on Oversight and Government Reform, reform is so, 
so vital, particularly at this moment.
    I hope we can all agree on a bipartisan basis that we 
should implement these recommendations as effectively and as 
efficiently as possible.
    On this point, Ambassador Pickering explained to the 
committee during his deposition that because of his own 
personal and professional bond with Ambassador Stevens, he 
viewed his service on the Accountability Review Board as ``a 
debt of honor.''
    He said, ``Chris gave me two wonderful years of his life in 
supporting me in very difficult circumstances.'' He also said, 
``I owed him his family and the families of the others who died 
the best possible report we could put together.''
    However Ambassador Pickering also said he was deeply 
concerned that although the previous ARBs were ``excellent in 
their recommendations, the follow-through had dwindled away.''
    Ladies and gentlemen, we cannot let that happen under our 
watch. This is our watch. We are in charge now, and we must 
make the, we must never let a report like this sit on some 
shelves collecting dust, and then 10, 12 years from now we are 
going through the same process again. As I have said many 
times, we are better than that.
    I would like to make one final point. And let me go back to 
Admiral Mullen. I want to thank both of you for your service. 
The chairman said this is not any kind of an attack on you all, 
it is concerned about the breadth of the report and things like 
that. But I know that you gave a phenomenal amount of your time 
and I want to thank both of you. But I don't want to just thank 
you for today. I want to thank you for what you have done for 
your entire lives, for your entire lives, giving your blood, 
your sweat, your tears to make life better for us so that we 
could sit here and do what we do. And I appreciate that.
    Ambassador Pickering, in my 37 years of practicing law, I 
have never heard such compelling testimony. I just so happened 
to sit in at your deposition, and when you told us why you did 
this, and why it was so important that it be excellently done 
and completely done, and I will never forget the things you 
said. And I really thank you for that.
    There have been some extremely serious accusations that the 
ARB was a ``whitewash'' and a ``coverup.'' Some said ``it 
doesn't answer any real questions.'' And that is ``the sole 
function, the sole function was to insulate Hillary Clinton.''
    When I hear those kinds of statements and then I read the 
depositions and I listen to you, Ambassador Pickering, you 
know, I got to tell you, those kinds of statements upset me. 
Because I think that they are so unfair. And we are better than 
that.
    So let me respond as directly as I can. Based on all of the 
evidence obtained by this committee, this Benghazi review was 
one of the most comprehensive ARB reviews ever conducted. I 
have seen no evidence, none whatsoever, to support these 
reckless accusations. To the contrary, witness after witness 
told the committee that the ARBs report was ``penetrating, 
specific, critical, very tough, and the opposite of a 
whitewash.''
    Finally, one reason I requested today's hearing 4 months 
ago was to give Ambassador Pickering and Admiral Mullen an 
opportunity to respond directly to these unsubstantiated 
accusations. I'm glad they are finally being given that 
opportunity.
    Our Nation owes them and the other board members profound 
thanks for their dedication and for their service. With that, 
Mr. Chairman, I yield back.
    Chairman Issa. I thank the gentleman.
    All members will have 7 days to submit opening statements 
for the record, and we will now recognize our first panel.
    As previously noted, Ambassador Thomas R. Pickering served 
as chairman of the U.S. Department of State's Accountability 
Review Board for Benghazi. Ambassador Pickering has had a long 
and distinguished career as a diplomat. He has served in an 
unprecedented number of ambassadorships: Jordan, Nigeria, El 
Salvador, Israel, India, Russia, and the United Nations.
    Not to be any less distinguished, Admiral Michael G. 
Mullen, U.S. Navy retired, served as the vice chairman of the 
ARB. Admiral Mullen is a retired four-star Navy admiral who 
served two terms as the chairman of the joint chiefs of staff, 
the highest rank of any officer in the Armed Forces. Mr. Mark 
Sullivan served as chairman of the independent panel on best 
practices, and is the former director of the United States 
Secret Service, a role in which he and I worked together on a 
number of tough issues, and I respect your participation here 
today.
    The Honorable Todd M. Keil served as a member of the 
independent panel on best practices and is the former assistant 
secretary for infrastructure protection at the United States 
Department of Homeland Security.
    Welcome all. Pursuant to our rules would you please rise 
raise your right hand to take the oath.
    Do you solemnly swear or affirm the testimony you will give 
today will be the truth, the whole truth and nothing but the 
truth? Please be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    As I said before, this hearing in our private meeting, this 
is an important hearing and one in which each of your 
testimonies are extremely important. Your entire written 
statements will be placed in the record. Use as close to 5 
minutes as you can for your opening. I'm not going to have a 
heavy gavel if you have additional words you have to say, but I 
would like to allow as much time for questions as possible.
    Ambassador.

          STATEMENT OF AMBASSADOR THOMAS R. PICKERING

    Ambassador Pickering. Mr. Chairman, thank you very much and 
ranking minority member Mr. Cummings, thank you very much. It's 
an important opportunity to appear before you today for this 
important matter.
    It's been a special honor for me to work with Admiral 
Mullen and indeed the other members of the Accountability 
Review Board on this very pressing important and significant 
issue.
    If I may, and I don't want to extend beyond the limits of 
my brief with you, Mr. Chairman, I would hope that our report 
will also appear in the record in an appropriate fashion.
    Chairman Issa. The entire report will be placed in the 
record.
    Ambassador Pickering. Thank you, sir. The loss of four 
brave individuals is devastating to our country and most 
especially to their families. We sympathize with them, with 
Mrs. Smith and Mr. Woods and all of them in their loss.
    The board met pursuant to a statute. The questions the 
board was to respond to under the statute are the extent to 
which the incident was security related; whether the security 
systems and security procedures were adequate; whether the 
security systems and security procedures were properly 
implemented; the impact of intelligence and information 
availability; such other facts and circumstances which may be 
relevant to the appropriate security management of U.S. 
missions abroad; and finally, with regard to personnel, 
whenever the board finds reasonable cause to believe that an 
individual has breached the duty of that individual, the board 
should report that finding to appropriate Federal agency or 
instrumentality.
    The board met almost continuously for 2-1/2 months. The 
group worked collegially and intensively and after extensive 
activities outlined in my testimony, reached unanimous 
conclusions which are reflected in the report. The board 
conducted about 100 interviews beginning with key personnel who 
were on the ground during the events in Benghazi. It further 
reviewed many thousands of pages of documents and viewed hours 
of video. It was provided with the fullest cooperation by the 
Department of State and all elements of the U.S. Government.
    The key findings of the board include the following:
    The attacks were security related, involving the use of 
armed force against U.S. personnel at two facilities. 
Responsibility for the loss of life and other damage rests 
completely with the terrorists who carried out the attacks. 
Systemic failures and leadership and management deficiencies at 
senior levels within two bureaus of the Department of State 
resulted in a security posture at the special mission in 
Benghazi that was inadequate for the mission and grossly 
inadequate to deal with the attacks.
    Notwithstanding the proper implementation of security 
systems and procedures and the remarkable heroism shown by 
American personnel, those systems and the Libyan response fell 
short in the face of the attacks which began with the 
penetration of the mission by dozens of armed attackers. The 
board found that U.S. intelligence provided no immediate 
specific tactical warning of the attack. Known gaps existed in 
the U.S. Intelligence Community's understanding of the 
extremist militias in Libya and the potential threat that they 
posed to U.S. interests, although some threats were known to 
exist.
    The board found that certain senior officers within two 
bureaus of the State Department demonstrated a lack of 
proactive leadership and management ability in their responses 
to security concerns posed by the Benghazi special mission 
attack given the deteriorating threat environment and the lack 
of reliable host country, Libyan, protection. The board did not 
find reasonable cause to determine that any individual U.S. 
Government employee breached his or her duty.
    Recommendations. The Department of State should urgently 
review the balance between risk and presence. We did not agree 
that no presence was an appropriate answer in most cases. The 
basis for review should include a defined, attainable, priority 
mission, clear-eyed assessment of the risks and costs, 
commitment of sufficient resources to mitigate risks, and 
constant attention to changes in the situation, including when 
to leave and perform the mission from a distance.
    The Department should reexamine the diplomatic security 
organization and management. The Department should organize a 
panel of outside independent experts to identify best practices 
and regularly assist the Diplomatic Security Bureau in 
evaluating U.S. security in high risk and high threat posts, 
and indeed I'm delighted that Mr. Sullivan and Mr. Keil are 
with us who prepared that report.
    The Secretary should require an action plan on dealing with 
the use of fire as a weapon. Recalling the incomplete 
construction recommendations of the Nairobi and Dar Es Salaam 
ARB, the Department should work with the Congress to restore 
the capital cost sharing program in its full capacity adjusted 
for inflation to about $2.2 billion for fiscal year 2015 in a 
10-year program to address outstanding needs in high-risk, 
high-threat areas.
    While intelligence capabilities have improved post 2001, 
there is no certainty of warning information. More attention 
needs to be given to generally deteriorating threat situations. 
Key trends need to be identified early to sharpen risk 
calculations.
    The board recognizes that poor performance does not 
ordinarily constitute a breach of duty that would serve as a 
basis for disciplinary action, but instead needs to be 
addressed by the performance management system of the State 
Department. However, the board is of the view that findings of 
unsatisfactory leadership performance by senior officials in 
the case of Benghazi should be a potential basis for discipline 
recommendations by future ARBs and would recommend a revision 
of Department of State regulations or amendment of the relevant 
statute to this end.
    In conclusion, Mr. Chairman, it was an honor to be called 
again for government service on the Benghazi ARB. Many have 
said that our report would either advocate mere reinforcement 
of fortress embassies or closing down our presence. No 
conclusion like that could be farther from the truth. We 
recognize that perfection and protection is not possible and 
that fine and good men and women will still come forward to 
serve their country and risk their lives on the front-lines of 
danger. We should continue to do all that we can to protect 
them as they go about such challenging tasks. That was the sole 
purpose of our report, and it was produced with a deep sense 
that we had to get it right, politics, elections, personal 
controversy and all other external factors aside.
    I am aware that no report will ever be perfect but I am 
proud of this one which has been seen by many as clear, cogent 
and very hard hitting, as it should be.
    New information is always welcome. I feel that this report 
is still on the mark, free of coverup and political tilt and 
will personally welcome anything new which sheds light on what 
happened and that helps us to protect American lives and 
property in the future.
    Finally, I recognize that we are a government of branches 
and checks and balances. I have always respected the Congress 
and the tasks it must assume to make our Nation great. I appear 
today against the backdrop of those beliefs. We will not always 
agree. But let us always agree that the national interests, the 
best interests and welfare of the American people, are the 
criteria against which we serve.
    Thank you, Mr. Chairman, and I very much look forward to 
your questions.
    Chairman Issa. Thank you.
    [Prepared statement of Ambassador Pickering follows:]
    [GRAPHIC] [TIFF OMITTED] T5095.001
    
    [GRAPHIC] [TIFF OMITTED] T5095.002
    
    [GRAPHIC] [TIFF OMITTED] T5095.003
    
    [GRAPHIC] [TIFF OMITTED] T5095.004
    
    [GRAPHIC] [TIFF OMITTED] T5095.005
    
    [GRAPHIC] [TIFF OMITTED] T5095.006
    
    [GRAPHIC] [TIFF OMITTED] T5095.007
    
    [GRAPHIC] [TIFF OMITTED] T5095.008
    
    Chairman Issa. Admiral Mullen.


             STATEMENT OF ADMIRAL MICHAEL G. MULLEN

    Admiral Mullen. Mr. Chairman and Mr. Cummings, before 
addressing the subject of this hearing, both my wife Deborah 
who is here with me today, and I want to express our deepest 
sympathies to the families of those killed and the tragedy 
earlier this week. As a Navy family ourselves, those lost were 
part, were our shipmates and family members in the truest sense 
of the word, and their dedication, service to our country and 
sacrifice will never be forgotten.
    And Chairman Issa and Ranking Member Cummings and 
distinguished members of the committee, thank you for the 
opportunity to testify today. And I hope my testimony will be 
helpful to the committee as it investigates the tragic events 
that occurred in Benghazi, Libya on September 11th and 12, 
2012.
    Shortly after those events, I was asked by then Secretary 
of State to serve as the vice chair of the Accountability 
Review Board, established to examine the attacks on the special 
mission compound and annex in Benghazi. The board was ably led 
by Ambassador Thomas Pickering and included three other highly 
qualified, respected members with expertise in various areas 
relevant to this review.
    The board members took our responsibilities very seriously 
and we worked diligently to fulfill our obligations to 
determine the facts and make recommendations as to how best to 
avoid similar tragedies in the future.
    From the beginning, the State Department emphasized that it 
wanted full transparency about what happened in Benghazi and 
what led to those events. We had unfettered access to State 
Department personnel and documents. There were no limitations. 
We received the full cooperation of all witnesses and every 
State Department office. We interviewed everyone we thought it 
was necessary to interview. We operated independently, and we 
were given freedom to pursue the investigation as we deemed 
necessary.
    This independence was particularly important to me. I would 
not have accepted this assignment had I thought that the 
board's independence would be compromised in any way.
    The board interviewed more than 100 individuals, reviewed 
thousands of pages of documents and reviewed hours of video 
footage. We determined, as stated in the Board's report, ``that 
responsibility for the tragic loss of life, injuries and damage 
to U.S. facilities and property rests solely and completely 
with the terrorists who perpetrated the attack.'' The board did 
find multiple serious State Department shortcomings which 
exacerbated the impact of the terrorist attack. We also 
concluded that there was nothing the U.S. military could have 
done to respond to the attack on the compound or to deter the 
subsequent attack on the annex. The actions of our military, 
which moved many assets that night, were fully appropriate and 
professional.
    In total, the board made 29 recommendations, 24 of which 
were unclassified. I stand by those recommendations. One of the 
Board's recommendations led to the establishment of the best 
practices panel which Mr. Sullivan and Mr. Keil will detail 
today. Most of the Board's recommendations were designed to be 
implemented at State Department facilities worldwide in order 
to keep diplomatic personnel safe and secure everywhere they 
serve, especially in areas where they face great personal risk 
because our Nation needs them there.
    The State Department may implement our recommendations as 
it sees fit, and I understand that it has accepted and plans to 
implement them all.
    The Board's recommendations with respect to the 
shortcomings of State Department personnel have been given much 
attention. Because of the courageous and ultimate sacrifices 
made by Ambassador Stevens, Sean Smith, Glen Doherty and Tyrone 
Woods, the board meticulously reviewed the conduct of all State 
Department employees with direct responsibilities for security 
at the Benghazi special mission compound.
    We assigned blame at the level where we thought it lay. 
That is what the ARBs statute intended, operational 
accountability at the level of operational responsibility.
    The House report that originally adopted the ARB statute 
admonished that ``In the past, determining direct programmatic 
and personal accountability for serious security failures had 
been weak, often higher senior officials have ultimately 
accepted responsibility for operational failure in 
circumstances where they had no direct control.''
    The ARB statute permits a board only to make findings and 
recommendations. Any implementation of those recommendations 
must be done by the State Department. It is not an adjudicative 
process or body.
    As to personnel, the statute speaks only to recommendations 
that individuals be disciplined. As set forth by Congress in 
the ARB statute that governed the Board's deliberations, 
discipline requires a finding that an individual breached his 
or her duties. The board came to understand this as a very high 
legal standard going well beyond negligence that requires 
affirmative misconduct or willful ignorance of 
responsibilities.
    Furthermore, discipline is a formal term meaning complete 
removal or demotion, removal from or demotion within, the 
Federal service. Other forms of significant administrative 
action such as removal from a position or reassignment are not 
considered formal discipline.
    The board has encouraged Congress to consider whether to 
amend the ARB statute so that unsatisfactory leadership 
performance by senior officials in relation to the security 
incident under review should be a potential basis for 
discipline recommendations by future ARBs.
    After careful review, the board found that no individual 
engaged in misconduct or willfully ignored his or her 
responsibilities, and thus we did not find reasonable cause to 
believe that an individual breached his or her duty. However 
the board did find that two individuals demonstrated a lack of 
proactive leadership and management ability that significantly 
contributed to the precarious security posture of the Benghazi 
compound.
    The board recommended that the Secretary of State remove 
those two individuals from their positions. The board also 
concluded that the performance and leadership of two other 
individuals fell short of expectations but did not recommend 
any specific personnel action.
    Following our report, all personnel decisions were made by 
the State Department.
    I have the greatest admiration for the service and the and 
the sacrifice of Ambassador Stevens, Sean Smith, Glen Doherty 
and Tyrone Woods. They were patriots and heroes in every sense 
of the word. They died dedicating their lives to our country. I 
have heartfelt sympathy for the families of these brave men. We 
should never forget their sacrifice. I believe we should honor 
them by doing everything in our power to ensure that the 
lessons learned from Benghazi never have to be learned again. 
The board's report was issued in that spirit and with that 
goal.
    I look forward to your questions.
    Chairman Issa. Thank you, Admiral.
    [Prepared statement of Admiral Mullen follows:]
    [GRAPHIC] [TIFF OMITTED] T5095.009
    
    [GRAPHIC] [TIFF OMITTED] T5095.010
    
    [GRAPHIC] [TIFF OMITTED] T5095.011
    
    Chairman Issa. Mr. Sullivan.


                 STATEMENT OF MARK J. SULLIVAN

    Mr. Sullivan. Good morning, Chairman Issa, Ranking Member 
Cummings, and distinguished members of this committee thank you 
for asking Todd Keil and I to appear here today.
    The shootings at the Navy Yard which occurred earlier this 
week in our Nation's Capital, remind us all of the 
vulnerabilities and diversified threats we face every day 
whether in our own backyard or on foreign soil.
    My thoughts and prayers are with the victims, their 
families and loved ones.
    In any environment where uncertainty permeates, one 
certainty we share is the necessary collaborative effort that 
is needed in our country to ensure the safety and security of 
all American lives. It is also a necessary certainty that we 
honor and protect the memories of those citizens who have been 
lost as a result of violent attacks with dignity and respect.
    As a Federal agent for almost 35 years, my life has been 
and continues to be dedicated to contributing to improving 
America's security. From May 2006 through February, 2013, I had 
the honor of serving as director of the United States Secret 
Service under both Presidents Bush and Obama.
    As director, I learned and understood the importance of 
having clear lines of authority in an organizational structure 
concerning security matters. I have also learned that things 
don't also go as planned. And when they don't, it is vital to 
implement lessons learned in an effort to prevent them from 
happening again.
    Mr. Chairman, I consider it an honor to have served with 
the panel members Todd Keil, Richard Manlove, Raymond Mislock, 
Jr., Timothy Murphy, and staff, Erica Lichliter and Stephanie 
Murdoch.
    Our panel shares a combined experience of almost 170 years 
of security and law enforcement expertise.
    The panel's report reflects the independent views of the 
panel based upon the members' best professional judgment, 
experience and analysis of best practices informed by 
interviews, travel and research.
    It was a pleasure to serve with the other panel members, 
and I appreciate their professionalism and hard work. I would 
also like to acknowledge and thank the hundreds of people 
interviewed in the course of drafting this report from the U.S. 
Government, private sector, international organizations and 
foreign governments.
    The best practice panel was the result of the 
Accountability Review Board for Benghazi, which recommended 
that the Department of State establish a panel of outside 
independent experts with experience in high risk, high threat 
areas to support the Bureau of Diplomatic Security, identified 
best practices from other agencies and countries and evaluate 
United States security platforms in high-risk, high-threat 
posts.
    Our report provides 40 recommendations in 12 different 
areas. In the panel's opinion, these recommendations, if 
adopted and implemented, will further strengthen the 
Department's ability to protect its personnel and work more 
safely on a global platform to achieve American foreign policy 
goals and objectives.
    The 12 areas of recommendations are organization and 
management, accountability, risk management, program 
criticality and acceptable risks, planning and logistics, 
lessons learned, training and human resources, intelligence, 
threat analysis and security assessments, programs resources 
and technology, host nations and guard forces capability 
enhancement, regular evaluation, and change management, 
leadership, communications and training.
    The best practices panel looked across a wide spectrum of 
private government and nongovernmental organizations to 
identify effective measures to enhance the Department's ability 
to ensure a safe and secure environment for employees and 
programs.
    Not surprisingly, the panel found that many institutions, 
including governments, refer to diplomatic security as the gold 
standard for security and seek to model their services after 
diplomatic security. Nevertheless, any organization must 
continuously evolve and improve to adjust with a fluid and 
dynamic environment.
    The panel's view is that its recommendations should be 
realistic, achievable and measurable.
    The findings and the recommendations of the ARB as well as 
the recommendations of other Department of State reports and 
management studies were reviewed in the context of the panel's 
own independent assessments and observations of the 
Department's security-related operations. Best practices were 
then identified to address shortcomings and provide mechanisms 
for further consideration by the Department.
    Among one of the most important of the recommendations is 
the creation of an under secretary For diplomatic security. It 
should be noted that this structural recommendation is not new 
and was suggested in earlier report 14 years ago following the 
east Africa embassy bombings. The way forward should be 
characterized by cooperative efforts that will provide a 
framework which will enhance the Department's ability to 
protect Americans. To be effective we must be innovative so 
that we ensure institutions adapt and evolve to meet changing 
security requirements and needs.
    Finally, I would like to take this opportunity to thank the 
Department of State in particular, overseas post that hosted 
panel visits and the Bureau of Diplomatic Security For the 
outstanding support provided to the panel during our endeavor.
    Thank you for your time, chairman, ranking member and we 
look forward to any questions you may have.
    Chairman Issa. Thank you.
    [Prepared statement of Mr. Sullivan follows:]
    [GRAPHIC] [TIFF OMITTED] T5095.012
    
    [GRAPHIC] [TIFF OMITTED] T5095.013
    
    [GRAPHIC] [TIFF OMITTED] T5095.014
    
    [GRAPHIC] [TIFF OMITTED] T5095.015
    
    Chairman Issa. Mr. Keil, I understand you do not have an 
opening statement. Would you like to say a few words? The 
gentleman is recognized.


                     STATEMENT OF TODD KEIL

    Mr. Keil. Thank you, Chairman Issa, Ranking Member 
Cummings, and distinguished members of the committee for 
inviting Director Sullivan and me to testify today about our 
independent panel report on best practices in the aftermath of 
the tragic events that occurred in Benghazi, Libya.
    Our panel is committed to identifying best practices from 
throughout the U.S. Government, the private sector, 
nongovernmental organizations and foreign governments which can 
improve the security of U.S. diplomatic facilities abroad and 
enhance the safety of Department of State and foreign affairs 
agency personnel not only in high-risk areas, but globally. We 
identified 40 recommendations to achieve this goal.
    Importantly, the panel affirmed what we already knew based 
on our professional experience that the men and women of the 
State Department's diplomatic security service are truly 
dedicated public servants, and amongst the best in service to 
our great Nation. Every day around the world they face extreme 
challenges, unpredictable risks and unknown events but still 
provide a safe and secure environment for the conduct of U.S. 
foreign policy, and they do so with distinction.
    As we stated repeatedly throughout our report, best 
practices will not save lives unless they are resourced, 
implemented and followed, not just accepted.
    As Director Sullivan stated, almost 14 years ago, a number 
of very similar recommendations were made after systematic 
failures were recognized as a result of the east Africa embassy 
bombings, and little has been accomplished by the Department of 
State since then to improve its approach to security even after 
approval by then-Secretary of State Albright to elevate the 
Bureau of diplomatic security and make other enhancements.
    Now is the time for the Department of State, with the 
support of Congress, to finally institutionalize some real, 
meaningful and progressive change. The Department of State owes 
it to those people who have given their lives in service to our 
country and to those employees who continue to serve our 
country in some very dangerous locations around the world. 
Thank you very much, Mr. Chairman.
    Chairman Issa. Thank you.
    I will now recognize myself and I will go in reverse order.
    Mr. Keil, at the current time, isn't it true that both the 
facilities sufficiency and the sufficiency of diplomatic 
security rise to Under Secretary Kennedy, effectively he is the 
Under Secretary for Diplomatic Security at this time under the 
current structure isn't that true?
    Mr. Keil. Sir, as we traveled around the world as part of 
our panel research----
    Chairman Issa. No. No. Mr. Keil please. I have a very short 
time. You first start by saying yes or no.
    Mr. Keil. Yes.
    Chairman Issa. So he is, in fact, in a position where he--
the pyramid rises to him, your recommendation and the 
recommendation 14 years ago is that he be relieved of 
diplomatic security, and that be placed in the separate Under 
Secretary position, is that correct?
    Mr. Keil. Correct.
    Chairman Issa. Wouldn't that create, by definition, a 
situation in which somebody would be responsible for the 
hardware, the facilities, including Inman compliance and 
somebody else would be responsible for the bodies and the 
support.
    Have you considered that? And how would we or the Foreign 
Affairs Committee structure that briefly?
    Mr. Keil. Yes, we did consider that and, sir, currently 
there is integration between overseas buildings operations and 
the Bureau of Diplomatic Security.
    Chairman Issa. But they all report to Under Secretary 
Kennedy?
    Mr. Keil. They all report to Under Secretary Kennedy.
    Chairman Issa. And wasn't the failure in Benghazi both a 
failure to have the facility sufficient and a failure to have 
sufficient physical security in the way of armed personnel? 
Weren't those both failures that rose to one under secretary?
    Mr. Keil. Yes, sir.
    Chairman Issa. Okay. And that doesn't mean I disagree with 
the findings now or 14 years ago, but clearly, there was 
somebody who had both halves of it and both failed.
    My ranking member told Politico that we should listen 
carefully to the Ambassador and the Admiral, and I did, and 
Admiral, I think I heard you correctly clearly saying that you 
had limitations in what the ARB mandate was including that your 
limitations are you can't really, under the ARB, look at policy 
deficiencies and that by definition, you were mandated to look 
at the lowest level of operational failure, not the highest 
level of policy failure, is that true?
    Admiral Mullen. I think that policy, policy adjustments or 
policy issues were well within our mandate. What I talked about 
in my opening statement is the constraint was in the 
discipline----
    Chairman Issa. Okay. So finding fault had to go to the 
lowest level, even though you looked at policy failures.
    Admiral Mullen. Finding fault had to go to the appropriate 
level.
    Chairman Issa. Okay. Well, the decision to extend the 
facility for another year with limited protection and not 
meeting Inman or close to Inman standards was a decision made 
by Under Secretary Kennedy. So did you consider that policy 
error, the error to be there with insufficient fiscal and human 
resources, as a policy decision or only that someone lower was 
responsible?
    Admiral Mullen. Actually, I think the decision, the memo, I 
think to which you are referring----
    Chairman Issa. The August memo.
    Admiral Mullen. --Mr. Chairman, that Under Secretary 
Kennedy signed in December of 2011----
    Chairman Issa. Yes, December 2011.
    Admiral Mullen. --was the result of a process inside the 
State Department took everybody into consideration and was 
approved to extend it. And I think that was pretty clear to 
everybody. It wasn't the establishment of the--of the special 
mission compound----
    Chairman Issa. No. We understand that. We actually had--we 
actually had testimony that there was--there were under 
consider on September 11th of extending it permanently. But the 
decision to keep them there and the reduction in the assets to 
protect it occurred and was decided on in December 2011.
    Admiral Mullen. The failure, Mr. Chairman, was not in the 
establishment or that memo. It was in the execution of what was 
laid out in that memo to include the requisite number of 
security personnel, which were rarely there over the course of 
the next year.
    Chairman Issa. Okay. So whoever is responsible for not 
having enough security personnel is the person who failed.
    Admiral Mullen. Correct. That is actually where we ended up 
focusing the investigation, the review.
    Chairman Issa. The final point I want to make sure I get 
out is you had a mandate under of the ARB. You've said 
essentially that the changes in what the mandate are welcome 
and you believe, both of you, I understand, believe that some 
changes to the ARB to make it more able to do more will be 
necessary. I pretty well heard that, that what the Foreign 
Affairs Committee is considering, not the specific legislation, 
but considering changes is something both of you welcome, 
having gone through this process.
    Admiral Mullen. I think it is important. Yes, sir. I think 
where--for the lessons that we learned, absolutely. I think its 
independence is critical, as well as the anonymity of those who 
come to the table to--to make statements so that those 
statements are made in the spirit of where we're trying to go, 
and they don't feel limited.
    Chairman Issa. And when I heard you, you said that the--
both of you said that the administration, the Secretary and so 
on made your job easy because you had full access to a hundred 
witnesses and the attempt was to have full transparency.
    Admiral Mullen. Correct.
    Chairman Issa. Do you think that Congress should have that 
same option? In other words, since the State Department has not 
made one of those witnesses you interviewed first available, 
meaning people in Benghazi who are fact witnesses, none have 
been made available. As a matter of fact, even the names have 
been, to the greatest extent possible, withheld from this 
committee, do you believe that is appropriate, or do you 
believe that we should have access to fact witnesses as we 
review the process?
    Admiral Mullen. Mr. Chairman, I think that is--and I have 
been in government a long time--that is something that 
historically, certainly in this case, has to be worked out 
between the Congress and the executive branch.
    Chairman Issa. Admiral, if something like the Cole attack 
occurred again today and Congress said we wanted to speak to 
people who were on the deck of that ship today, would you 
believe that we should have a right to speak to those people in 
order to understand the facts on the ground that day?
    Admiral Mullen. I don't--I--I honestly----
    Chairman Issa. I am asking from your experience.
    Admiral Mullen. I understand that. I don't----
    Chairman Issa. And a DOD framework.
    Admiral Mullen. I don't know what would limit you to do 
that, quite frankly.
    Chairman Issa. I am in the process of issuing subpoenas 
because the State Department has not made those people 
available, has played hide and go seek, is now hiding behind a 
thinly veiled statement that there is a criminal investigation. 
As you know, there was a criminal investigation on the Cole, 
any time Americans are killed abroad. So the answer, quite 
frankly, is we are not being given the same access that you had 
or Mr. Sullivan and his team had. And that is part of the 
reason that this investigation cannot end until the State 
Department gives us at least the same access that they gave 
your board.
    And, with that, I recognize the ranking member for his 
questions.
    Wait a second. Just one second. I apologize. I do have to 
make a technical correction, if you don't mind. It has come to 
our attention that there is a typo on page 25 of the majority 
staff report that has led to some misunderstanding about what 
Admiral Mullen told the committee about a conversation with 
Cheryl Mills. We have made a technical correction in our report 
to clarify that portion. The report will be--correctly 
identifies Admiral Mullen's testimony as referring to Charlene 
Lamb's interview. The report includes the full text of Admiral 
Mullen's testimony, and the testimony speaks for itself. And 
the full transcript of the interview will be made available on 
our Web site immediately. And it should be clear that the typo 
was unintentional and has been corrected.
    And I now recognize the ranking member.
    Mr. Cummings. First of all, I want to thank the chairman 
for addressing the last issue. That fact came out in our memo, 
by the way. And we made it clear that that was not correct.
    Admiral Mullen, as the former Chairman of the Joint Chiefs 
of Staff, you were the military expert on the ARB. Is that 
correct?
    Admiral Mullen. Correct.
    Mr. Cummings. Over and over again, during the past year, 
Republican Members of Congress, including several members of 
this committee, have impugned the integrity of our military 
forces and their leadership by suggesting that they withheld 
assistance on the night of the attacks for political reasons.
    Admiral Mullen, if you look on page 23 of our report, there 
is an excerpt from your interview with the committee in which 
you said this, and I will quote, quote it for you, it says, ``I 
personally reviewed, and as the only military member of the 
ARB, I personally reviewed all the military assets that were in 
theater and available.''
    Admiral Mullen, in your review, did you have access to all 
military information, data, and people necessary to evaluate 
the military--the military's response.
    Admiral Mullen. I did.
    Mr. Cummings. And I understand from your interview 
transcript that you conducted this examination not once but 
twice. Is that correct?
    Admiral Mullen. First time, Mr. Cummings, was to--actually 
with all members of the ARB, we went to the Pentagon to review 
it in detail. And then the second time, I went back by myself 
when this became an issue that there were certainly questions 
being raised about, I went back again to verify and validate 
what I had done before. And I found nothing different in that 
the military response, the military did everything they 
possibly could that night. They just couldn't get there in 
time.
    Mr. Cummings. So, just to be clear, you have 40 years of 
experience in the military and achieved the highest ranks. You 
had access to all the information and personnel you thought 
were necessary to investigate the interagency response on the 
night of the attack and you personally reviewed everything 
twice. Do I have that right?
    Admiral Mullen. Correct.
    Mr. Cummings. You told the committee during your interview: 
``I concluded after a detailed understanding of what had 
happened that night that, from outside Libya, that we'd done 
everything possible that we could.'' Is that right?
    Admiral Mullen. Correct.
    Mr. Cummings. Can you explain from your perspective what it 
means for the military to have done: ``everything possible.'' 
What I am getting at is, did the military really try 
everything?
    And I ask this for the families who want to know that the 
country their loved ones served did everything they could do 
for them.
    Admiral Mullen. Mr. Cummings, I worked for two Presidents. 
The direction you get from a President in a situation like that 
is ``Do everything you can.'' It's all the guidance that you 
need. Secretary Panetta and General Dempsey both testified to 
the specifics along the lines of--in testimony early February 
along the lines of what I found when I reviewed this on two 
occasions. It is our--it is--it goes to our core, when people 
are in trouble, to do everything we possibly can to help them 
out. And there were many forces that moved that night, 
including a Special Operations force in Europe that ended up on 
a base in Southern Europe, a large Special Operations force 
from the United States, which moved under direction as soon 
as--as soon as they were given orders; a group of Marines that 
essentially were sent in from Spain into Tripoli the next day. 
It literally became--this is not something you can just wish to 
happen instantly. There is a lot of planning, preparation, as 
rapidly--to do it as rapidly as one can do it.
    And, if I may, I will just--there has been great discussion 
given to fast movers: Could you get a jet over Benghazi because 
there are jets in Europe? We have--our readiness condition at 
that--on that particular night, there were no planes sitting at 
the ready. So it is 2:00 in the morning. There are no planes on 
alert. It is 2 and a half to 3 hours to fly there. Tanker 
support is 4 hours away. You need host nation support for where 
they are to get permission to fly, particularly combat-ready 
jets, out of that country. You have got to go get the bomb 
racks. You have got to stet the munitions together. You have 
got to plan the mission. There are a tremendous number of 
details that have to go on. You have to bring the pilots in, 
pre-brief them, et cetera. Takes hours and hours and hours to 
do if you are not sitting at the ready when this happened.
    What has happened since then that I have been briefed on is 
the Defense Department, the Pentagon has adjusted readiness of 
forces in certain parts of the world to respond. We are not big 
enough in the military to--and--Ambassador Pickering will I am 
sure echo this--we are not big enough in the military to be 
everywhere around the world to respond to where every embassy 
is that might be high risk. We have to take risks and figure 
that out.
    Mr. Cummings. So, Admiral, what do you say in response to 
those members who continue to this day to imply that the 
military somehow fell down on the job?
    Admiral Mullen. They didn't fall down on the job, and I 
just completely disagree with that view.
    Mr. Cummings. Now, Ambassador Pickering, I see you shaking 
your head. Would you comment? I have about a minute left.
    Ambassador Pickering. I think the point that has just been 
made by Admiral Mullen is very important. We have over 270 
consulates and embassies around the world in some very isolated 
and strange places. The responsibility for their primary 
security rests with the host country. Where that does not 
exist, as it did in Benghazi, it falls back on us to do it. The 
report we provided you and others provides the recommendations 
to deal with those particular cases. We are not able to count 
on the U.S. military, as Admiral Mullen said, always being 
positioned to come in short notice to deal with those issues, 
so we must do better on the ground.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Chairman Issa. Thank you.
    Now recognize Mr. Mica for his questions.
    Mr. Mica. Thank you, Mr. Chairman.
    And many Americans have been waiting for this hearing. As I 
go back to my district, Admiral and Ambassador and others, I 
can't tell you how many times people have said, don't let 
Benghazi and what happened there be swept under the table.
    Unfortunately, the ranking member mentioned this, that in 
my district and the vast majority of Americans feel that your 
report was a whitewash; he said whitewash or cover-up. But 
that's what people feel. And they feel their government let 
them down. They feel that American public servants were lost 
there. And now the review is--doesn't really address anything. 
Nobody has been fired. Nobody has been dismissed. No one has 
been arrested for the murders. I can't tell you how frustrating 
this is. Do you understand where the American public is coming 
from, Admiral Mullen.
    Admiral Mullen. Mr. Mica, I understand what you are saying 
with respect to that.
    Chairman Issa. Would you please put the mic a little 
closer, Admiral?
    Admiral Mullen. Sorry. I understand what you are saying.
    Mr. Mica. I am just tell you how my people feel. So they 
want us to get to this.
    Then you look at who was interviewed, for example, you just 
got through, Admiral Mullen, saying that we seek direction from 
the President. You sought direction, and the President had to 
do this.
    Admiral Mullen. Mr. Mica, that was what the military----
    Mr. Mica. I know----
    Admiral Mullen. --got from the President in terms of 
response.
    Mr. Mica. But the military is the one that could have saved 
the day. And the Secretary of State--when you don't have a--and 
for 14 years now haven't had an under secretary of security, 
which was recommended. So someone was in charge. Mr. Keil said 
he felt Kennedy or someone was in charge. But again, no one 
held accountable to this date. That is the way Congress feels 
and the American people feel.
    I tend to differ with you--I am not the greatest military 
strategist, but Mr. Issa and I were, in January, we were at 
least at one post. I know of at least three other posts, we 
could have launched an attack. The attack started at 9:45. We 
might not have been able to save the first two, the ambassador 
and his colleague, but the Seal should never have died. It was 
9:45. It was a 5:15 to 5:30 when they died. You testified a few 
minutes, 2 and a half to 3 hours. There is no reason that we 
couldn't launch from at least three locations I visited and 
been told that we have in place people monitoring the 
situation, particular and specifically in Africa and North 
Africa. And if we are not, shame on us.
    Admiral Mullen. What I said was 10 to 20 hours to get 
there.
    Mr. Mica. That should not be the case.
    Admiral Mullen. That is the way it was that----
    Mr. Mica. And I was advised as a Member of Congress, when I 
visited and sat down at one of those locations, that we could 
launch almost immediately to rescue American personnel or 
American citizens in danger. So there is something wrong there.
    Then, again, investigating people above. It is all below 
the lower level, of which nobody--a couple people temporarily 
moved, all with pay and to other positions. You didn't 
interview the Secretary of State. She appointed four out of the 
five members. Is that correct? Of the board.
    Admiral Mullen. She did.
    Mr. Mica. Yes. And it looks like a--sort of an inside job 
of investigation. The Department of State looking at the 
Department of State. And you had difficulty--again, you 
testified you didn't have difficulty, Mr.--Admiral Mullen, but 
two witnesses interviewed by the committee testified that ARB 
member Richard Shennick told them that it was difficult 
process, that the board was having a tough time obtaining 
details or context. Another witness stated, I said, ``Dick, how 
is the ARB going?'' And Dick said, ``Ray, it is going slow; we 
are not getting any details, we are not getting any context.''
    Admiral Mullen. Well, we got lots of details and lots of 
context.
    Mr. Mica. Yes. But we are the Congress of the United 
States, and we aren't getting that. You just heard the 
chairman, the delay. We can't get access to witnesses. I had 
somebody come up to me another day, I don't know if it is true, 
they say they are--they are conducting lie detector tests of 
some of these people to see if they have talked to us. This is 
the stuff that is going on out there that American people feel 
that justice is not prevailing in this case.
    Again, you didn't--you didn't investigate--okay. You didn't 
go to Clinton. How about the Deputy Secretary, William Burns? 
Was he interviewed?
    Ambassador Pickering. We talked to both Mr. Burns and Mr. 
Nides, both Deputy Secretaries of State. At the time that we 
got to them, as it was with Secretary Clinton, we had very 
clear evidence, full and complete to our information, that the 
authority, the responsibility, the accountability rested with 
the people we identified.
    Mr. Mica. They are not on the list, unfortunately, the ARB.
    Finally, when Secretary Clinton testified, she said, I 
talked to the President at the end of the day, but had been in 
constant communication with the National Security Advisor, I 
guess it was Tom Donilon at the time, the staff told me. Did 
you interview Tom Donilon?
    Ambassador Pickering. We did not because we saw no evidence 
he made any of the decisions that we and the board were asked 
by the Congress to investigate with respect to the security. 
And we followed the precepts that Admiral Mullen has just 
outlined for you not to go for the people who didn't make the 
decisions but to go, following the will of Congress, to the 
people who made the decisions. And indeed, we went to the 
people who reviewed those decisions.
    Chairman Issa. I thank the gentleman.
    Mr. Mica. Secretary wasn't involved. I must be on another 
planet. Thank you.
    Chairman Issa. The gentleman's time has expired.
    We now go to the gentleman from Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. First of all, thank 
all of the witnesses, not just for being here today but for 
your service in relation to the panels that you recently filed 
reports with.
    Look, Admiral, I don't pretend at least as a member here to 
know better about what could have been done than somebody who 
served in the military with as long and as distinguished a 
career as you did. And no matter how many bases I visit, I 
don't think I will pretend that I have more knowledge or 
experience or ability than you do. So I am going to accept your 
word that you reviewed, not once but twice, all of the 
possibilities that were there and finally came to the 
conclusion that everything that could be done would be done. I 
think it is important for the families to know that. We 
shouldn't be surprised that some people in the public are 
confused because there have been misstatements plastered all 
over the place, on TV, and not retracted even when they are 
shown to be absolutely wrong. So there would be some confusion 
out there on that basis.
    But the chairman's staff report that was released earlier 
this week concluded that the ARBs independence is undermined 
and that board members had actually perceived--put that in 
quotes--``conflicts of interest.''
    Admiral Mullen and Ambassador Pickering, that is a very 
serious charge that challenges the integrity of the unanimous 
report but also challenges fundamentally your own integrity. I 
want to give you each an opportunity to respond to those 
allegations. But first, I want to again acknowledge that you 
both served our Nation for decades in some of the most senior 
positions in your fields. You have served Republican and 
Democratic Presidents alike, and you have won so many awards 
and promotions, respectively, that if I listed them all here, 
it would eat up the rest of my time. You agreed to volunteer 
months of your time to serve on this ARB.
    So, Admiral Mullen and Ambassador Pickering, can each of 
you explain why you agreed to serve on the board.
    Ambassador Pickering. As the ranking minority member made 
clear and as my testimony in my deposition, which is available 
to everybody, made clear, I served first because the Secretary 
of State asked me to take on a tough job. And I have been doing 
that for my life, and my sense of service to my country said 
this is not something that I should turn down, anyway, anyhow.
    Secondly, I made it very clear that Chris Stevens gave me 2 
years of help and service as Undersecretary of State. And I had 
a personal debt of honor to Chris to take this on.
    Thirdly, I felt very strongly that we needed quickly to 
know what went wrong and then how to fix it. And that was the 
function of the ARB. And I believe we carried out to the best 
of our ability that particular function.
    Finally, I had no sense anywhere that there was any 
conflict of interest. I have spent 42 years in the State 
Department. I knew many of the officers concerned. I have to 
tell you full, fair, and free, this was not an exercise in any 
personal sense of debt or obligation to any of those people. 
And I believe that the comments on the report that it was hard-
hitting, that it called the shots the way it should have, in my 
view, is the best summation of what we tried to do, free of 
political influence, free of conflict, and I am proud of the 
report, sir.
    Admiral Mullen. I served, first of all, because I was asked 
to do it, Mr. Tierney.
    Secondly, we lost four great Americans that night. I have 
certainly in the last 10 years or so been with so many of those 
in uniform as well as those who serve in the State Department 
around the world in some very, very difficult posts. And I 
thought I could, certainly with my experience, contribute from 
the professional standpoint and particularly from the military 
perspective on what happened that night and wanted to be able 
to do that. In its--at its core, it's still who I am, which is 
a servant of this country. And when asked to go do that, it was 
pretty easy to say yes.
    Mr. Tierney. Thank you.
    You know, the ARB staff comments were made by the 
Republican staff report they said: ``Under Secretary for 
Management Patrick Kennedy supervised the selection of the 
Benghazi ARB staff. This placed the staff in a position in 
which their duties required them to evaluate the performance of 
supervisors, colleagues, and friends.''
    Ambassador Pickering, how do you respond to the notion that 
the selection of staff created inappropriate conflict of 
interest?
    Ambassador Pickering. My understanding of the role of 
Secretary Kennedy was that he made clear he did not 
participate. That seemed to have been an error somewhere. And 
that testimony, I think, is now in the minority report.
    I think, secondly, my judgment of the staff performance was 
that I saw no hint of any favoritism or preference. I saw a 
staff that worked many extra hours, that looked very carefully 
at all the issues, that did extraordinary research for us, was 
highly responsible to us.
    But in every case, Mr. Tierney, we all reviewed the final 
report many times. We each made contributions, and the 
unanimous view of this five-member panel is they took full 
responsibility and approved every word of that report.
    Mr. Tierney. Ambassador, then the chairman's report also 
raises questions about your recommendation of board member 
Catherine Bertini. Do you in any way believe that your 
recommendations of Catherine Bertini created a conflict of 
interest, and can you explain who she is and why you 
recommended her as a board member?
    Ambassador Pickering. No. I was asked in the course of an 
early discussion who I thought might usefully serve on the 
board from outside the State Department. And I gave a list of 
names to Under Secretary Kennedy, who was accumulating those 
for Secretary Clinton. Large number of the people that I put on 
the list were not selected. Catherine Bertini was selected. She 
had, in my view, an outstanding reputation. She ran the World 
Food Programme, a multibillion dollar enterprise of the U.N. 
She was Under Secretary General of the U.N. for Management. She 
has a distinguished record as a professor of public policy. And 
I knew, in fact, that her own political background was on the 
opposite side to the party in power.
    Mr. Tierney. Thank you, sir.
    Yield back.
    Chairman Issa. When the staff report talked about 
conflicts, isn't it true that there were no true outsiders? 
There were no advocates for the families. There were no people 
whose service outside of government could have caused them to 
be skeptical. But, in fact, each of you--and, Ambassador, you 
said you had no conflict. Well, at the same time, you talked 
about 42 years in the organization you were overseeing.
    If we looked at the bank failures of 2007 and brought Jamie 
Diamond in to head the board, some might say that there was an 
inherent conflict because of his experience and life.
    Wouldn't you agree that, in fact, your makeup was a makeup 
of people like Admiral Mullen, who was responsible for the 
policy, ultimately, just before he left as Chairman of the 
Joint Chiefs that had no response to this 9/11 attack, and of 
course, you had years of viewing things through an ambassador's 
eyes.
    Ambassador Pickering. Mr. Chairman, with greatest respect, 
this was not a ``gotcha'' investigative panel. The 
responsibilities were to provide recommendations to see that we 
do our best never to let this happen again.
    Would you choose--put it this way, someone with no 
experience to come in and investigate and carry forward the 
work? We used to, years ago, elect military officers. We 
stopped that a long time ago. I suspect that brain surgery was 
one of the most early professionalized occupations in the 
world. Why would you choose a panel of people who knew nothing 
about the responsibilities, nothing about how and in what way 
they were carried out? The value of this panel was that three 
were from outside, and only two of us were from inside, 
hopefully to give precisely the cross current of controversy, 
discussion, questioning, and examination that you yourself just 
expressed the hope that we had. We, sir, had that.
    Chairman Issa. I appreciate that.
    Obviously, this was not a ``gotcha'' panel because nobody 
was ``gotcha'd,'' Admiral.
    Ambassador Pickering. I would with great respect say we 
gave four names to the Secretary of State that we believed were 
failing in their senior leadership and management 
responsibilities.
    Chairman Issa. So it is your testimony today that something 
should have happened; they should not be on the job, not having 
lost a day's pay.
    Ambassador Pickering. We made recommendations that two of 
those people be removed from their job----
    Chairman Issa. So people should have been fired that have 
not been fired.
    Ambassador Pickering. Fired is a discipline. It is a 
different set of circumstances. I cannot respond for the 
Secretary of State and what he or she is----
    Chairman Issa. But wouldn't you agree, there was no 
accountability?
    Ambassador Pickering. No, there was accountability. Of 
course. And we identified it.
    Mr. Lynch. On a point of order. Are we going to balance out 
the time?
    Chairman Issa. To be honest, the gentleman went over. I was 
trying to make this quick.
    Mr. Duncan is now recognized.
    Mr. Duncan. Thank you, Mr. Chairman.
    And earlier, you commended Ambassador Pickering and Admiral 
Mullen. I want to commend you and your staff for the very 
thorough way that you have attempted to get the full story of 
this Benghazi situation in an instant.
    Let me--let me just mention--say this. Ever since some well 
publicized embassy bombings in 1998 and then again after the 
events of 9/11, the Congress has approved whopping increases, 
many, many billions of extra and additional funding for embassy 
security around the world. Yet the ARB report found that: 
``Embassy Tripoli did not demonstrate strong and sustained 
advocacy with Washington for increased security for Special 
Mission Benghazi.''
    I would like to ask Ambassador Pickering or Admiral Mullen, 
how did you come to that conclusion? Were there specific 
documents that led you to that statement or----
    Ambassador Pickering. Yes, Mr. Duncan.
    It was a combination of documents and personal interviews 
with the people who made the recommendations.
    Mr. Duncan. Admiral Mullen. Okay.
    Admiral Mullen. I would agree with Ambassador Pickering 
said.
    Mr. Duncan. The--your report says, on page 4, that; 
``Systematic failures and leadership and management 
deficiencies at senior levels within two bureaus of the State 
Department resulted in a special mission security posture that 
was inadequate for Benghazi and grossly inadequate to deal with 
the attack.''
    What--what were the systematic failures and leadership that 
you are talking about in that statement?
    Ambassador Pickering. Briefly, sir, a constant churn in 
personnel, including security personnel, with an average stay 
time in Benghazi of 40 days or less, and, as well, differential 
and uncertain and then sometimes negative attitudes towards 
security physical improvements of the post are two examples.
    Admiral Mullen. I would add to that, sir, that it is--the 
application of resources over time, whether it was from inside 
the security branch of the State Department or inside the 
buildings branch. The training of personnel before they went 
for the right kind of high-threat training. The physical 
upgrades that had been sought. And it is because the rotations 
were occurring, so quickly, the continuity of achieving those 
physical upgrades, the stovepipes that no leader, no leader--
and we focused on the key leaders in our report--saw fit to 
cross to make things happen from a leadership perspective. So 
there wasn't active interventionist kind of leadership. And we 
particularly focused on the people with the knowledge in 
security who actually were making the decisions. So it was--as 
well as knowledge in the area, so that would be the NEA bureau 
as well.
    Mr. Duncan. You said not--the knowledge that was available. 
And several people and the chairman just talked about how no 
one has been held accountable in the way that most American 
people would consider accountability in this situation.
    And, Admiral Mullen, in your interview with the committee, 
you were asked about a man named Ray Maxwell. And you said, 
``Nobody had the picture like he did.''
    Admiral Mullen. Ray Maxwell was in a position in the--in 
the NEA bureau where his whole portfolio were these four 
countries in the Maghreb, including Libya. As was stated 
earlier, there was a--there was a tremendous amount of 
instability throughout the Middle East, not just the 
demonstrations but clearly the evolution of what had happened 
in Egypt and Syria as well. So as you net down and you have the 
Assistant Secretary Jones, who is very focused on the whole 
region, to include those crises, and you come down under her, 
the individual with, from my perspective, the focus, the 
knowledge, the portfolio, the day-to-day focus, was Mr. 
Maxwell.
    And I was, quite frankly, taken back significantly that he 
had, from my perspective, removed himself from those 
responsibilities in terms of what was going on in Libya. I was 
shocked, actually, based on his interview.
    Mr. Duncan. I had to slip out briefly to another committee. 
Maybe you have already answered this. But were you surprised or 
shocked that he or some--or any of these other three people, 
the top four that have been removed, that they--that no one was 
fired?
    Admiral Mullen. We have talked about the constraints of the 
law. And that--those are very real constraints. And if I could, 
oftentimes this gets equated--Chairman, you brought up the 
Cole. So this gets equated to the military. So when we have a 
military commander that fails we, quote-unquote, ``fire'' them. 
What that really is in essence is we move him or her out of 
that job. They are not dismissed from the Federal service, 
unless you get into the criminal--unless they go through the 
criminal proceedings, and they are dismissed as a result of a 
court-martial. So there is this mismatch of the perception of 
you fire people in the military all the time. What you really 
do is you move them out of a job. They still are in the Federal 
service.
    Mr. Duncan. So you don't fire them in the way they would be 
fired in the private sector.
    Admiral Mullen. Where they are no longer part of the 
organization, no, sir.
    Chairman Issa. Will the gentleman yield?
    Mr. Duncan. Yes, sir.
    Chairman Issa. Isn't it true in the military you would get 
an adverse OER. You would never be promoted again, in all 
likelihood, and your career would be over. And in an up-or-out 
basis, you have a limited time before you are going to be 
forced out. And if you are a second, first lieutenant, you are 
going to be forced out before you are eligible for retirement. 
So in the military, isn't there a level of ultimate 
accountability in which your career is over and you know it at 
that moment?
    Admiral Mullen. Absolutely. And I would let Ambassador 
Pickering speak to how that works in the State Department.
    Ambassador Pickering. I think there is an exact parallel. 
Exact parallel. If you are removed from a job, particularly 
under the circumstances that have to do with something like 
Benghazi, your future career is, in my view, finished.
    Chairman Issa. Thank you.
    Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman, and ranking member. I 
want to thank the panelists for helping us with our work. To 
begin, I want to offer my prayers and condolences to the 
Stevens family, the Smith family, the Woods, and Doherty 
families for their loss. I think we can only hope that their 
grief and the burden that they now carry might be lightened a 
little bit by knowing that it is shared by so many across this 
Nation and perhaps by knowing the high regard with which our 
government holds the breadth of their family's service and the 
depth of their sacrifice. Also, as has been mentioned, I think 
it is important that we remember these four individuals were 
among our Nation's very best, who accepted great personal risk 
to do a very dangerous job. And in that sense, I think it 
somehow diminishes their memory to think of them as victims. 
Far from it. These four men, I think it is better to honor them 
and their memories by recalling that they--they were very 
dedicated patriots. They are American heros. They trained long 
and hard, and they prepared long and hard. And with extreme 
bravery, they went out--they went out to meet the challenges 
that they--that they faced. And they loved doing so on behalf 
of this country.
    Now, Admiral Mullen, in your interview with the committee, 
you said that during an unfolding crisis like this, the 
President is likely to tell their military leaders to; ``do 
everything possible to respond.'' And this is--this is 
basically the direction they need to start moving assets 
forward and formulating a response. Is that basically your 
testimony?
    Admiral Mullen. That is my experience with two Presidents.
    Mr. Lynch. Okay. Terrific. Did it happen in this case?
    Admiral Mullen. Yes.
    Mr. Lynch. Did you find that the Defense Department, the 
State Department, and the intelligence community engaged 
quickly after the President gave them the green light?
    Admiral Mullen. As rapidly as they possibly could.
    Mr. Lynch. Okay.
    Ambassador Pickering, the committee had the opportunity to 
interview--our committee had the opportunity to interview Jake 
Sullivan, the former director of policy, planning, at the State 
Department. And he told us--this is a rather lengthy quote, but 
he told us that Secretary Clinton and other senior officials 
were heavily engaged on the night of the attacks. And let me 
read you what he said exactly: ``Secretary Clinton was 
receiving reports of what was happening, and she made a series 
of phone calls as a result of that and gave direction to Pat 
Kennedy, to Diplomatic Security, to Beth Jones, to do 
everything possible with respect to our own resources and with 
respect to Libyan resources to try respond to this situation. 
She was deeply engaged. She not only was receiving regular 
reports and updates, but she was proactively reaching out. She 
spoke with Director Petraeus. She spoke with the National 
Security Advisor on more than one occasion. She participated in 
the Secure Video Teleconference System, and she made other 
phone calls that night. And from the time she first learned of 
it, Secretary Clinton was the--this was the only thing that she 
was focused on.''
    So, Ambassador Pickering, are Mr. Sullivan's statements 
consistent with what you found regarding interagency response.
    Ambassador Pickering. Yes, they are consistent with what we 
heard principally from Mrs. Jones and from Undersecretary 
Kennedy from their perspectives and what we heard and what the 
committee heard and what the public heard from Gregory Hicks, 
who was in charge of Tripoli after the death of Ambassador 
Stevens.
    Mr. Lynch. Very good. And were State Department officials 
immediately engaged as the attacks unfolded?
    Ambassador Pickering. They were, sir, in multiple ways and 
through multiple channels.
    Mr. Lynch. And, in your opinion, did they do everything 
that they could to--they could that night.
    Ambassador Pickering. I believe they did.
    Mr. Lynch. Okay. My time has gone short. But, Admiral 
Mullen and Ambassador Pickering, I have followed both of your 
careers. They are--your reputation is impeccable and your 
service to this country has been in the highest standards of 
State Department and Defense Department. I just want to say I 
think at times you have been treated unfairly and that your 
body of work and diligence has not been appreciated by some. 
And I just think that you are owed a debt of gratitude for your 
years of public service, number one, and also your diligence 
and your energy and honesty and integrity during this whole 
process. I just want to thank you.
    And I yield back the balance of my time.
    Mr. Chaffetz. [presiding.] I thank the gentleman.
    Now recognize the gentleman from Ohio, Mr. Jordan, for 5 
minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    Admiral Mullen, in your testimony, your written testimony 
today, you--fourth paragraph, you say, ``We operated 
independently, were given freedom to pursue the investigation 
as we deemed necessary.''
    In your interview with the committee staff, transcribed 
interview, the committee asked you, ``The ARB is supposed to be 
set up as an independent review board. Did you have any 
questions about the independence of the board?'' Your response, 
``From my perspective, the most important descriptive 
characteristic of it was that it would be independent.'' Is 
that all accurate?
    Admiral Mullen. Correct.
    Mr. Jordan. Okay. In that same interview with committee 
staff, you were asked, ``Did you update the State Department in 
the course of the ARB?'' You replied: ``Shortly after we 
interviewed Ms. Lamb, Charlene Lamb, I initiated a call to Ms. 
Mills to give hear heads-up because at this point Ms. Lamb was 
on the list to come over here to testify.''
    Now, the ``over here to testify,'' is that in reference to 
when Ms. Lamb testified in front of this committee?
    Admiral Mullen. In October.
    Mr. Jordan. In October. Yes, sir.
    Admiral Mullen. Yes, sir.
    Mr. Jordan. And this Ms. Mills you refer to here, is this 
the same Ms. Mills who is Cheryl Mills, chief of staff and 
counselor to the Secretary of State?
    Admiral Mullen. It is.
    Mr. Jordan. All right. And this is the same Ms. Mills that 
Greg Hicks testified when he was in front of the committee last 
spring that, when she calls, you take her call. It is a call 
you don't always want to get, but it is one you always take. 
That is the same Cheryl Mills we are talking about?
    Admiral Mullen. I accept that that is what you say----
    Mr. Jordan. Okay. Later in that same response to the 
committee's question about you updating the State Department in 
the course of the ARB, you said this: ``So, essentially, I gave 
Ms. Mills, Cheryl Mills, chief of staff, counselor to the 
Secretary of State, a heads up. I thought that her appearance, 
Charlene Lamb, could be a very difficult appearance for the 
State Department.''
    Admiral Mullen. Correct.
    Mr. Jordan. Now, here is what I am wondering. My guess is a 
lot of people are wondering. If this is so independent, why are 
you giving the State Department a heads up about a witness 
coming in front of this committee?
    Admiral Mullen. We had just completed--within a day or two 
of that phone call, the----
    Mr. Jordan. So you had a phone call with Ms. Mills? Is that 
what we are talking about?
    Admiral Mullen. Yes. I mean, I think that is what my 
statement said.
    Mr. Jordan. Okay.
    Admiral Mullen. But, no, we had just completed the 
interview with Ms. Lamb. And as someone who----
    Mr. Jordan. That raises an important question.
    Admiral Mullen. Could I answer your question?
    Mr. Jordan. Yes, you can.
    Admiral Mullen. So my--as someone having run a department 
and spent many, many times trying, as a leader of a department, 
to essentially----
    Mr. Jordan. Let me ask--my time is winding down.
    Admiral Mullen. To--let me answer this, would you, please?
    Mr. Jordan. Well, let me ask you this, because this is 
important. The ARB was formed on October 3rd; correct?
    Admiral Mullen. Correct.
    Mr. Jordan. All right. Charlene Lamb came in front of this 
committee October 10th.
    Admiral Mullen. Correct.
    Mr. Jordan. Seven days later.
    Admiral Mullen. Right.
    Mr. Jordan. So why was she one of the first people you 
interviewed?
    Admiral Mullen. She was----
    Mr. Jordan. Why not----
    Admiral Mullen. She was one of the first people interviewed 
because she was the one in control of Diplomatic Security 
decisions.
    Mr. Jordan. Okay. How did you know she was on the list? Who 
told you she was testifying in front of Congress?
    Admiral Mullen. It was public knowledge that she was----
    Mr. Jordan. That is not usually made public until 2 days 
before.
    Admiral Mullen. Well, by the time I knew it----
    Mr. Jordan. So what day did you interview Charlene Lamb? Do 
you know?
    Admiral Mullen. Between the 3rd and the 10th.
    Mr. Jordan. Okay. Then when did you talk to Cheryl Mills? 
Right after that?
    Admiral Mullen. No, not right after that. I would say 
within 24 hours and specifically to give her a heads up that I 
didn't think that Charlene Lamb would be a witness at that 
point in time that would represent the department well, 
specifically. And I had run a department, worked a lot, worked 
a lot historically to get the best----
    Mr. Jordan. But, again, we have been told that this--the 
ARB is an independent review. In fact, you said it. You have 
said it twice.
    Admiral Mullen. Correct.
    Mr. Jordan. You said it in front of the committee staff; 
you said it in your statement today.
    Admiral Mullen. Correct.
    Mr. Jordan. And yet within a week, within a week, you are 
giving the counselor to the Secretary of State a heads up about 
a witness who you think is not going to be good witness when it 
comes in front of the committee investigating.
    You know what else happened between October 3rd and October 
10th? Congressman Chaffetz, sitting in the chair, went to 
Libya. And on that trip, for the first time, under what Greg 
Hicks testified in front of this committee last spring, State 
Department, Cheryl Mills, sent a staff lawyer on that trip. And 
Greg Hicks testified first time in all his years of diplomatic 
service where that lawyer was instructed to be in every single 
meeting Jason Chaffetz had with Greg Hicks. That also happened. 
Did you and Cheryl Mills talk about that?
    Admiral Mullen. No.
    Mr. Jordan. That also--and Greg Hicks also testified that 
when there was a meeting at a classified level that this staff 
lawyer was not eligible to attend, he got a phone call quickly 
thereafter from Cheryl Mills saying why in the world did you 
let this meeting take place where this lawyer couldn't be in 
that meeting?
    Admiral Mullen. I had nothing to do with----
    Mr. Jordan. Same Cheryl Mills in that same time frame you 
are giving a heads up to, and yet we are supposed to believe 
this report is independent.
    Admiral Mullen. I actually rest very comfortable that it is 
independent.
    Mr. Jordan. Let me ask you one last question because my 
time is out. Did Cheryl Mills--two last questions, if I could, 
Mr. Chairman.
    Did Cheryl Mills get to see this report before it went 
public?
    Admiral Mullen. We had a draft report when it was wrapped 
up. We specifically briefed the Secretary of State for a couple 
of hours and Ms. Mills was in the room.
    Mr. Jordan. So both Cheryl Mills and Hillary Clinton got to 
see this report before it went public?
    Admiral Mullen. The report was submitted to her. The 
Secretary of State made a decision----
    Mr. Jordan. So before December 18----
    Admiral Mullen. --to release it.
    Mr. Jordan. --they both got to see it.
    If I could, one last question. Let me just ask this, 
Admiral Mullen. So if an inspector general--if you learned that 
an inspector general in the course of an investigation informed 
its agency leadership that a witness scheduled to testify 
before Congress would reflect poorly on the agency, would you 
have concerns about an inspector general doing the same thing 
you did?
    Admiral Mullen. The intent of----
    Mr. Jordan. No, that is yes or no. If an inspector general 
did what you guys did, would you have concerns about that?
    Admiral Mullen. The intent of what I did was to give the 
leadership in the State Department a heads up with respect to 
Ms. Mills. That was----
    Mr. Cummings. Mr. Chairman----
    Mr. Jordan. --see the final report until it went public.
    Mr. Chaffetz. The gentleman's time has expired.
    Mr. Cummings. I would ask that our witness--that Mr. 
Connally be given the same amount of time.
    Mr. Chaffetz. Absolutely.
    Mr. Connolly. I thank the chair.
    And I thank the ranking member.
    I welcome the panel.
    And I do want to say to family members my--I have heartache 
for your loss. I just lost three constituents at the Navy Yard 
last week. I am old enough to remember Lebanon, where our 
embassy was bombed not once, but twice. I lost a good friend in 
that embassy bombing in the early 1980s. Of course, we also 
lost our Marine Amphibious Unit. Well over a hundred lives were 
lost.
    I don't remember, Mr. Pickering, an ARB at that time. Was 
there an ARB?
    Ambassador Pickering. No. It was before ARBs became a 
practice, Mr. Connally.
    Mr. Connolly. Right. So we lost our embassy, dozens of 
deaths. We lost the MAU at the Beirut airport with over a 
hundred deaths of young Marines. I don't remember any 
investigation. I don't remember any charges. I don't remember 
the Democrats exploiting Ronald Reagan's management of that 
incident. We understood it was a national tragedy, and we tried 
to come together.
    I say to all four of you, I deeply regret the tone of this 
hearing. But it is typical, unfortunately, of all too many of 
the so-called investigations into Benghazi where apparently 
there is an agenda. And the agenda isn't getting at the truth; 
it is getting at somebody. In fact, the chairman used the word 
``gotcha.'' Seems to be regret there wasn't enough ``gotcha.'' 
So we are going to make up for it by getting you and trying to 
besmirch the reputations, particularly the chairman and co-
chairman of this ARB who are among the finest civil servants in 
their respective fields to serve this country in a generation. 
I just say to you, there are many who see through that and 
understand that innuendo and smear and insinuation and 
badgering aren't going to cloud the truth, that a tragedy 
occurred, and it occurred because terrorists perpetrated 
terror.
    And we are trying to find out, as you most certainly tried 
to find out in the ARB, how can we learn from that tragedy? How 
can we make sure there aren't more grieving families before us? 
How can we make sure we are better prepared? And I thank you 
for the courage you have shown, not only in undertaking that 
investigation but in weathering the partisanship that has 
clouded this investigation.
    Admiral Mullen, speaking of which, in an entirely partisan 
report leaked to the press, not shared with this side of the 
committee--which should give you a big, fat hint as to what the 
intent is--you were the subject of an allegation--follow up on 
the questioning just now--where, quote, ``Mullen put Cheryl 
Mills on notice in advance of her interview that the board's 
questions could be difficult for the State Department'' under 
the title that you gave Ms. Mills an inappropriate heads up 
prior to her ARB interview.
    I want to give you an opportunity to respond to that 
allegation.
    Admiral Mullen. I called, and as I said, I tried to say, I 
called Ms. Mills, having interviewed--actually the ARB had 
interviewed Ms. Lamb very early in the process, prior to the 
first testimony here on the Hill on I think the 10th of 
October. And I was particularly concerned because I had run a 
major organization, a couple of them and had always worked to 
provide the best witnesses to represent the organization on the 
Hill. And it was very early in the process, as far as what had 
happened. There were many unknowns. I was concerned about her 
level of experience. And I expressed that to Ms. Mills and that 
was it.
    Mr. Connolly. You don't think that you gave an 
inappropriate heads up to Ms. Mills?
    Admiral Mullen. No.
    Mr. Connolly. Did you give an inappropriate heads up to 
Charlene Lamb?
    Admiral Mullen. No. No. I am--and in fact, with respect to 
the independence piece, it never had an impact.
    Mr. Connolly. Ambassador Pickering, do you want to comment 
on that?
    Ambassador Pickering. I would.
    I think there are two issues running here. I think Admiral 
Mullen has clearly explained what he did and why. I think it 
had nothing to do with the ARB.
    I do think the Republican text which you cited is an error. 
It had nothing do with testimony by Cheryl Mills before the 
ARB.
    The third point is that I believed from the beginning of 
the ARB, since we were to report to the Secretary, that it was 
my obligation as Chairman from time to time to talk to the 
Secretary through the chief of staff about our progress, about 
where we were going, about, in fact, the timing of the report, 
and, in fact, what our expectations were with respect to the 
timing of conclusion, all of which I believed was in full 
keeping with our obligation to the Secretary to give the best 
possible report.
    There was no direction. There was no feedback. There was no 
request to do this, that, or the other thing. And that happened 
every couple of weeks.
    Mr. Connolly. Thank you, Mr. Ambassador.
    I have one more minute, and I want to ask just one more 
question.
    Admiral Mullen, one of the things that has seemingly been 
disproved time and time again but it keeps on coming up as 
recently our hearing on Benghazi yesterday at the Foreign 
Affairs Committee, and that is the canard that there was an 
order to stand down, that somebody gave a command that the 
military was not to respond. Could you put that allegation to 
rest? Did that, in fact, happen, or did it not?
    Admiral Mullen. An order to stand down was never given. 
This specifically refers to the four special operators that 
were in Tripoli. They had finished at the--at DCM Hicks' 
direction, supporting movement of American personnel in Tripoli 
from the embassy compound into a safer place. Having finished 
that, as every military person, active or retired, would want 
to do, they want to go to the fight to try to help. He checked, 
Lieutenant Colonel Gibson checked up his chain of command, 
which was the Special Operations Command in AFRICOM, and the 
direction that he got was to hold in place. He was re-missioned 
then to support the security and the evacuation. And, in fact, 
only in hindsight, had they gone--and we had a very good 
understanding of what was going on then with respect to the 
evacuation--had they actually gotten on an airplane, they would 
have taken medical capability that was needed out of Tripoli 
and most likely crossed in route with the first plane that was 
evacuating Benghazi at the time.
    Mr. Connolly. Thank you.
    And thank you, Mr. Chairman.
    Mr. Chaffetz. Thank you.
    Gentleman's time has expired. Yields back.
    I now recognize any self for 5 minutes.
    Stevens, Smith, Woods, and Doherty. God bless them. That is 
what this is all about. Admiral Mullen, I would like to direct 
my questions to you.
    Within the Department of Defense, was there an after-action 
review or report that was done and did you read it?
    Admiral Mullen. I am--there always is, and I haven't seen 
it, no.
    Mr. Chaffetz. My understanding, Chaffetz there isn't a 
report. And for you to come to the conclusions that you did 
without reviewing such report, or if there is a review or is 
such a review or report is something the committee wants to 
further explore. It seems odd and mysterious there is no such 
report and that you would not have reviewed it.
    Did you--did the ARB ever talk to Lieutenant Colonel Steven 
Gibson?
    Admiral Mullen. We did not.
    Mr. Chaffetz. Did you or anybody in the ARB speak with 
anybody from the Office of Security Cooperation located at the 
embassy?
    Admiral Mullen. We were in touch with and spoke with--
actually interviewed the defense attache.
    Mr. Chaffetz. But not within the Office of Security 
Cooperation.
    What about, who is Colonel George Bristol?
    Admiral Mullen. I don't know.
    Mr. Chaffetz. He is the Commander of Joint Special 
Operations Task Force Trans-Sahara, directly responsible for 
the Office of Security Cooperation, and was not interviewed by 
the ARB.
    Did you ever speak with Rear Admiral Richard Landolt, 
Director of Operations for AFRICOM?
    Admiral Mullen. Not directly, no.
    Mr. Chaffetz. And nobody within the ARB did as well----
    Admiral Mullen. No. But actually, we were certainly aware 
of his input, having interviewed--I am sorry--having spoken 
with the Joint Staff and the Director of Operations on the 
Joint Staff.
    Mr. Chaffetz. He was the Director of Operations, AFRICOM, 
and was not interviewed by the ARB.
    Admiral Mullen. That is different from the Joint Staff. 
That is----
    Mr. Chaffetz. Yes. I understand. And he was not 
interviewed.
    The Rear Admiral Brian Losey, do you know who he is?
    Admiral Mullen. I do.
    Mr. Chaffetz. He is the Commander, Special Operations 
Command at the time of Benghazi attack. Did you or the ARB 
interview him?
    Admiral Mullen. We didn't.
    Mr. Chaffetz. Did you speak with Vice Admiral Charles Joe 
Leidig, Deputy to the Commander For Military Operations there 
in AFRICOM.
    Admiral Mullen. We spoke to actually General Ham, who is 
his boss.
    Mr. Chaffetz. But all of these people that I--I named off, 
directly involved in the operations that night, and one of the 
concerns is you didn't read an after-action report or review; 
we don't even know if there is one that has been done. All 
these people are directly involved; they were not engaged in 
this. What time did----
    Admiral Mullen. I effectively, when I went back, 
particularly the second time, listened to an after-action 
report with respect to what happened that night.
    Mr. Chaffetz. We all know----
    Admiral Mullen. I stand by what they did and what I saw.
    Mr. Chaffetz. We understand the General Ham was in 
Washington, D.C. He was not at Stuttgart. He was not in Libya. 
These people were.
    I--what time did the Department of Defense ask Libya for 
permission for flight clearance?
    Admiral Mullen. Actually, General Ham was involved 
throughout. They were able to do that globally----
    Mr. Chaffetz. I understand he was involved, but he was not 
in Stuttgart. He was not in Libya.
    The question is, did the Department of Defense ever ask 
Libya for permission for flight clearance? I believe the answer 
is no.
    Admiral Mullen. Which--do I get to answer the questions?
    Mr. Chaffetz. I am asking if that is----
    Admiral Mullen. What kind of flight clearance are you 
talking about?
    Mr. Chaffetz. So that we could fly our military assets over 
there. We already had permission to fly. The answer is no. 
Correct?
    Admiral Mullen. Correct. Actually, I take that back. The--
the assets that came from Germany, specifically, we received 
permission to put them----
    Mr. Chaffetz. That was--let me keep moving. When 
specifically did the United States military reach out to our 
NATO partners, given their close proximity, when did that 
happen?
    Admiral Mullen. Actually, I don't think it did.
    Mr. Chaffetz. And that is one of the concerns. The Italians 
had more than 50 Tornadoes less than 35 minutes away from 
Benghazi. We didn't even ask them. Never even asked why. You 
presided----
    Admiral Mullen. Mr. Chaffetz.
    Mr. Chaffetz. There is not a question in there. With all 
due respect, Admiral.
    Next thing. Specifically, when did the United States jets, 
tankers, whatever you need to do a show of force, when were 
they called up? When were they put on alert?
    Admiral Mullen. They were specifically looked at as to 
whether or not they could get there in time, and they couldn't. 
That was a decision that was made.
    Mr. Chaffetz. Here is the problem.
    Admiral Mullen. Actually, their readiness status was 
upgraded.
    Mr. Chaffetz. You said that no planes were at the ready. 
That was your testimony in Cairo, Admiral, with all due 
respect----
    Admiral Mullen. At the time of the attack, Mr. Chaffetz, 
the readiness status there were no strip alert aircraft ready 
to go.
    Mr. Chaffetz. And that is a fundamental problem and 
challenge, too, I think we have to look at. In Cairo hours 
earlier the demonstrators had breached a wall, gone over a 12 
foot wall, they tore down the American flag they put up an al 
Qaeda-type flag. It was Libya after the revolution on 9/11, we 
had been bombed twice prior, the British Ambassador had the 
assassination attempt and nobody is leaning forward? There is 
nobody that is that's ready to go? Were the closest assets 
truly in Djibouti? Is that where the closest assets were?
    Admiral Mullen. Physically in Djibouti? I think it was 
between Djibouti and other places in Europe.
    Mr. Chaffetz. Europe actually had more assets that were 
closer than Djibouti, correct?
    Admiral Mullen. They were not in a readiness condition to 
respond.
    Mr. Chaffetz. And that's what we fundamentally do not 
understand. Did you talk to anybody who did want to move 
forward? Was there anybody that you came across that did want 
to engage----
    Admiral Mullen. Everybody in the military wanted to move 
forward. Everybody in the military wanted to do as much they 
can. There were plenty of assets moving. It became a physics 
problem, and it's a time and distance problem. Certainly that 
is who we are, to try to help when someone is in harm's way.
    Mr. Chaffetz. And the fundamental problem is they didn't. 
They didn't get there in time. I'm telling you if you look at 
Glen Doherty, you look at Lieutenant Tyrone Woods, they ran to 
the sound of the guns. There were other people that wanted to 
go. Like Lieutenant Colonel Gibson I wish you or the ARB had 
spoken to them, because it is an embarrassment to the United 
States of America that we could not get those assets there in 
time to help those people. We didn't even try, we didn't ask 
for permission, we didn't ask for flight clearances, we didn't 
even stand up the assets we had in Europe. We didn't even try.
    Admiral Mullen. I disagree with what you're saying, Mr. 
Chairman.
    Mr. Chaffetz. You just told me that they did not even get 
to the ready. They were never asked. You presided as the 
Chairman of the Joint Chiefs when we bombed Libya for months we 
did so in connection with our NATO partners and you never asked 
those NATO partners to help and engage that night.
    Admiral Mullen. I actually commanded NATO forces, and the 
likelihood that NATO could respond in a situation like that was 
absolutely zero.
    Mr. Cummings. Mr. Chairman, I would ask that Ms. Speier be 
given an extra minute and a half so that she can clear up some 
of what you just said which we on this side of the aisle 
consider to be misleading.
    Mr. Chaffetz. I take exception to the last part, but the 
gentlewoman is recognized.
    Ms. Speier. Thank you, Mr. Chairman.
    You know, I am so outraged by the conduct of this committee 
today. There is 83 years worth of service to this country by 
these two men, and they are being treated shabbily, and I 
apologize to you for what I find to be just totally 
unnecessary.
    We are trying to get the facts. We are trying to prevent 
this from happening again, and badgering you does not achieve 
that goal.
    Now let me also point out that there has been a classified 
briefing, Mr. Chairman, on the whole issue of whether 
Lieutenant Colonel Gibson was told to stand down. It was an 
Armed Services Committee subcommittee meeting, I was there at 
it. There was a press release that was put out by the 
subcommittee after that classified briefing. And I want to read 
to you what was posted.
    During the attack, Colonel Bristol was traveling in Africa, 
unreliable communications prohibited him from participating in 
the attack response beyond an initial conversation with 
Lieutenant Colonel Gibson and Rear Admiral Losey. Colonel 
Bristol confirmed to committee that in his role, he gave 
lieutenant Colonel Gibson initial freedom of action to make 
decisions in response to the unfolding situation in Benghazi. 
Lieutenant Colonel Gibson previously testified to the committee 
that contrary to some reports, he was at no point ordered to 
stand down but rather to remain in Tripoli to defend the 
American embassy there in anticipation of possible additional 
attacks and to assist the survivors of the return from 
Benghazi. Colonel Bristol confirmed this account of events.
    When, I ask, will we ever listen to the facts? This came 
out of the subcommittee of the Armed Services Committee chaired 
by a Republican colleague. These are the facts.
    Let me move on and ask Admiral Mullen a question as well.
    Another allegation has been made by many Republicans 
including that the military should have sent the F-16s or other 
fighter planes to fly over Benghazi. I think that was a series 
of questionings from just prior to mine. Mr. Issa stated on 
national radio you still have to say why weren't there aircraft 
and capability headed toward them at flank speed, and the next 
time this happens can we count on this President and Secretary 
to actually care about people in harm's way as they are being 
attacked by al Qaeda elements?
    There are some things wrong with this statement. And I 
don't know where to start but how about this. Do you agree the 
President of the United States and Secretary of State: ``do not 
care about people in harm's way?''
    Admiral Mullen. I do not agree with that.
    Ms. Speier. With respect to flying jets over Benghazi, page 
32 of our report includes an excerpt from your interview 
transcript where you explain that these planes would have 
needed refueling maybe twice en route, is that correct?
    Admiral Mullen. That's correct.
    Ms. Speier. That is basically the same thing General 
Dempsey, the current chairman of the Joint Chiefs of Staff said 
in his testimony 4 months earlier before the Senate Armed 
Services Committee is that correct?
    Admiral Mullen. That's correct.
    Ms. Speier. After conducting your own independent review of 
the military assets, did you reach the same conclusion as 
General Dempsey?
    Admiral Mullen. I did.
    Ms. Speier. In fact, on Page 31 of our report, we quote 
from your interview transcript, there's no one I've ever met in 
military that wouldn't want to get help there instantly. The 
physics of it, the reality of it, it just wasn't going to 
happen for 12 to 20 hours. And I validated that in my review 
when I went to the Pentagon to look at every single asset that 
was postured in theater including those jets in Aviano, is that 
correct?
    Admiral Mullen. Correct.
    Ms. Speier. So Admiral Mullen, both former Secretary Gates 
and former Secretary Panetta raised other risk-based concerns 
about sending aircraft to fly over Benghazi on the night of the 
attack. Are you familiar with their concerns and do you agree 
with them?
    Admiral Mullen. I am familiar with their concerns, and you 
always have to assess the risks in a situation like that. My 
own experience is that certainly our military is prepared to go 
into high-risk environments if they're able to do that. There 
was an awful lot that night back to what we've talk about, that 
precluded that. It wasn't for lack of the desire to do that or 
help someone in harm's way.
    The other thing I would talk briefly about is the whole 
issue of the situation under, the circumstances in which Tyrone 
Woods and Glen Doherty actually gave their lives and in fact, 
they were killed in a very--they had just relieved two 
individuals on top of the building. Shortly after that, there 
were three mortar rounds that landed very accurately in a very 
short period of time in the middle of the night from a place 
nobody really knew where that mortar fire was coming from. And 
that is how they lost their lives in the end.
    So even the likelihood that we could have provided some 
kind of overflight over a long period of time, the likelihood 
that that would have somehow sorted out that mortar fire is 
virtually impossible.
    Ms. Speier.I thank you gentlemen for your service and to 
the families of those who lost their loved ones.
    Mr. Cummings. Would the gentlelady yield 30 seconds?
    Ms. Speier. Yes. I yield.
    Mr. Cummings. Mr. Chaffetz asked you about a number of 
people that you said you did an interview. Would either of you 
comment on that? How did you choose who you interviewed?
    Admiral Mullen. I think we both can quickly. We basically, 
as we started the interview we took, we essentially took the 
process and those we would interview based on the facts as we 
uncovered them over time, and did not feel, I did not feel 
compelled to interview the chain of command in South Africa. I 
understand that chain of command. I know what happens. I know 
Losey. I know where he was and I know what they were doing that 
night. I just didn't feel compelled to do that. And I was very 
comfortable, as I've said in my opening statement, we 
interviewed those we thought we needed to interview.
    Mr. Chaffetz. The gentlewoman's time is expired. We'll now 
recognize the gentleman from Michigan, Mr. Walberg, for 5 
minutes.
    Mr. Walberg. Thank you, Mr. Chairman.
    Mr. Sullivan, the ARB report discussed stovepipe to 
discussions by the State Department regarding decisions on 
policy and security.
    My question to you is what can be done to ensure these 
security decisions are not stovepiped and that the individuals 
making the decisions have access to the necessary security 
information.
    Mr. Sullivan. Thank you, Congressman. One of the things 
that we had recommended that I mentioned earlier was to create, 
to elevate the assistant secretary for diplomatic security to 
an under secretary level. As I'm sure you know overall, the 
Secretary is in charge of security for the Department, and that 
authority is delegated down to the Assistant Secretary. What we 
found is that that has led to a little bit of some confusion. 
When we spoke to people in the embassies, to the ambassadors, 
to the RSOs, to the deputy chief of mission, it seems like the 
lines of communication, the lines of authority, accountability 
are pretty well understood. What we found is at the headquarter 
level that was not as well understood.
    So we believe that by creating this new under secretary, 
there will be clear lines of authority that the under secretary 
in our view would be involved in the policy decisions with the 
under secretaries and we believed that that would go a long way 
towards creating clearer lines of communication.
    Mr. Walberg. Thank you.
    Mr. Keil, the best practices panel found that it is common 
across many industries to have a hot wash or after action 
debriefing of key participants in a critical event.
    What is the purpose of a hot wash?
    Mr. Keil. Sir, I think, and as Admiral Mullen says that 
typically happens at the Department of Defense also. It is to 
gain critical information as quickly as possible before 
memories start to fade.
    Mr. Walberg. Does State Department have a hot wash?
    Mr. Keil. We did not find any process for after action or 
hot wash at the State Department.
    Mr. Walberg. So there is no lessons learned process at the 
Department of State?
    Mr. Keil. We did not find a lessons learned process no.
    Mr. Walberg. In your opinion, what should the Department do 
to create an effective lessons learned process?
    Mr. Keil. I think they need to do a lessons-learned process 
from a tactical and strategic perspective, a lessons-learned 
process within the Bureau of Diplomatic Security and a broader 
enterprise wide lessons learned process for the Department to 
gather that critical information as quickly as possible, wrap 
it back into operations, wrap it back into training.
    Mr. Walberg. Any indication that that's being done?
    Mr. Keil. Not that I know of.
    Mr. Walberg. Thank you. Admiral Mullen, again, with all due 
respect, and this is a rhetorical question, you've answered it 
already, but I just wanted to ask this question to bring the 
context back again, and that question is, why should we not 
conclude that a heads up, as you indicated, is not a desire to 
coach a witness or an action, especially in the context of an 
independent panel such as the ARB?
    Admiral Mullen. The only thing I would say is the intent 
was to get the best possible witness identified for the State 
Department.
    Mr. Walberg. Again, with all due respect, again, an 
independent panel coaching a witness, I don't think we conclude 
anything else from that.
    Admiral Mullen. Well, I didn't coach--there was no coaching 
that was ever discussed.
    Mr. Walberg. Ambassador Pickering, why did the board decide 
not to administer oaths to those testifying before the board?
    Ambassador Pickering. Because no ARB had done that in the 
past, and we had no reason to believe that we would not get 
truthful testimony.
    Mr. Walberg. So this was consistent with the practice of 
previous ARBs?
    Ambassador Pickering. Yes, Mr. Walberg.
    Mr. Walberg. Why were interviews then not recorded or 
transcribed?
    Ambassador Pickering. Interviews were recorded on the basis 
that the, if previous ARBs had followed, in addition, it was a 
pattern that interestingly enough the Federal Bureau of 
Investigation adopted in its reports as well. We felt it was 
more than sufficient to record the critical and key points that 
we would have to take into account in preparing our report on 
recommendations----
    Mr. Walberg. Could you see a benefit in adopting this 
practice, especially in the context that this panel has found 
it almost impossible to get full information on making 
decisions on our own, regardless of what the other side of the 
dais says.
    Ambassador Pickering. With deep respect, there is a 
difference between your access to documents and the question of 
the type of documents that should be prepared.
    Mr. Walberg. What do you mean by that?
    Ambassador Pickering. I don't believe that transcribed 
interviews would have created the kind of attitude and approach 
of give and take which we found with the witnesses, which was 
particularly useful and relevant. I think that the formal 
process, in fact, of taking a transcription is, in some ways, 
inhibiting of the kind of information we were soliciting, the 
kind of views we wanted to get, and the broad and open 
character of the kind of approach we were taking.
    Mr. Walberg. Well, I appreciate that, but more importantly, 
the American public and this panel doesn't feel like we have 
that access to information necessary to make good decisions 
about the movement forward, and we talk about stovepipes, we 
talk about hot washes, and all of these things that are done at 
other levels of government, other agencies, other industries, 
and we here have information lacking to us because there is not 
information that we can read or bring out to the American 
public.
    Chairman Issa. [presiding.] Mr. Walberg, I will assure you 
that this committee will not have chummy discussions that are 
friendly and cordial in lieu of the kind of interviews that we 
make available on the record. We will continue to use our 
process even if others thinks that conversations unrecorded are 
important and I thank the gentleman.
    Mr. Walberg. Mr. Chairman, I appreciate that. I understand 
that you will do that. We needed that from this panel, and the 
American public deserves it, and especially the families 
sitting in this room and not deserve that information. Thank 
you.
    Chairman Issa. I thank the gentleman. The gentleman from 
Pennsylvania.
    Mr. Cummings. I ask the gentleman be given an extra minute 
and a half.
    Chairman Issa. The gentleman is recognized.
    Mr. Cartwright. Thank you, Mr. Chairman, thank you Ranking 
Member Cummings, and thank you, Ambassador Pickering and 
Admiral Mullen for coming back. Both of you testified at prior 
proceedings, closed-door deposition, recorded interviews. I had 
the privilege of helping conduct some of that questioning, and 
so we've spoken quite a bit at length already and I thank you 
for coming back again today on this terribly sad chapter in 
American history.
    I'm going to start with you, Ambassador Pickering. In your 
deposition that you had with the committee, you told us that to 
the best of your knowledge ``no other ARB was so extensive and 
far reaching in its findings of personal responsibility or 
personal accountability, or made such far reaching 
recommendations at such high levels in the State Department.''
    Now you also told us that in writing this report, you 
didn't want to ``pull any punches'' and you felt that ``you had 
a serious obligation under the law and from the Secretary to do 
that.'' But you also explained that you were ``deeply 
concerned'' that previous ARBs ``had been excellent in their 
recommendations, but that through the follow-through had 
dwindled away'' as you said.
    Ambassador Pickering, my understanding that Secretary 
Clinton immediately adopted all 29 recommendations in the ARB 
report, and that the State Department is making progress on all 
of them. Is that true?
    Ambassador Pickering. Yes, Mr. Cartwright, to the best of 
my knowledge I believe they are. It was testimony I understand 
yesterday to that effect as well.
    Mr. Cartwright. And Ambassador Pickering, I gather you 
believe that, if implemented, your recommendations will make 
U.S. Facilities abroad and the people that serve in them safer?
    Ambassador Pickering. Yes, we believe that is the case, Mr. 
Cartwright.
    Mr. Cartwright. Would you take a few moments and explain to 
us how the recommendations will make us safer?
    Ambassador Pickering. They will in the cases of posts, 
particularly like Benghazi, stop the personnel churn which 
allowed such deficiencies to develop both in continuity and 
focus and size of personnel.
    We believe they will provide a better system for the 
decision making with respect to the improvement of physical 
security by the application of higher standards. We believe 
that the training programs that we recommend will improve the 
capacity of both security specialists and non-security 
specialists to know and understand how to, in fact, operate 
more effectively. We believe that the serious discrepancy 
between fire safety preparations and security safe havens 
illustrated in Benghazi will be ended, and that there will be 
appropriate equipment to deal with fire safety in safe haven 
areas.
    Those are just a few, Mr. Cartwright, of what I think are 
the most salient points.
    If I could ask permission just to make one brief statement, 
the chairman just implied that our interviews and our work was 
not recorded. And the chairman knows and I know that that is 
not the case.
    Mr. Cartwright. Thank you, Ambassador. And Admiral Mullen, 
I want to give you a chance to weigh in on this question as 
well.
    Admiral Mullen. Well the only thing that I would add to 
that is with the immediate establishment inside the NEA bureau, 
if somebody at the senior office--the senior individual with 
respect to diplomatic security with the establishment of a 
separate the Diplomatic Security Deputy Assistant Secretary 
specifically focused on high threat posts.
    And to Chairman Issa, one of the things that I thought was 
helpful in your report was this focus on expeditionary 
diplomacy. And if I were to give you an example of 
expeditionary diplomacy, it would be in places like Benghazi 
and quite frankly, in consulates in Iraq and Afghanistan and 
places like Pakistan that we all need to focus on to make sure 
that we do all the balance, the need to be there, and be there 
in a secure way as absolutely possible.
    So I actually think that the changes that were recommended 
will have a substantial impact on how the State Department 
moves forward, how we move forward as a country in these very 
difficult times.
    It's changed since the ARB of 1998 and 1999. The world has 
changed and we need to adapt to that and in many ways, in many 
ways, we have.
    Mr. Cartwright. Well, I thank you for that gentlemen and I 
yield back.
    Chairman Issa. I thank the gentlemen. And just to make the 
record clear, Ambassador, we will disagree on what a record is. 
This committee makes an accurate, verbatim record to the 
greatest extent possible just as the transcription is being 
done today which is different than the impressions in a 
diplomatic note. And I appreciate the fact that the diplomatic 
service looks at dit notes which are impressions of what was 
said as a record, and I know it is helpful, but it is a very 
different standard in investigations and one of the things that 
this committee is considering and, Mr. Cartwright, I hope that 
you appreciate it too is that the level of record, of any 
investigation done of any incident no matter what part of 
government, needs to be considered for how it will be recorded.
    That is not to disparage you or the history of how they've 
been done. We appreciate, at least I appreciate, that you 
recorded as per, if you will, your 40-plus years of history and 
ARBs. What we are viewing and Mr. Walberg was viewing is more 
how we do it. And I will assure you that if the FBI were 
investigating the death of four people, they would tend very 
much to want a very accurate record, which is what we are 
looking for, Ambassador.
    Ambassador Pickering. Well, they can speak best for 
themselves but our impression has been that the type of 
recording they provided to us in connection with their 
investigation of four dead Americans was very much along the 
lines that we were preparing for our own use. Admittedly and 
reasonable people can differ, investigations and reviews 
sometimes have a different context and a different purpose.
    Chairman Issa. Thank you, Ambassador.
    And we now go to the gentleman from Arizona--I'm sorry the 
gentleman from Oklahoma, Mr. Lankford is there. Mr. Lankford.
    Mr. Lankford. Thank you. And thank you to all of you.
    You've done a tremendous amount of work and a tremendous 
amount of preparation both for this hearing, but obviously for 
a lot of the reports and everything that you've done and the 
hours that you've spent for it, I want you know we appreciate 
that very much, and what you've taken on, the scope of it.
    My line of questioning is just trying to gather a group of 
facts as we know it at this point, again, to try to zero in on 
some of the things you're trying to accomplish what do we do to 
not have this repeat again in the days ahead.
    Would you agree we had an overt dependence on Libyan 
security that night and the security team that was local that 
was not sufficient for the task and that we had an 
overdependence on them at that point? Anyone can answer that.
    Ambassador Pickering. Yes.
    Mr. Lankford. Would you agree we did not have a sufficient 
number of our own armed security forces on the ground? We had a 
larger number before of DOD personnel over there. They were 
obviously removed, their task as it was done they normalized, 
as I've heard several folks say, both Charlene Lamb and 
Ambassador Kennedy said they wanted it normalized, that we did 
not have a sufficient number of armed security there that 
night?
    Ambassador Pickering. I believe the answer to that is yes, 
but your implication that ``DOD was anywhere around Benghazi at 
that time'' is a mistake.
    Mr. Lankford. No, I'm talking about prior to that, were DOD 
personnel there in August?
    Ambassador Pickering. DOD personnel served a few short 
periods in Benghazi, but their assignment was in Tripoli, their 
work was in Tripoli, and their majority was always in Tripoli.
    Mr. Lankford. Did they travel with the Ambassador when he 
went to Benghazi or would they have traveled with him?
    Ambassador Pickering. No.
    Mr. Lankford. Because the testimony that we had received is 
that they would have assigned some of those folks to travel 
with the Ambassador----
    Ambassador Pickering. The Ambassador took two Benghazi, two 
Department of State security agents with him.
    Mr. Lankford. Right, because they didn't have other folks 
that were there to be able to travel. Those twelve individuals 
had already left.
    Admiral Mullen. I think it's really important, this is the 
SST, I think it's really important to focus on what the SST's 
mission was, and over the period of time when they were there 
for many, many months, over that period of time, the vast 
majority of their mission was training. They did take a couple 
of forays out to Benghazi, they did make some security 
recommendations, and from that perspective, they certainly 
provided some input with respect to security. But my own view 
is, I think it's a reach to think that they would have been 
there that night.
    Mr. Lankford. Fair enough. Did we have adequate diplomatic 
security there that night?
    Ambassador Pickering. The answer to that I already gave 
you. No.
    Mr. Lankford. Thank you for that. The facility, did it meet 
the standards set, the Inman standards after the 98 the 
facility in Benghazi?
    Ambassador Pickering. No certainly not. It didn't meet any 
of the standards that were set for Department of State folks.
    Mr. Lankford. Do you know how many posts that we had 
worldwide? At that time? Obviously, that has changed 
dramatically as it should. How many posts did we have worldwide 
at that time that didn't meet that minimum standard?
    Ambassador Pickering. I'm only guessing but somewhere 
between one-third and up.
    Mr. Lankford. A third of our posts did not meet the 
standards at that time? 
    Ambassador Pickering. Yes.
    Mr. Lankford. So 260 or so posts worldwide and you're 
saying a third of those didn't meet the standard set in 1999?
    Ambassador Pickering. That's my best understanding.
    Mr. Lankford. Is there a certain----
    Ambassador Pickering. Could I just say, Mr. Lankford, one 
of our principle recommendations was that the Inman building 
building program recommended in the Nairobi Dar Es Salaam ARB 
10 years before had dwindled away, and that it needed to go 
back to 10 a year at a cost beginning in 2015 of $2.2 billion a 
year, and that's in recognition that probably among those that 
don't meet standards, there are urgent high threat, high-risk 
posts perhaps that ought to get priority in that program.
    Mr. Lankford. What about the high-risk posts? How many 
posts would you consider high risk high threat at that time?
    Ambassador Pickering. At the time of Benghazi, the 
Department of State with the Department of Defense had an 
emergency review of 19 posts, including visits to them, which I 
believe was their judgment about what was high risk, high 
threat at that time.
    Mr. Lankford. Is there any special chain of authority to 
have actual personnel there, any differences in the high risk 
high threat? Who makes the decision putting personnel there and 
what the security is there?
    Ambassador Pickering. Yes, there is, and the decisions were 
made at the place that we identified, the Deputy Assistant 
Secretary in Diplomatic Security makes the primary decisions, 
that her bosses are the people who oversee and review that 
activity.
    Mr. Lankford. So that would be Charlene Lamb, Patrick 
Kennedy, would that go up to the Secretary of State's Office 
who would have to sign off on that?
    Ambassador Pickering. No. And they don't go to the under 
secretary for management unless there is a dispute and then 
they do go to him for resolution.
    Mr. Lankford. You had mentioned before as well that night 
or Admiral Mullen had actually that night there was no one on 
the ready to be able to respond militarily.
    Admiral Mullen. Correct.
    Mr. Lankford. Did you discover if there was a contingency 
plan? Obviously, we are in a high-risk location, Libya is in a 
civil war just coming out of that, did you see if there was a 
contingency plan for a response in case there was an emergency?
    Admiral Mullen. I'm not aware. I don't think there was one, 
and I'm not aware if there was.
    Mr. Lankford. Is that something that we should recommend in 
the days ahead?
    Admiral Mullen. It goes back to available assets and what 
are you going to focus on and what the priorities are.
    Mr. Lankford. Sure I would say you take high risk 
locations. There's a relatively small number that are high-risk 
locations. Should those locations have a contingency?
    Admiral Mullen. Well, 19 is not a small number when you 
start talking about forces. So how are you going to make those 
decisions and distribute your forces? It is a worthy 
discussion, and I know that the Pentagon and the administration 
has recalibrated that as a result of Benghazi. But it's not an 
infinite resource and so you can't get them everywhere.
    Ambassador Pickering. If I could just add, Mr. Lankford, 
the first line of defense is the local government.
    Mr. Lankford. Right, which was not sufficient.
    Ambassador Pickering. The second line of defense is our 
resources in place and those are the things we concentrated our 
attention on. As you know, the Department of State is assigned 
an additional number of marines and an additional number of 
security officers. They've come to you for that support, I hope 
they get it, I believe it is going ahead.
    Mr. Lankford. And that was our concern as well that 
obviously the Libyan militia was not sufficient. We know that 
clearly now. We didn't have a high enough number of diplomatic 
security personnel. The facility obviously did not meet the 
minimum standards. It was listed as a high-risk facility, and 
we seem to not have a contingency plan. The difficulty is it 
appears that the individuals that were there were very naked, 
and we understand our diplomatic personnel around the world 
always take risks on it, but they seemed to be particularly 
exposed in this particular location.
    Admiral Mullen. The only other thing I would add to that, 
and I mentioned this in my closed statement is that it was the 
deterioration of the numbers and the upgrades over time, over 
the course of that many months, that essentially did not 
prepare that Benghazi compound from a deterrent standpoint. But 
it was very significant, and had we had two or three times the 
number of people in place that night from a security 
standpoint, I'm not sure that a mob, a terrorist mob like that 
that they could have done much, but what we also lost by 
watching the numbers deteriorate and not upgrading it, we lost 
any kind of deterrent capability so that the enemy would think 
twice about whether they would do something like that.
    Chairman Issa. I thank the gentleman. The gentleman's time 
is expired. And I thank the Admiral for including the portion 
of this that talks about if you have a strong force, you often 
don't get attacked, and that may have been ultimately the 
greatest benefit of additional forces.
    We now go to the gentleman from Wisconsin for 5 minutes.
    Mr. Pocan. Thank you, Mr. Chairman. And thank you to the 
witnesses. I appreciate you being here today.
    As one of the newer folks around here, I know when I signed 
up for this, even though I served in the legislature for about 
14 years, I knew it wasn't exactly going to be Mr. Smith Goes 
to Washington, but I also didn't expect Groundhog's Day. And I 
have to admit I feel a little bit like I'm watching another 
copy of Groundhog's Day.
    We've had I think 12 Congressional hearings on Benghazi, 
three in this committee that I've been on. There are three this 
week alone in the House. I know that I sat through part of a 
closed deposition with Ambassador Pickering, and for several 
hours where we asked some questions. We've gone through 
extensive conversations about Benghazi. And I think sometimes 
in the bubble that's Washington having just come from outside 
the bubble, where real people were, before I got elected, I 
think sometimes it's odd that members, we think that we know 
more by visiting bases than someone who has been, perhaps, the 
chairman of the Joint Chiefs of Staffs.
    And I guess what my questions specifically are, kind of 
following off Mr. Cartwright, what I'm most concerned about is 
what we're doing to make sure this never happens again, to make 
sure that we are actually honoring the lives of Sean Smith and 
Tyrone Woods and Glen Doherty and Chris Stevens by making sure 
that their friends and co-workers and the people who work 
across the world for us in those 270-plus locations that we 
talked about don't have to face another Benghazi, and what we 
can do to make sure of that.
    And I think that is, by far, the most important thing that 
we can do, and I know that Ambassador Pickering you 
specifically said you want to make sure this never happens 
again.
    And part of what the reports, both reports have outlined 
there are a number of recommendations, I think one of the areas 
perhaps that we've been remiss on is Congress, in my opinion, 
and having come from the outside spending more time out there 
than here is that we don't talk about what Congress has to do. 
This Congress has been pretty much failing to get much of 
anything done.
    But I think when you look at the recommendations that came 
in your report and most recently in the newest report there are 
specific things that Congress should be doing to make sure that 
we protect our embassies in other locations across the world, 
and I think we're remiss in doing that. And I think what our 
job really should be is rather than poking and poking and 
hoping to get a gotcha, which I think sometimes happens too 
often in Congress, let's figure out what we're doing to make 
sure this never, ever happens again and honor the lives of the 
people who lost their lives.
    So if I can ask specifically, Ambassador Pickering, you 
talked about the fact that State Department immediately 
accepted those recommendations, and in the process of 
implementing them, how about the recommendations you had for 
Congress recommendation Number 10, have we moved at all on the 
recommendations that we've had for Congress to make sure that 
we are protecting our facilities across the world?
    Ambassador Pickering. I believe that on a couple of the 
recommendations that were made of an emergency character after 
the visit to the 19 posts I spoke about a minute ago with Mr. 
Lankford, there have been moves by Congress. It has not been, 
put it this way, our brief or our responsibility to do the 
follow-up to the report. There are a number of our 
recommendations which have to be translated into legislation or 
legislative proposals. And on that, we rely on the State 
Department and the budget process to proceed to you so I think 
that in effect, the Congress in this case is not being asked 
independently to take initiatives, but hopefully to support the 
executive branch's recommendations to take our ideas and put 
them into action.
    Mr. Pocan. So by Congress not moving a budget, kind of 
living on continuing resolutions as we have for the last 4 
years, we really haven't had a chance to address the very 
recommendations that I think you have made in this report.
    Ambassador Pickering. And I don't know, sir, whether these 
will be sups of 2014, 2015, proposals or not. That really comes 
beyond our responsibility, and I would hesitate at this stage 
to try to give you a thought when I don't know.
    Mr. Pocan. Thank you. And it's my hope, Mr. Chairman, that 
at some point as we continue, and I know we will continue to 
talk about what happened in Benghazi and it's a tragic 
incident, that we will really focus on, I think what Congress 
can do best, which is how do we make sure what do we do to make 
sure nothing happens like this again.
    So as much as I know we keep looking backwards, I think 
there is a reason why our eyes are in the front of our face and 
not the back of our head, because we actually have to figure 
what we're doing to make sure that this doesn't happen to those 
other 270 facilities, so we honor the lives of the four people 
who lost their lives, and I would hope, and I am hopeful that 
that's where we'll be moving in the future.
    Chairman Issa. Would the gentleman yield?
    Mr. Pocan. Sure, I yield.
    Chairman Issa. I'm sorry you weren't there on the CODEL in 
January where we actually saw some of the changes that were 
made post 9/11 in Morocco and Algeria. And I'm sorry you didn't 
get to see the facility in Lebanon which is, of course, is 
famously not Inman compliant, but has several hundred people 
who guard it with armed weapons, including heavy machine guns 
because there's an awful lot that has to be considered in 
addition to the question of dollars. But if you're available, 
along with Ms. Duckworth, I would love to have you go on the 
next trip to the region and we can begin looking at what 
recommendations we could help with.
    Mr. Pocan. Mr. Chairman, I think that is a great 
suggestion. I would love to do that. I just looked at what just 
happened was we looked at what we might do in Syria, and what 
was one of the first things that happened was we were 
contacting people in embassies and countries around it putting 
out warnings to make sure.
    So we know there still is an imminent threat out there in 
certain regions of the world, but what I don't see us doing is 
addressing that part of what Congress' responsibility, what can 
we do about it to make sure it doesn't happen again rather than 
continuing to look backwards. And I'm really looking forward to 
the conversations we have that are forward looking to make sure 
we protect our people who work across the world for us.
    Chairman Issa. And one of the challenges we do have, you 
mentioned Syria, the Ambassador's residence in Syria is 
basically right on a street with glass windows, and you look 
out on people going by. And it hasn't been selected 
historically for an upgrade for a number of reasons, mostly 
host nation support.
    It's one of our challenges. And if you're lucky enough to 
ever get to Dublin which you'll discover there is that our 
embassy is on an intersection of two streets where the windows 
can be broken inadvertently by a rock being popped up from a 
truck going by.
    So we do have a lot of facilities around the world and the 
complexity of it is important I think today when we look at a 
situation in a country that might have been more similar to 
Afghanistan or Iraq in Benghazi on September 11th, there's a 
different consideration, and hopefully that is part of what 
Foreign Affairs will look at in detail. But I look forward to 
having you on our next trip.
    And with that we go to the gentleman from Arizona, Mr. 
Gosar, Dr. Gosar.
    Mr. Gosar. Thank you. Mr. Sullivan, the best management 
practice review panel found that many important recommendations 
made in the 1999 ARB convened after the Nairobi and Dar Es 
Salaam bombings were not, in fact, implemented. In fact, you 
wrote this report was largely ignored by the Department and did 
not receive wide circulation within either the Department or DS 
at the time.
    Many of the senior officials involved before, during and 
after the Benghazi attacks, including the ARB, held senior 
positions within the Department prior to and after the 1998 
attacks.
    At the time, Thomas Pickering was the Under Secretary of 
Political Affairs, Patrick Kennedy was the Acting Assistant 
Secretary for Diplomatic Security, Susan Rice was the Assistant 
Secretary for the Bureau of African Affairs.
    What did your best management panel recommend to ensure 
that the State Department would actually implement the 
recommendations set forth in your report by the Benghazi ARB?
    Mr. Sullivan. You know, Congressman, what we thought was 
that it's really important that this be an enterprise-wide 
initiative, that everybody has to be involved in this and 
everybody has to understand what their roles are.
    We talked about how important accountability is, and we 
didn't look at accountability as a negative, we looked at 
accountability as a positive as an enabler.
    So we just felt that, with these recommendations, I can't 
speak to what happened in the past, but we do believe that this 
is not just about the office of diplomatic security but it's 
about department-wide and everybody knowing what their 
responsibilities are and what their accountability is, and that 
everybody work on this together. For example, risk management, 
you know we believed that, you know, having a formalized risk 
management model is something that is very important, and 
again, not just for the Department of Diplomatic Security, but 
also for the whole enterprise.
    Mr. Gosar. Mr. Keil, would you agree with that?
    Mr. Keil. Certainly, Congressman. I think Mr. Sullivan hit 
on a fundamental issue. We were talking previously about the 
facility in Benghazi, how high the walls were, if there was any 
blast resistance, how many agents were there. Those tactical 
things are important but the fundamental issue comes down to if 
the State Department does not have a risk management process to 
determine and make informed decisions, should we be in some of 
these places with a full understanding of the risk? That's what 
our panel found.
    Mr. Gosar. So let's go back on, so will regular best 
management panel evaluations be conducted to ensure that the 
recommendation set forth in your report and that the ARB 
recommendations will be followed?
    Mr. Keil. Right. That is part of the ARB recommendation 
that created our panel, it called for regular re-evaluation.
    Mr. Gosar. And I guess what I'm coming back to is 
accountability, right? And part of that accountability could be 
part of Congress' duty, would it not?
    Mr. Keil. Definitely. Obviously, some of the 
recommendations are going to take Congressional action.
    Mr. Gosar. And I'm a private sector guy, so this mortifies 
me what I've just seen here because accountability is very 
implicit, I mean, you're going to have a stack of attorneys, 
you're going to have depositions, you're going to have 
transcripts, and you don't get a go pass go and collect $200 it 
doesn't work in the private sector.
    So from the standpoint of the records that we've been 
talking about at this ARB, the State Department is withholding 
those interview summaries that have come out because there are 
no transcriptions, but there has been a recorded log.
    In order for Congress to do its job, we should have access 
to those, should we not?
    Mr. Keil. I think that's probably a question more for 
Admiral Mullen and Ambassador Pickering.
    Mr. Gosar. I'm asking you.
    Mr. Keil. Yes, I believe so.
    Mr. Gosar. How do you feel about that, Mr. Sullivan?
    Mr. Sullivan. I would agree that if these are documents 
that Congress is entitled to, that they should have them to 
review as well.
    Mr. Gosar. How about that, Admiral Mullen?
    Admiral Mullen. Again, I have a longstanding history in 
terms of providing documents when requested, and I think it's 
something that's got to be worked out between the Hill, the 
administration----
    Mr. Gosar. No, no, no, no, it doesn't need to be worked 
out. It's our due diligence, sir. I mean, accountability, I 
mean, I'm talking to a man who is very accountable, and through 
his whole lifetime has been that way. And the mantra in this 
place in this Beltway needs to change. There needs to be 
accountability. That is why I would hope that you would 
genuinely come forward and say, absolutely, those records 
should be turned over.
    Admiral Mullen. I have lived my life focusing on 
accountability, and I feel very strongly about that.
    Mr. Gosar. I would expect you to say absolutely yes, that 
those records should be turned over to Congress. I mean, from 
what I've ever seen and I've ever heard of you, that you would 
say absolutely, accountability and transparency should be 
there. And I personally, you, Admiral Mullen, would see it 
right to turn those records over.
    Admiral Mullen. I have, believe me, I'm right where you 
think I am with respect to accountability. The issue of the 
specifics of what's inside that has to be worked out, 
specifically, with respect to records. I mean, I've been in 
departments that for reasons, whatever the reason is, they 
don't provide or take a long time, and I'm not privy, quite 
frankly, to the specifics of why those are not being provided 
right now.
    Mr. Gosar. So you don't like the status quo?
    Admiral Mullen. No, no, I think that what where we were in 
the ARB was to try to get to the best position we could with 
respect to accountability, driven by the law, quite frankly----
    Mr. Gosar. I understand but part of that accountability is 
the oversight of Congress, and part of the oversight of 
Congress for implementation, because we've seen this timeline 
of ineptitude of implementing these, actually these discussions 
from previous actions. And part of that is that we're not 
getting part of the records to actually have that oversight, 
because legislative is not just budgets it's also about this--
--
    Chairman Issa. The gentleman's time has expired.
    Admiral Mullen. I think oversight to ensure implementation 
and execution in the long term makes a lot of sense.
    Chairman Issa. I thank the Admiral. With that we go to the 
gentlelady from Illinois, Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman. Ladies and 
gentlemen, in the Army, our soldiers live by a creed and a 
warrior ethos that begins with, I will always place the mission 
first, I will never accept defeat, I will never quit, and I 
will never leave a fallen comrade behind.
    I believe that all of our personnel in Benghazi and in 
Tripoli lived, and in the case of our four heroes, laid down 
their lives as warriors on that day. That said, Admiral Mullen, 
I think the Navy has something similar to the warrior ethos, 
but the Navy's version of it.
    I want to go back over what we've talked about today, and 
ask you to just briefly answer my following questions and I'm 
going to give you some time to speak towards the end.
    First as to the allegation that the four-man team in 
Tripoli was ordered to stand down, there was no such order. The 
team was directed to provide security and medical assistance in 
Tripoli. Is that correct?
    Admiral Mullen. That's correct.
    Ms. Duckworth. With respect to the allegation that the 
military could have flown aircraft over Benghazi in a matter of 
hours, in fact, they would have needed tankers to refuel them 
and those tankers were many more hours away, is that correct?
    Admiral Mullen. That's correct.
    Ms. Duckworth. In terms of the allegations by unidentified 
person who claims to be a special operator that a European 
Union command special forces team could have prevented the 
attacks in Benghazi, that is also incorrect, according to your 
review and the review of General Dempsey?
    Admiral Mullen. That is incorrect. That is, what you're 
saying is correct.
    Ms. Duckworth. Thank you. Admiral Mullen, I really don't 
understand this because you know it used to be that when our 
Nation came under attack, we would rally together and 
especially, especially around our men and women in uniform. And 
the allegations that anyone in the military in the uniform on 
that day would ever do anything other than their very best 
effort to come to the assistance of the men and women in 
Benghazi and in Tripoli troubles me.
    You yourself have commanded a gasoline tanker, a guided 
missile destroyer, a guided missile cruiser, you've commanded a 
cruiser destroyer group and the United States Navy Second 
Fleet. I would suspect that if you could have personally done 
anything to get there, you would have yourself based on your 
extensive military experience.
    Admiral Mullen. I certainly would have.
    Ms. Duckworth. Admiral, during your interview, you 
addressed this exact line of questioning, on page 32 of our 
report, you explained how these accusations affect our military 
service members. And this is what you said. ``The line of 
questioning approached here for those of us in the military 
that we would consider for a second not doing anything we 
possibly could just stirs us to our bones because that's not 
who we are. We don't leave anybody behind.'' Did you say that?
    Admiral Mullen. I did.
    Ms. Duckworth. So Admiral, what do you say to those, such 
as my very passionate colleague from Utah who continue to 
question the integrity, the professionalism and the motives of 
our military commanders and our men and women in uniform? You 
can take as much of my remaining times as you would like.
    Admiral Mullen. One of the things that has been evident in 
this review and certainly even in Congressional testimony for 
former members of the military and indeed serving foreign 
service officers is the, that you see is the frustration with 
the inability to deliver that night. And I think it's 
universal. And I can see it in the, along the lines of 
questioning. And I understand that.
    I led a force for many years. No one I ever knew in that 
force that wouldn't give their life to try to save those four 
individuals. And including myself. So that every--which is one 
of the reasons I paid so much attention to what could have 
happened that night from a military standpoint and looked at it 
as I indicated twice.
    There really was a time distance physics problem that would 
have prevented us from getting there for what seems to be an 
extraordinary amount of time. But as I indicated earlier in 
particular with the F-16s, for example, there are very real 
requirements in order to do that, not even getting to the point 
of how do you mitigate the risk. And believe me, the military's 
willing to go into high-risk places. It just wasn't going to 
happen in time.
    What is, to some degree, a little bit ironic in all of 
this, is at the compound, we lost two great heroes and we 
talked tonight, or today about the fact that they weren't very 
well armed, that the security posture wasn't there at all, as 
it should be, and I think rightfully so, have criticized that. 
At the other compound, we actually had a compound that was 
incredibly well armed, incredibly well defended and yet somehow 
back to this mortar fire in the middle of the night we lost two 
people which speaks to the challenge that you have creating 
security in every circumstance, and those two heroes again were 
individuals had come from a force that I know well. So there is 
no one I know in the military that didn't do that night all 
they could and wouldn't do all they could to save those people.
    Ms. Duckworth. Admiral, thank you. Can you say that the 
military has learned some valuable lessons from that day and is 
doing a better job now of considering what we should do in the 
future in terms of our force posture?
    Admiral Mullen. Again, my--as far as posture is concerned, 
I know that the forces have been repostured, specifically in 
that part of the world, although I don't know the details and 
that was a lesson that was learned and put in place immediately 
after it happened.
    Ms. Duckworth. Thank you very much. And again, thank you 
for your many decades of service.
    Chairman Issa. If the gentlelady would allow me a very 
quick follow up on what exactly what you're doing.
    Admiral, you're aware of the commandant's initiative in 
Sigonella and its response capability, are you not?
    Admiral Mullen. Yes, sir, I am.
    Chairman Issa. And that would be an example of a direct 
response where the Marines have taken existing assets, 
repositioned them for a very different response.
    Admiral Mullen. Yes, but--not but, to what was discussed 
earlier, particularly with the CR, I have probably too much 
expertise and history in the budget and programming world that 
under, there are some new initiatives coming, at least 
recommended, and at least as best I can recall, you can't start 
new programs under a CR.
    So, for instance, the additional force that the Marine 
Corps is asking for to create an expanded security force at 
embassies around the world that has to be funded, and it's got 
to be funded pretty quickly given the risks that are out there. 
I don't know if you can do that in a CR, somehow make exception 
because of the priority of that.
    Chairman Issa. I do know that Chairman McKeon has every 
intention of trying to make sure there is a regular order where 
some of these things can be done, and I appreciate it Admiral.
    And with that, we go to the gentleman from Pennsylvania, 
Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman.
    And Admiral, I want to thank you for your distinguished 
leadership of our military, and Ambassador Pickering, I want to 
thank you for your long and distinguished career in the best 
boat and tradition of a Joshua Chamberlain, but I also have 
responsibility here, and it's in that capacity of oversight 
that I ask you questions.
    And I'll begin my questioning with the legal premise that 
under the Inman principles it is such an important idea that 
any variation from the security requirements under Inman 
require the direct nondelegable commitment by the Secretary, 
him or herself before it can be changed. Now I realize we are 
not in an Inman type of circumstance, what we are, in fact, is 
a different circumstance, but your findings, the board that 
said the key driver behind the weak security platform was the 
decisions to treat the Benghazi as a temporary residential 
facility, even though it was a full-time office facility. Is it 
not correct that Under Secretary Kennedy made that decision?
    Ambassador Pickering. Yes, he made the decision to continue 
for a year the facility that then existed at Benghazi. I don't 
know who made any decisions in the course of the transformation 
between April, 2010 and December, 2012 from a residence to an 
office and residence to another building.
    Mr. Meehan. Let me ask at the time that decision was made, 
was it in conformance with what we call the overseas security 
policy board standards?
    Ambassador Pickering. It was not.
    Mr. Meehan. In fact, your findings were----
    Ambassador Pickering. The building did not meet those 
standards.
    Mr. Meehan. That the comprehensive upgrade, the risk 
mitigation plan did not exist, there wasn't a comprehensive 
security review conducted by Washington for Benghazi in 2012, 
that that decision was a flawed process, the decision did not 
take security considerations adequately into place. And 
Ambassador Pickering, did you interview Mr. Kennedy?
    Ambassador Pickering. Yes, we interviewed Mr. Kennedy.
    Mr. Meehan. Did you interview Mr. Kennedy?
    Ambassador Pickering. Yes, I did.
    Mr. Meehan. Did you keep a transcript of that interview?
    Ambassador Pickering. We have a record of that interview.
    Mr. Meehan. You have a record of that interview. What is 
the record of that interview? Is that notes?
    Ambassador Pickering. I'm sorry?
    Mr. Meehan. Is that notes? What is the record of that 
interview----
    Ambassador Pickering. The record of that interview is 
notes.
    Mr. Meehan. Do you expect that that record will be shared 
with Congress?
    Ambassador Pickering. That's obviously a question that 
we've discussed here many times. In my view, it is a 
longstanding issue between the executive branch and Congress 
into which I will not get.
    Mr. Meehan. Now when he--when you asked him questions about 
this, what were his responses when you asked him about the 
failure to have a risk mitigation plan or any comprehensive 
security views and all of those others things which you 
identified when you asked him those questions what were his 
responses?
    Ambassador Pickering. The simple answer was he was making, 
according to his testimony, a decision to continue to occupy 
the real estate. The responsibilities for providing adequate 
security rested with the Bureau of diplomatic security.
    Mr. Meehan. Now do you really believe that his 
responsibility is only to make a real estate decision and he is 
placing this down on people below him?
    Ambassador Pickering. I believe that he believed that's the 
decision he----
    Mr. Meehan. Well you're the person who is asking him the 
questions. If he believed--I just cited the fact that even the 
slightest change on the Inman principles has a direct turnover, 
I mean, the direct requirement of the Secretary of State 
herself.
    Ambassador Pickering. The Under Secretary for Management 
and the Assistant Secretary for Diplomatic Security have 
different roles and missions. The Assistant Secretary for 
Diplomatic Security is responsible for providing the security.
    Mr. Meehan. May I ask, you said that he believed, but do 
you believe that he had a responsibility to look into those 
factors?
    Ambassador Pickering. I believe that the Assistant 
Secretary For Diplomatic Security had that responsibility.
    Mr. Meehan. What was his responsibility then with respect 
to all of these kinds of shortcomings?
    Ambassador Pickering. To provide the personnel and the 
security----
    Mr. Meehan. But the security was not there. It was not 
being provided.
    Ambassador Pickering. We found that individual at fault for 
not having done so, Mr. Meehan.
    Chairman Issa. Would the gentleman yield for just a second. 
To make the record clear, the Under Secretary was in place the 
year before and the year before and the year before, so the 
decision to rent that facility in Benghazi was made under the 
Under Secretary and the diplomatic security head held 
accountable reports to the under secretary. So why is this 
merry-go-round between you and the gentleman from Pennsylvania 
as to whether the Under Secretary had all the authority in 
front of him, but rather wants to blame the diplomatic security 
head who reports to him?
    Mr. Meehan. Well, may I continue?
    Chairman Issa. Please.
    Mr. Meehan. I want to continue my line of questioning here 
in particular, because this is the testimony yesterday of Mr. 
Kennedy before the Foreign Relations Committee. With respect, 
this is his words, every day we review the threat levels at all 
the posts of the world. We reach a point where we believe that 
the mitigation tools that are available to us cannot lower the 
threat level down, then we close the posts.
    He cites an example. We were in Damascus several years ago, 
and I concluded that given the situation on the ground of 
Damascus we could not longer mitigate the risks sufficiently. I 
went to the Secretary of State, and she instantaneously gave me 
approval to suspend operations in Damascus and pull our people 
out.
    When you asked him what conversations he had with the 
Secretary of State with regard to the security at Benghazi, 
what did he tell you?
    Ambassador Pickering. We did not ask him what conversations 
he had with respect to the Secretary of State----
    Mr. Meehan. Why not?
    Ambassador Pickering. --in Benghazi. Because we knew and 
understood that the decision making with respect to Benghazi 
took place at the level of the Assistant Secretary for 
Diplomatic Security----
    Mr. Meehan. But he just said here in Syria in a parallel 
situation, he consulted with the Secretary of State with regard 
to this. Not only did he make decisions as you said not just 
about real estate, but this is his testimony yesterday that he 
was the one that was making decisions with regard to the points 
where we believe mitigation tools aren't effective. And this 
was, he was assuming this responsibly. He was using this as his 
shield that this was, I wanted to demonstrate the things that I 
have done effectively in the past and therefore, don't hold me 
accountable.
    So I am asking why he is not being held to the same degree 
of responsibility in a place in which you identify yourself 
that the security reviews were so deficient in so many ways?
    Ambassador Pickering. Because again, we believed after 
looking at this, the initial decisions were made in the Bureau 
of Diplomatic Security and reviewed there----
    Mr. Meehan. But he is the one who made the initial 
decisions. It moves up. He is the one that is responsible. He 
made the decision.
    Ambassador Pickering. Not if there is not a dispute about 
providing the resources necessary to do this.
    Mr. Meehan. But Ambassador Pickering, you identified 19 
separate circumstances of aspects in which there were threats 
and other kinds of very serious things and he said he monitors 
it every day. Now what is the discrepancy?
    Why wouldn't that be in his attention? Why would this not 
be brought to the attention where he makes a decision or as he 
says, he discusses with the Secretary of State the 
circumstances of that, of Benghazi?
    Ambassador Pickering. Because we believed that 
responsibility was lodged in the Assistant Secretary For 
Diplomatic Security. And it was very clear that's where the 
decisions were made and were not made.
    Mr. Meehan. But the decision to continue is--I struggle to 
understand why you're saying it's down there when he himself 
says he has these responsibilities and conducts these kinds of 
things every day.
    Ambassador Pickering. I can only tell you that our full 
examination of this located the decision making there, under 
the review of the decision making.
    Mr. Meehan. I thank you, Ambassador. But I certainly 
question the conclusion.
    Chairman Issa. I thank the gentleman for his line of 
questioning. And we now go to the gentlelady from the District 
of Columbia, Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman, and I want 
to apologize I had a markup and was not able to hear all the 
witness testimony. But I understand the question I have had and 
I think had hung over this entire matter has not been asked, 
and therefore I'd like to use this opportunity to clarify to 
get you, Admiral Mullen, and Ambassador Pickering to clarify 
Secretary Clinton's role.
    You certainly did very extensive interviewing, according to 
your report, over 100 witnesses, thousands of pages, and of 
course, the Secretary was not interviewed, and that is why I 
think this has to be clarified.
    The majority has used, in every way they can, the presence 
of Hillary Clinton to somehow point to an elevator that links 
up with her reading a report? For example, in an earlier 
hearing, they pointed out that she signed the cable. And the 
truth came out to the staff that's on every cable of the 
Secretary. So we take everything now with a grain of salt. But 
this is an opportunity to clarify this issue.
    We recognize, or at least I recognize, that not every 
important matter, even one as important as this, will 
necessarily involve an agency head. But again, her name has 
been raised over and over again.
    So I have to ask you, if you received any evidence that led 
you to believe that the Secretary should be interviewed, or 
what did, what is it about your investigation that led you to 
believe that she should not be interviewed although apparently 
her name does appear in the report a fair number of times?
    Ambassador Pickering. I think your statement and the 
question is essentially what we found, no evidence to believe 
that we had a need to interview the Secretary of State.
    Ms. Norton. And why was that?
    Ambassador Pickering. Because we found, as I just 
discussed, that the decision making with respect to the 
security issues were made at lower levels in which we found 
responsibility.
    Ms. Norton. Now are these levels, let me ask Admiral 
Mullen, are these security matters, matters that you would not 
expect to go to the agency head but to be resolved by security?
    Ambassador Pickering. Maybe since I have experience in the 
State Department, I can answer that question and the answer to 
that question is no, we would not expect those normally to go 
to the agency head.
    Admiral Mullen. If I could just pick up on this, and maybe 
it is a concern that was expressed over here, for agency heads 
and people that operate at that level, including Mr. Kennedy, 
quite frankly, they have global responsibilities, and so that, 
first of all, what we found in execution was this, the 
decisions with respect to security were delegated. And I think 
you would, and certainly Secretary Clinton has said she held 
herself responsible in her own testimony. But when you are 
running a big organization, you delegate that and then you have 
principals who work for you that you expect to raise issues of 
concern against whatever the guidance is or in accordance with 
whatever guidance, when something happens.
    And we found that guidance to and expertise and 
responsibility resident in the Assistant Secretary for 
Security.
    So in my view, it was his responsibility to raise these 
issues up the chain of command. And, in fact, the opposite was 
going on.
    His immediate deputy, Ms. Lamb, held all these decisions 
very, very closely. And in fact, the, per the direction from 
the statute itself, which directs us at the level decisions 
were being made, that's where we were. Just to reinforce what 
Ambassador Pickering said, we found no evidence, no lines to 
Kennedy or above with respect to these decisions that got made 
with respect to Benghazi that resulted in the outcome.
    Ms. Norton. And you were very critical in the report of how 
these decisions were kept and made?
    Admiral Mullen. Exactly.
    Ms. Norton. And I think it is very important. When you call 
out the name of an official simply because she was present, and 
in this case, the head of the agency to lay on the record what 
evidence there was that she knew about this matter, and here we 
find that she not only didn't know, but there was an effort to 
make sure that these security matters were kept where they 
were.
    Now, when you consider that you're dealing with security 
matters, even if you have very broad experience, that is a 
sphere unto itself, I don't expect that normally an agency head 
would second-guess a security official without the same kind of 
expertise. I do accept your admonition and your criticism of 
the failure to go up the chain of command. I think you were 
very forthright on that. But having found that failure, it does 
seem to me to be unfair and the extremes to, therefore, hold 
the official who had no knowledge, and from whom knowledge was 
kept, responsible for the tragedy.
    Chairman Issa. Would the gentlelady yield?
    Ms. Norton. Always glad to yield to the chairman.
    Chairman Issa. I think there is a good point. I don't think 
you were here earlier when we got into this. We had made it 
clear that the ARBs inability to deal with policy decisions and 
other areas outside their jurisdiction, if you will, which 
include, for example, the Secretary of State's obvious policy 
decision on normalization, policy decision that was in 
progress, one of the reasons that we had heard testimony that 
the Ambassador was in Benghazi was because of the desire by the 
Secretary to put a permanent mission there.
    Now, we've never said and I hope none of our reports will 
ever say that she made a decision to cut security at the 
consulate. But, you know, part of the challenge here today in 
the earlier testimony is that the ARB, as currently structured, 
has a lot of limitations as to what they can do, including the 
four people they recommended for adverse action, all of whom 
are back on the job without losing a day's pay.
    Ms. Norton. Yeah, but that leaves the Secretary's name 
muddied frankly by this committee. And it just seems to me that 
we ought to lay to rest that matter never came to her, should 
have perhaps, don't know, but certainly never came to her. It's 
almost, Mr. Chairman, like the, an earlier and terribly great 
tragedy when there was a killing, and of course, the committee 
sought to go to the Attorney General. I do believe in 
accountability at the top.
    Chairman Issa. The gentlewoman may remember he was held in 
contempt for withholding information on lying to Congress that 
occurred under his watch.
    With that, the gentlelady's time is expired. We go to Mr. 
Gowdy.
    Ms. Norton. I do remember that was one of the most 
controversial, if not the most controversial decision of this 
committee.
    Chairman Issa. It wasn't controversial from this side of 
the dais.
    Ms. Norton. That's right. That's all that can be said for 
that.
    Chairman Issa. Mr. Gowdy.
    Mr. Gowdy. Admiral Mullen, I thank you and the other 
witnesses for your service. I understand you did an interview 
of Secretary Clinton. Did you submit written questions to her 
for her response?
    Admiral Mullen. We did not.
    Mr. Gowdy. Was Secretary Clinton aware of the attacks on 
Western targets in Benghazi leading up to September 11, 2012?
    Ambassador Pickering. I believe our information----
    Mr. Gowdy. I'm asking Admiral Mullen.
    Admiral Mullen. I think she was.
    Mr. Gowdy. She was aware of the attacks on Western targets? 
Was she aware that the British ambassador was almost 
assassinated in Benghazi in the weeks and months leading up to 
September 11, 2012?
    Admiral Mullen. I can't be positive but I think she was.
    Mr. Gowdy. Was she aware of the requests for additional 
security at the Benghazi facility?
    Admiral Mullen. I would say no.
    Mr. Gowdy. Was she aware of a specific request from the 
Ambassador himself for improved security at that facility?
    Admiral Mullen. We never saw any requests from Ambassador 
Stevens to----
    Mr. Gowdy. That wasn't my question. Was she aware of it?
    Admiral Mullen. We never saw anything that indicated 
Ambassador Stevens asked for significant upgrade at the 
facility.
    Mr. Gowdy. There has been testimony that he has. My 
question was was she aware of that? Was the Secretary of State 
aware of it?
    Admiral Mullen. I don't know the answer to that.
    Mr. Gowdy. And here is what I found confounding about that. 
The 1998 ARB, you start your ARB with a quote from a Spanish 
American philosopher about history and those who don't study it 
are doomed to repeat it. And I found that interesting because 
the 1998 ARB recommended this, the Secretary of State should 
personally review the security of embassies and other official 
premises, closing those which are highly vulnerable and 
threatened.
    The Secretary of State, that was the specific 
recommendation from history. So you can understand, with all 
due respect to my colleagues who don't want to mention the 
Secretary of State's name, you can understand my question, did 
she personally review the security at Benghazi?
    Admiral Mullen. I don't know the--not--all the evidence 
that we saw indicated no, but I don't know the answer to that.
    Mr. Gowdy. Did she personally consider closing the facility 
in Benghazi, again, given the fact that a panel exactly like 
the one you cochaired recommended, recommended the Secretary of 
State personally review it? My question to you is did she?
    Admiral Mullen. I'm not aware that she did.
    Mr. Gowdy. So there was no evidence despite a previous 
recommendation from an ARB just like yours, because what our 
colleagues on the other side say is let's don't study the past, 
let's just look forward. You've made recommendations, all is 
going to be well now, all 30 of them will be implemented, and 
my point is we had this recommendation. We had it in 1998, that 
the Secretary of State herself review the facilities and 
consider closing them if they are not safe.
    Admiral Mullen. I think one of the, and I think we have 
pulled people out where it wasn't safe over the course of those 
years.
    Mr. Gowdy. But my question, Admiral, is you never 
interviewed the Secretary of State about whether she, whether 
she accepted and performed a responsibility given to her by a 
previous accountability review board.
    Admiral Mullen. Part of our writ was to look at previous 
accountability review boards. We certainly commented on that, 
those that had not been implemented. But it was not to test 
each recommendation against those who were in positions in the 
current administration.
    Mr. Gowdy. I want to read you a quote, and I want to ask 
you if know the author of that quote, okay? ``The independent 
accountability review board is already hard at work looking at 
everything, not cherry-picking one story here or one document 
there, but looking at everything.'' Do you know who the author 
of that quote was?
    Secretary Clinton.
    How could you look at everything when you don't even bother 
to interview the person who is ultimately responsible for what 
happens at the State Department?
    Admiral Mullen. I think we've explained that that we found 
no evidence that she was involved in the decision making and no 
need, therefore, to do that.
    Mr. Gowdy. But I just cited for you it is her 
responsibility according to an ARB just like yours from 1998, 
she should personally review it.
    Did you ask her whether she was familiar with that previous 
ARB recommendation?
    Admiral Mullen. We didn't interview her so obviously we 
didn't ask her.
    Mr. Gowdy. I will read you another quote. ``Over the last 
several months, there was a review board headed by two 
distinguished Americans, Mike Mullen and Tom Pickering who 
investigated every element of this with this being Benghazi.'' 
Do you know the author of that quote.
    Admiral Mullen. No.
    Mr. Gowdy. Barack Obama. Did you interview him and ask 
whether he made any calls to any of our allies in the region 
and said can you help us? Our guys are under attack.
    Admiral Mullen. We did not.
    Mr. Gowdy. Admiral, my colleague, Jason Chaffetz, asked you 
about Cheryl Mills and a conversation you had with her. And I 
noted two different times you said you wanted to give her a 
heads up. And make no mistake she's the lawyer for Hillary 
Clinton. She used to counsel for the State Department. You 
wanted to give her a heads up. A heads up about what?
    Admiral Mullen. I specifically said that having interviewed 
Charlene Lamb and knowing that she was going to appear in 
Congress that I thought she would not, that she would be a weak 
witness.
    Mr. Gowdy. Were you concerned that she would tell the truth 
or not tell the truth? When you say not be a good witness, what 
was your concern?
    Admiral Mullen. I wasn't concerned about whether she would 
tell the truth or not. That had nothing to do with it.
    Mr. Chaffetz. [presiding.] The gentleman's time is expired.
    Mr. Gowdy. I thought there was a practice of going 2 
minutes over. I don't know why I possibly could have thought 
that based on being here.
    Mr. Cummings. I would ask that the gentleman be given 
another minute because I would like to get an answer to that 
question myself.
    Mr. Chaffetz. Without objection, so ordered.
    Mr. Cummings. Thank you. Could you answer his question? The 
last question. 
    Mr. Chaffetz. Maybe you can repeat the quote.
    Mr. Gowdy. My question was a heads up about what? Were you 
concerned that she would tell the truth or not tell the truth?
    Admiral Mullen. No. That had nothing to do with it. I would 
never question the integrity of Charlene Lamb.
    Mr. Gowdy. Did you think she was just not going to be an 
effective witness?
    Mr. Cummings. Would the gentleman just let him answer?
    Mr. Gowdy. I'm trying to help him.
    Mr. Cummings. He's been around 40 years in the military, so 
he knows how to answer questions.
    Admiral Mullen. I explained before, Mr. Gowdy, I had run 
departments, I had dealt with witnesses who came to Congress 
and representing the departments that I was in as best we 
possibly could. The intention of the heads up was to just 
having sat down with Lamb, it was the first time I had met her 
in our interview, that I thought there could be better 
witnesses to represent the Department. It had nothing to do 
with the ARB.
    Mr. Gowdy. Better witnesses from what standpoint?
    Admiral Mullen. At that time and place, with respect to the 
events which had occurred in Benghazi.
    Mr. Gowdy. Admiral, wasn't she a fact witness? I mean, the 
facts pick the witnesses. I mean the State Department doesn't 
pick witnesses. The facts pick the witnesses. She was a fact 
witness, right?
    Admiral Mullen. Right.
    Mr. Gowdy. So whether she is good or bad is immaterial. She 
is a fact witness.
    Admiral Mullen. Again, I approach it from a standpoint of 
having run a department and many times working to have the 
Department represented as best as we possibly could. That was 
it.
    Mr. Gowdy. Well, in conclusion, Admiral, let me just say 
from my previous life, I well understand having bad witnesses. 
I've had plenty of cases where I wish I could have picked them, 
but I couldn't. She was a fact witness. The fact that she was 
not going to be a good fact witness for the State Department to 
me is immaterial. She's a fact witness.
    Mr. Cummings. Will the gentleman yield 1 minute the time 
that neither one of us have. But just one thing. Will the 
gentleman yield real quick?
    Mr. Gowdy. Sure.
    Mr. Cummings. This is the question, and the reason why I 
want to hear your answer is this, as I listen to you, this has 
nothing to do with honesty and integrity with regard to what 
the witness was saying.
    Admiral Mullen. No.
    Mr. Cummings. Nothing like that.
    Admiral Mullen. No.
    Mr. Cummings. So what did it have to do with? In other 
words, if somebody, for example, somebody who may not know the 
facts, may not understand?
    Admiral Mullen. I take Mr. Gowdy's point. She certainly was 
a fact witness. It was, from my perspective, a judgment that 
she hadn't done this before. Obviously this was a terribly 
important issue, and to be able to represent that, particularly 
early in the process, I thought was very important and that was 
the sole reason.
    Mr. Cummings. I take it that you wanted the best 
information to come to the ARB?
    Admiral Mullen. Sure--to the Congress. To the Congress. 
This had nothing to do with the ARB.
    Mr. Cummings. All right.
    Mr. Gowdy. I yield back.
    Mr. Chaffetz. Thank you.
    I will now recognize the gentlewoman from New York, Mrs. 
Maloney from New York, for a very generous 5 minutes.
    Mrs. Maloney. Thank you. First of all, I would like to 
thank the chairman and the ranking member for assembling such a 
distinguished panel. I particularly want to publicly 
acknowledge the selfless and distinguished careers of Admiral 
Mullen and Ambassador Pickering, both of whom have served 
Republicans and Democratic Presidents and have taken on some of 
the most challenging and difficult problems and obstacles that 
our country has faced.
    So I want to publicly thank them for their public service 
and their selfless public service. And I respect your work, and 
I wish all of my colleagues would likewise respect everything 
that you have done for our country.
    I must say, as the former chair of the women's caucus, I'm 
particularly sensitive of any efforts to roll back gains for 
women or any attacks on women. And I find the attacks unusual 
and consistent against the former Secretary of State, Hillary 
Clinton. Although the ARB report, which I thought was excellent 
and there has been little mention of the many fine 
recommendations that you came forward with to improve the 
safety of our embassies and our people overseas, and I thank 
you for that. I understand the State Department has started to 
implement many of them.
    But in your statement I believe, Admiral Mullen, you 
stated, and I quote from you, there was no official, including 
the Secretary of State, whose involvement was not reviewed 
extensively, and do you stand by that statement?
    Admiral Mullen. I do.
    Mrs. Maloney. And I found the report that was issued this 
week by my colleagues on the other side of the aisle a very 
partisan staff report on its separate investigation of 
Benghazi, I found it very partisan because even though you say 
she had no participation and all evidence shows that, it 
mentions the former Secretary of State 25 times, 25 times, and 
not once does the staff report identify any evidence whatsoever 
to indicate that the former Secretary of State played any role 
in security-related decisions about the Benghazi special 
mission compound. And I compliment you for focusing on 
positives of how we can move forward to make our country safer 
and better in many ways.
    I would like to also point out that there were personal 
attacks on national television stating that the former 
Secretary of State lied under oath when she testified before 
Congress that she did not personally approve of security 
reductions in Libya. And as proof, the Republicans produced a 
cable that had her stamped signature on it. So I would like to 
ask you, Ambassador Pickering, since you have spent a majority 
of your years in the State Department and serving our country 
many times overseas, do you believe that because the Department 
stamps the Secretary's name on this cable that she personally 
approved it?
    Ambassador Pickering. No. All cables sent out by the State 
Department are stamped with the Secretary's name.
    Mrs. Maloney. And how many cables a year are sent out would 
you say?
    Ambassador Pickering. I thought the last estimate was 1.4 
million.
    Mrs. Maloney. So that would not say that. And what does the 
State Department manual say about this?
    Ambassador Pickering. I think it says that all cables 
should be stamped with the Secretary's name. In the past, they 
used to stamp with the Acting Secretary's name. That was 
changed under Secretary Powell. Wherever the Secretary is, she 
is still Secretary and her name still goes on the cables.
    Mrs. Maloney. Could you mention for the panel the four top 
recommendations, in your opinion, of the ARB to make our 
personnel and our professionals and our public servants safer 
overseas?
    Ambassador Pickering. This is hard with 24 in classified 
and 29 recommendations. I would center a couple of thoughts on 
a number that I mentioned in my oral testimony a minute ago; 
one the notion that we should carry out the Nairobi Dar El 
Salaam construction program recommended by Admiral Crowe 10, 12 
years ago which has dwindled away through inflation, through 
reductions in budgetary support.
    I think those kinds of issues still are very, very 
important.
    I would like to say as well, that I think among the others, 
and I have highlighted them and if I can, I will just give you 
a sense of what those might be, that we need better risk 
management assessments and we laid out some criteria, and Mr. 
Sullivan's report I think produced clear evidence that there 
were better ways to do that in the State Department.
    My sense is that we can improve intelligence performance, 
and we suggested a number of ways that we could do that. And I 
think on the question of personal accountability which has 
figured here very heavily, I believe we made recommendations 
that were important with regard to that. And my hope is that 
the State Department will carry those out. There have been 
discussions here about that. They go beyond where the ARB is, 
but our recommendation, as you know, is two be separated from 
their jobs and two others be reviewed for deficiencies and 
performance.
    Mrs. Maloney. My time has expired. Thank you.
    Mr. Chaffetz. Thank you. We will now recognize the 
gentleman from Kentucky, Mr. Massie, for 5 minutes.
    Mr. Massie. Thank you, Chairman. I thank the witnesses for 
coming today.
    The brevity as well as the incongruity of statements in the 
ARBs report begs the question, what was Ambassador Stevens 
doing in Benghazi? And I apologize for asking this, but it begs 
to be asked. So let me read a statement from the report. The 
board found that Ambassador Stevens made the decision to travel 
to Benghazi independently of Washington.
    Now let me read you the testimony of Mr. Hicks when he was 
here in front of this very committee. I asked him, did you tell 
the accountability review board about Secretary Clinton's 
interest in establishing a permanent presence in Benghazi 
because ostensibly wasn't that the reason the Ambassador was 
going to Benghazi? Mr. Hicks said this, Yes, I did tell the 
accountability review board that Secretary Clinton wanted the 
post made permanent. Ambassador Pickering looked surprised. He 
looked both ways to the members of the board saying, does the 
seventh floor know about this? And another factor, Hicks went 
on to say, was our understanding that Secretary Clinton 
intended to visit Tripoli in December. I asked him, so 
Pickering was surprised that this was Ambassador Stevens' 
mission to establish a permanent facility there. Is that your 
impression? He said yes.
    Were you surprised by his statement?
    Ambassador Pickering. No. I was surprised by the fact that 
this was a new item of information to us and I wondered how 
ramified it was understood. Secondly, I made in my deposition a 
series of statements about the numerous reasons why Ambassador 
Stevens went.
    Mr. Massie. I'm short on time. So why wasn't that included 
in the ARB report, that Secretary Clinton had directed him to 
go there?
    Ambassador Pickering. She had not, to the best of my 
knowledge, directed him to go there.
    Mr. Massie. So you disagree with his testimony in front of 
your board?
    Ambassador Pickering. I agree that what he had to say was 
an indication of what the Secretary hoped for.
    Mr. Massie. Let me go on----
    Ambassador Pickering. I don't think it was a direction from 
her to go to Benghazi.
    Mr. Massie. I have very little time. So, I think we all 
agree that any investigation should include a comprehensive 
list of survivors and witnesses.
    Did you or do you, possess a list of survivors and 
witnesses, present or observing during the attack in Benghazi?
    Ambassador Pickering. It's in the classified report, all of 
those people we interviewed.
    Mr. Massie. Can that report be made available to all the 
members here?
    Ambassador Pickering. It is made available to all the 
members here.
    Mr. Massie. Are you at liberty to say how many of those 
witnesses or survivors were CIA operatives?
    Ambassador Pickering. No.
    Mr. Massie. Can you say if any of them were.
    Ambassador Pickering. No.
    Mr. Massie. You said you had unfettered access to State 
Department employees. Does that also include the CIA employees?
    Ambassador Pickering. I am not going to go there because 
that gets us into classified issues.
    Mr. Massie. Okay. How many people were evacuated from 
Benghazi immediately following the attacks? You mentioned an 
airplane that took people out of there.
    Ambassador Pickering. There were two aircraft. I think the 
first one evacuated 12, and the remainder, and I think that may 
have been up to another two dozen or so, came on a second 
aircraft.
    Mr. Massie. So maybe 36 people?
    Ambassador Pickering. Something in that neighborhood, but 
that is just a very rough estimate, Mr. Massie.
    Mr. Massie. How many of those were State Department 
employees, and how many were military?
    Ambassador Pickering. I can't tell you that exactly. I can 
tell you that there were, I think, five security officers from 
the State Department who were evacuated.
    Mr. Massie. Okay. Do you have a comprehensive inventory of 
U.S. weapons or small arms that were there or at the annex 
before and after the attack?
    Ambassador Pickering. I do not have such an inventory.
    Mr. Massie. Is it true that after the attack, those 
facilities were left unsecured for quite sometime?
    Ambassador Pickering. They were, but I believe the weapons 
and some or most of the security material from the State 
Department facility was evacuated.
    Mr. Massie. Can you give us a list of what was evacuated?
    Ambassador Pickering. I can't, but I am sure the State 
Department could.
    Mr. Massie. Okay. And I have to ask this question because 
the public wants to know this. Are you aware of any arms that, 
not by accident but by intention, were being transferred to 
Turkey or Syria from Libya?
    Ambassador Pickering. No.
    Mr. Massie. Can you give us--can you make any statements or 
give us confidence that that was not occurring?
    Ambassador Pickering. I am just not aware of it. I think 
that I have to say I looked into it, and I am not aware of it.
    Mr. Massie. Okay. Thank you, I yield back.
    Mr. Chaffetz. Thank the gentleman.
    Now recognize the gentleman from Georgia, Mr. Woodall, for 
5 minutes.
    Mr. Woodall. Thank you, Mr. Chairman.
    I want to thank everyone on the panel for your service. I 
am relatively new to the committee, though not as new to public 
service. We have talked a lot about unfettered access. You all 
had a role to play. I know the ARB was able to access folks in 
10 weeks that this committee hasn't been able to access in 
almost a year. So much of what we do in public service, for 
better or for worse, has less to do with the facts and more to 
do with credibility. Folks have unanswered questions. I always 
tell my constituents back home, there are more Congressmen in 
jail for the cover up than there are for the crime. It is that 
undermining of public trust.
    I just want to ask you all because, again, you have all 
been entrusted with these responsibilities for much longer than 
I. Understanding a division of government here, executive, 
legislative, judicial, trying to serve that public trust, Mr. 
Keil, would you conclude that we could serve that public trust 
best if this committee could have access to as much information 
as possible and then dispose of this issue as quickly and 
thoroughly as possible?
    Mr. Keil. Yes, I do, sir.
    Mr. Woodall. Mr. Sullivan?
    Mr. Sullivan. Again, sir, I think, and I go back to what 
Admiral Mullen said, I think this is something between the 
committee and State Department. I do believe that if these are 
documents that Congress is entitled to get, then they should 
receive them. Again, I think that this is something that should 
be dealt with between the committee and the State Department.
    Mr. Woodall. And with due respect, and I very much 
appreciate that answer, I actually think it is between the 
American People and the public servants to whom they entrust 
the future of the republic----
    Mr. Sullivan. I would agree.
    Mr. Woodall. --and that is a frustration for me, and I 
understand if you said----
    Mr. Sullivan. I would agree with that, too, sir.
    Mr. Woodall. Admiral Mullen?
    Admiral Mullen. We have talked about this several times.
    Mr. Chaffetz. Can you help us with the microphone there, 
please?
    Admiral Mullen. Sorry. We have talked about this several 
times, and certainly I think the whole issue of how a 
government deals with, you know, this kind of situation I think 
I told the chairman earlier, I think the oversight is 
absolutely critical. I have just dealt too much, too many times 
with the tension between agencies and Capitol Hill on what 
should be provided and what isn't, and it's not for me or us to 
decide that today or I don't even think recommend in terms of 
what is actually going on. I am not even aware of the documents 
specifically of which you speak.
    Mr. Woodall. It gives me no pleasure to disagree with a 
public servant of your caliber, but I actually----
    Admiral Mullen. You wouldn't be the first.
    Mr. Woodall. I might not be the first, but candidly, it is 
less your feelings that we ought to be able to resolve these 
things that I was interested in and more the absence of the 
outrage that we can't deal with these things because this 
process is going to continue. I asked someone the other day, I 
said, when do we come to an end of this Benghazi investigation? 
And the answer was, when we can finally get the folks who have 
the answers to speak with us. Again, you all were able to do it 
in 10 weeks by your calculations.
    Ambassador, I talked to every relevant witness within 10 
weeks, and yet we have not been able to do it in a year. And it 
is less about the powers of this committee. It is more about 
the duties that we owe the folks back home who still have 
unanswered questions. I will give you an example of one of 
those questions. In fact, the gentleman sat right there in the 
seat that you are sitting in, Admiral Pickering, it was Mr. 
Mark Thompson. You all may have dealt with Mr. Thompson 
professionally, but he said this when he was in that chair, 
Ambassador. He said, My biography is in the record. He said, We 
live by a code, and that code says you go after people when 
they are in peril when they are in the service of their 
country. We did not have the benefit of hindsight in the early 
hours, and those people who are in peril in the future need to 
know that we will go and get them and we will do everything we 
can to get them out of harm's way. And he concluded with this; 
he said, That night unfolded in ways that no one could have 
predicted when it first started, and it is my strong belief 
then as it is now that we needed to demonstrate that resolve, 
even if we still had the same outcome. Admiral Mullen, earlier 
in your testimony, you talked about how we were unable to get 
to Benghazi fast enough. You talked about bombs on the racks, 
munitions on the racks of aircraft at the ready.
    Admiral Mullen. I used that as an example. The aircraft 
weren't at the ready, and what General Dempsey testified to, 
and I have today certainly and in previous transcription of my 
statements, we just couldn't get there fast enough. I do 
resonate completely with what Mr. Thompson said, and every 
military individual to their core feels the same way, and that 
is, to the best of the military's ability that night, that is 
what happened. I looked at every asset, every possibility. It 
wouldn't, couldn't get there in time.
    Mr. Woodall. In retrospect, it couldn't get there in time. 
I think the question so many folks back home have on behalf of 
so many families is, ``Can we see the fuel being driven to the 
runway? Can we see the pilots getting out of bed, can we see 
the teams being scrambled?'' Yes, we have seen some of that, 
folks arriving the next day, but this is every bit as much 
about what happens in the future as it was what happened in the 
past, if not more so, and again, I thank you all for your great 
public service.
    Mr. Chaffetz. The gentleman yields back.
    We will now recognize the gentlewoman for 5 minutes.
    Ms. Lujan Grisham. Mr. Chairman, thank you.
    And in the spirit of continuing this conversation, I yield 
back to Ranking Member Mr. Cummings.
    Mr. Cummings. Thank you very much.
    I just ask, Mr. Chairman, that I be given the extra minute 
that Mr. Woodall also had, please.
    Mr. Chaffetz. Without objection, so ordered.
    Mr. Cummings. Ambassador Pickering, sometimes I don't think 
that the public understands that the State Department is often 
serving in places that don't offer a lot of options when it 
comes to facilities. Let me read to you what the executive 
director of the Bureau of Near Eastern Affairs told the 
committee in his interview about how the United States 
ultimately selected the special mission compound in Benghazi 
for use as a military facility. He said this: The villas were 
the only things that were available at the time that even met 
minimal standards. Remember, Chris Stevens had just gotten off 
a ferry with cars. He had gone back into a hotel. There had 
been a bomb that went off. We had to find something and 
something quick, and I mean the Department as a whole had to 
find something.
    Here is the challenge. In the case of Benghazi, you had 
some very smart people, including Ambassador Stevens, advising 
the United States Government that we should be in Benghazi, but 
it sounds like there were not many good options available. Even 
the hotel where they first tried to locate came under risk of 
being bombed.
    Ambassador Pickering, isn't it the case that, in many parts 
of the world, State Department officials don't have the best of 
choices from which to operate a diplomatic post?
    Ambassador Pickering. That is true, Mr. Cummings. On the 
other hand, we are speaking about April 2010 more or less, and 
the problem with Benghazi was that there was time to make 
change and improvements, and we found people at fault for not 
having taken that time to do the job.
    Mr. Cummings. And whose responsibility was that?
    Ambassador Pickering. We believed it was principally in the 
Bureau of Diplomatic Security, which is charged with oversight 
and implementation of State Department security.
    Mr. Cummings. Ambassador Pickering, I am gathering that we 
don't want to lock up our people in fortresses, and Ambassador 
Stevens, who was so loved and appreciated by the people, 
understood that. Can you tell us in practical terms how your 
recommendations will help the State Department going forward 
strike a balance between important policy imperatives and the 
fact that there are not always a lot of good choices from which 
to operate?
    Ambassador Pickering. Because, sir, it takes or tries to 
take into account the special disadvantages that you have 
mentioned in location, in changing threat situations, and in 
risk management, and it sees that as a dynamic where not every 
day can you wander the bazaars, but when you can you should 
know about it and understand the risks that you are taking. It 
also means that different locations in cities have different 
requirements for security. Cars are different than residences, 
are different than safe havens. And so it provides graduated 
levels, if I could put it this way, of safety and security over 
a period of time to individuals who might be in danger. 
Hopefully, the situation will be in the main the kind of 
situation that Chris Stevens really was able in a maximum way 
to take advantage of, but at the same time, it would also be, 
we hope, the kind of situation that would prevent the death of 
a Chris Stevens in times when the threat level had increased 
and the security would be adequate to deal with that, and so it 
is not all Inman buildings, but for most places, it is nice to 
have those as what I would call the security anchor for the 
worst times.
    Mr. Cummings. Mr. Sullivan, a key to this seems to be risk 
mitigation. Can you explain how your best practices panel 
addressed this issue and explain how a department-wide risk 
management model would help?
    Mr. Sullivan. Yes, sir. What we looked at was risk 
management, and what we found is that, for the most part, risk 
is dealt with either by experience or intuition, which those 
two things are extremely important. However, what we're 
recommending is that there be a more----
    Mr. Cummings. Did you say ``intuition''?
    Mr. Sullivan. Yes, sir. Experience, intuition, you know, 
and background. What we're seeing is there needs to be a more 
formalized system. As things become, you know, more complicated 
out there as the threat becomes, you know, more severe, there 
needs to just be a more formalized risk-management model that 
would be available not just to the department, not just to DS 
but to the department as a whole, you know, risk management 
when it comes to, you know, medical services, risk management 
when it comes to IT, risk management when it comes to where 
you're going to put a building, and that would--DS would feed 
into this risk management model when it comes to, you know, 
what--how do you mitigate the threat? You know, what is 
acceptable risk? What is the criticality of the program that 
you are running? How important is it for that program to run? 
You know, all of us know that nothing is a hundred percent 
certain when it comes to eliminating risk. We all know that the 
minute you step out the door, there is going to be risk, but 
what we're getting at here is that there be a collaborative 
effort among everybody in the department to come up with the 
best way to manage that risk, to come up with mitigation for 
that risk and make sure we give the safest environment to our 
diplomats overseas in these high threat areas.
    Mr. Cummings. Thank you very much. Thank you.
    Chairman Issa. [presiding.] We now go to the gentleman from 
North Carolina.
    Mr. Meadows. Thank you, Mr. Chairman.
    Some have argued today that this hearing is just all about 
politics, and yet I know that I made a promise to some of the 
family members that are sitting right behind you that I would 
do everything within my power to make sure that this never 
happened again, and to that end, there is a bill that Chairman 
Royce, H.R. 1768 that looks at the ARB and modifying that, of 
which I with some of my colleagues here are a cosponsor of, and 
so I want to specifically look at a couple of things that 
really hopefully will keep us from repeating this tragedy.
    And I want to address what is now known as the Cohen memo 
that was brought forth under Secretary Madeleine Albright. It 
made some recommendations there. It made a recommendation that 
we had an under secretary for Diplomatic Security that reported 
directly to the Secretary.
    And Ambassador Pickering, I want to address this question 
to you, and if you would put a slide up on the screen so that 
we can know what we are talking about there, if I could ask the 
committee to do that. But in that, you were copied on a memo, 
that Cohen memo, because you were the under secretary for 
political affairs, and it talked about the issue, and I quote, 
``The issue of the DS,'' or Diplomatic Security, ``reporting to 
the Secretary of State was controversial with the corporate 
board.''
    What is the corporate board?
    Ambassador Pickering. I suppose that Under Secretary Cohen 
was referring to the group of people on the seventh floor, 
under secretaries and up, who were close to the Secretary and 
perhaps some of her personal staff, but I cannot but guess.
    Mr. Meadows. Okay. Were you a member of that corporate 
board?
    Ambassador Pickering. From time to time, yes, but not on 
all issues.
    Mr. Meadows. Okay. So why was this controversial with that 
corporate board?
    Ambassador Pickering. I don't know. I personally had some--
--
    Mr. Meadows. So you would support that?
    Ambassador Pickering. --reservations about the under 
secretary proposal.
    Mr. Meadows. All right. So--because I think the other 
quote, and I want to quote this as well, There are strong 
feelings that there were already enough under secretaries and 
that the under secretary of management should be entrusted to 
make tradeoff decisions, tradeoff decisions between Diplomatic 
Security and administrative functions.
    You know, when we are talking about the lives of Americans, 
tradeoff is not a good word. Would you agree with that?
    Ambassador Pickering. I agree. I believe that there is a 
natural problem in that particular question between the under 
secretary of political affairs and the under secretary for 
management, between the political imperative of staying in a 
post and the security imperative----
    Mr. Meadows. Okay.
    Ambassador Pickering. --of protecting it or leaving it.
    Mr. Meadows. Okay. So let's look at this. You had an ARB 
that was extensive. So this can be to you, Ambassador, and to 
you, Admiral Mullen. Why was this particular issue not brought 
up in the ARB when it was clearly recommended when we had a 
tragedy in East Africa before? Why would you not have addressed 
this as an issue?
    Ambassador Pickering. We did not, in my view, believe that 
the deficiencies that we found would be cured by that problem. 
That was my personal view.
    Secondly, that that cure would not solve all issues. It 
would bifurcate, in my view, things like the sources of----
    Mr. Meadows. So having one person----
    Ambassador Pickering. Responsibilities for----
    Mr. Meadows. So having one person in control of Diplomatic 
Security is not a good idea?
    Admiral Mullen, would you agree with that?
    Ambassador Pickering. I believe that one person in control 
of Diplomatic Security is an excellent idea at the assistant 
secretary level.
    Mr. Meadows. Okay. Admiral Mullen?
    Admiral Mullen. I have seen certainly this brought up 
today, and I'm aware that the panel recommended the same thing. 
I am not as sanguine immediately on doing this because I don't 
think you fix it by just bureaucratically making the change.
    Mr. Meadows. Well, there may not be one fix, but indeed, it 
was recommended before, and it was thought to be a good idea, 
and yet here we are 15 years later not doing it.
    Admiral Mullen. Part of the way--part of the way we tried 
to address that was to look at previous recommendations and 
implementation, and a lot has changed since 1998, so it may be 
the right answer. There are some--there are some bureaucratic 
issues associated with this that I am not overly excited about. 
That doesn't--what it can't do is be put in place and not be 
integrated in a way with the rest of the State Department.
    Mr. Meadows. All right. So, for the record, today, each of 
you, are you for this or against it, this recommendation? For 
the record, I want both of you to tell me where you are on the 
record, and creating an under secretary for Diplomatic 
Security.
    Ambassador Pickering. I am inclined against it because I 
think the problems it raises are larger than the problems it 
solves.
    Mr. Meadows. Okay. Admiral Mullen?
    Admiral Mullen. I am against it until I know a whole lot 
more about it.
    Mr. Meadows. Okay. I can see my time is expired, so I will 
yield back.
    Chairman Issa. Well, before the gentleman yields back, I 
think Mr. Sullivan and Mr. Keil can speak to their view of 
this, and, you know, candidly, I will tell you, Mr. Meadows, I 
am actually with the admiral and the ambassador in that I think 
Under Secretary Kennedy had both parts of this on his watch. 
And it was an organizational failure to weigh the two. Maybe it 
didn't come to his desk, but putting a separate under secretary 
wouldn't have changed that.
    Mr. Sullivan?
    Mr. Sullivan. Mr. Chairman, thank you.
    You know, as the panel looked at this, there were a couple 
of things that just came to mind, and even here there is 
debate, I believe, as far as who is in charge of security. So, 
from that perspective, we believe that by having an under 
secretary for security that would, you know, eliminate all 
debate, confusion about who, in fact, was in charge of 
security.
    When we look at the amount of, the breadth and scope of 
what comes under the under secretary for management, it is just 
pretty vast, and it is pretty, you know, administration, 
budget, visa, the Foreign Service Institute, the comptroller, 
HR, information resource. We thought that was an awful lot for 
one secretary. You know, I understand the hesitation because of 
the--this may, you know, just create another bureaucratic 
layer, and one thing I think is important to understand is, you 
know, my background, you know, as director, I was a direct 
report to the Secretary, you know. We had a deputy director 
from the FBI and, you know, and his background, the deputy--the 
Director was a direct report to the Attorney General, and I 
think when you have that type of direct report and it is made 
clear to everybody, it just lets your internal, and external 
partners, for that matter, just know the importance of security 
and where security stands within an organization. But, again, 
we also understand that there are a lot of other factors that 
are involved here, and there's a few things that need to be 
worked out, and I have talked to the current acting assistant 
secretary, Greg Starr, this is something after the report came 
out, he wanted to talk to us about in more detail.
    Chairman Issa. Mr. Keil, anything briefly?
    Mr. Keil. Yeah, just quickly. I think when you look at our 
report, all the aspects of our report are interlinked. The 
under secretary is the linchpin. You have to go to a risk 
management model, program criticality and the other aspects of 
the report. It is not a standalone. You don't just create an 
under secretary, and it solves it. It is interlinked, as you 
read our entire report. It is all interlinked. Interestingly, 
just one last point, the former assistant secretary for 
Diplomatic Security, Eric Boswell, testified before your staff, 
and it is in your committee report. He says, and it is a quote 
from your committee report, that the under secretary for 
management was making all the security decisions. That does not 
integrate well into a risk management model.
    Mr. Meadows. Thank you, Mr. Chairman.
    Chairman Issa. That was our view.
    Admiral Mullen. Mr. Chairman, could I just add one thing?
    Chairman Issa. Of course, Admiral.
    Admiral Mullen. With this work, which I just saw recently, 
the intent of what we did in the ARB was to certainly have this 
but hope that this independent group continues over time to 
evaluate this issue so that this isn't the last word with 
respect to these issues.
    Chairman Issa. Well, post-9/11, I think we all know that 
security is a daily relook and not a one-time relook.
    Ambassador?
    Ambassador Pickering. I should just mention because the 
question of the previous ARB was raised.
    Secretary Albright, as a result of that recommendation, met 
daily with the assistant secretary of state for Diplomatic 
Security first thing in the morning, and that established a 
nexus, a chain which neither her--I think none of her three 
successors kept. I think that may have been an error. I think 
that in some ways her interest, and put it this way, in no more 
Nairobi's and no more Dar es Salaams was an important instinct. 
That wouldn't be solved necessarily by elevating the rank or 
denigrating the rank. It was solved by a process, and I think 
that that was a rather good process, and in some ways, I'm 
sorry it wasn't repeated, but it wasn't extended at the time we 
looked at the ARB.
    Chairman Issa. Thank you.
    Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman.
    And thank you, gentlemen.
    Ambassador Pickering, in your deposition you said that no 
other ARB was so extensive and far-reaching in its findings of 
personal responsibility or personal accountability or made such 
far-reaching recommendations at such high levels in the State 
Department. Is that correct?
    Ambassador Pickering. Yes, I believe it is, sir.
    Mr. Davis. You further said that you were able to arrive at 
that conclusion because you had your staff review all of the 
other ARBs that were reported on to compare how they did their 
work and what they reported. Is that true?
    Ambassador Pickering. Yes, sir, that's particularly germane 
to the level and degree of accountability which I believe we 
assessed.
    Mr. Davis. Then can you explain how your review of previous 
ARBs led you to conclude that your ARB was one of the most 
comprehensive and far-reaching?
    Ambassador Pickering. We reviewed the level at which they 
fixed responsibility when they did and the degree to which they 
discussed that responsibility and the actions that they did 
recommend or did not recommend with respect to the people 
involved in those ARBs as a comparator against which to judge 
what we were recommending.
    Mr. Davis. Thank you, Mr. Ambassador.
    I also understand that a principal reason for doing the 
review of recommendations is that you felt that previous ARBs 
had made good recommendations but that the State Department 
sometimes fell short in implementing them. Is that correct?
    Ambassador Pickering. Yes, we did, and that is correct.
    Mr. Davis. Then could you tell us what steps that you took 
with this ARB to ensure that the 29 recommendations you made 
would, in fact, be implemented?
    Ambassador Pickering. We re-recommended at least one 
principal unfilled recommendation of a previous ARB which we 
felt was very germane to our ongoing security posture. That is 
a construction recommendation involving large amounts of money. 
We tried to carry that message, Mr. Davis, by starting each 
chapter of the ARB with a recollection of past recommendations 
which we believe hadn't been heeded, needed to be reheeded or 
needed to be reintroduced.
    Mr. Davis. Then have you been able to follow your 
recommendations and see how they are being implemented, and if 
so, what have you found?
    Ambassador Pickering. Only in the press, and so far what we 
have seen has shown department action in that regard, but I 
cannot say that that is a satisfactory method of review. It was 
not in our mandate.
    Mr. Davis. One senior State Department official interviewed 
by the committee said that, while serving in Libya, he saw 
evidence that the ARB recommendations were being implemented. 
He said; ``when I was charge in Tripoli for 6 months, for 
example, there was a huge number of security upgrades that are 
underway. Many of them, you know, attributable either directly 
or indirectly to ARB.''
    Are you encouraged by this comment?
    Ambassador Pickering. I saw that in the report. I am 
encouraged by the comment, but we know that, in fact, the first 
year after the ARB is a time of intense activity, and I worry 
whether, in fact, this is going to be continued, whether some 
of the heavy lifting between this branch of government and the 
executive branch for additional money and proposals for 
additional funding are going to be followed through. I hope 
they are. I can say I remain now skeptically optimistic, but I 
live in hope.
    Mr. Davis. Thank you very much.
    And I have no further questions, Mr. Chairman. I yield 
back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Michigan, Mr. Bentivolio.
    Mr. Bentivolio. Thank you very much, Mr. Chairman.
    Gentlemen, thank you very much for your distinguished 
service. I certainly appreciate it. I am going to be real 
quick. I only--I have a lot of questions but only 5 minutes to 
ask them.
    Admiral, I especially took note of your distinguished 
career and that, noticed that you were the captain of several 
ships or Navy vessels, correct?
    Admiral Mullen. Correct.
    Mr. Bentivolio. And on those boats, vessels, ships----
    Admiral Mullen. Ships.
    Mr. Bentivolio. Ships, thank you. I am an old Army guy. 
That you probably created a culture on that ship that had a 
high degree or those ships that had a high degree of morale, a 
culture of safety, risk management as we were speaking about, 
and maintaining a high state of discipline and readiness; is 
that correct?
    Admiral Mullen. Correct.
    Mr. Bentivolio. You probably wouldn't have been promoted to 
admiral had you not done that. So, rest assured, I have no 
doubt in my mind that your career is one of the most 
distinguished I've ever read about. I'm really impressed.
    But there's--I want to get back to this risk management. It 
seems to me, from what I've been hearing all day, there was a 
lack of it in--well, in the State Department. Did you find that 
also to be true?
    Admiral Mullen. I've sort of a two-level answer for this.
    Mr. Bentivolio. Okay.
    Admiral Mullen. One of the things that most of us that grew 
up in the military do almost instinctively is risk management, 
particularly with respect to any kind of combat, and we've been 
in a lot of combat in the last dozen years. What I have found, 
and I take, go to my senior position in the Pentagon as the 
chairman, as the head of the Navy, we're not as good at what I 
call strategic risk management as I would like to be 
specifically. And I worked on that when I was a chairman and 
when I was the head of the Navy in those senior positions. And 
too often, we're great tactically and not good strategically in 
many areas.
    What I found when we did our, the ARB is there wasn't the 
existence of certainly a system, systematic risk management 
program.
    Mr. Bentivolio. So you're familiar with the military risk 
management matrix, correct?
    Admiral Mullen. Yes.
    Mr. Bentivolio. Okay. We start at the very top would be 
extremely high risk, right?
    Admiral Mullen. Well, yeah. I mean, we would look at a 
combination of what we call likelihood and danger----
    Mr. Bentivolio. Okay.
    Admiral Mullen. --or most significant outcome.
    Mr. Bentivolio. Well, I'm from the Army and we have low, 
medium----
    Admiral Mullen. Yeah, yeah.
    Mr. Bentivolio. --high, and extremely high risk, and we 
evaluate just about every task----
    Admiral Mullen. Sure.
    Mr. Bentivolio. --including when we go into combat.
    Admiral Mullen. Right.
    Mr. Bentivolio. We look at all those. And let's see. 
Where--the part I'm talking about, and I think we touched on 
this in earlier questioning, you developed or the military 
tries to develop a culture around risk management, and I think 
that's what you're trying to improve when you talk about 
discussing this at the Pentagon, right?
    Admiral Mullen. Yes.
    Mr. Bentivolio. But I seem to have found absent in the 
leadership of the State Department. And I was just reading and 
just to prove your point in how we try to create a culture of 
safety and evaluating risks at all levels, I have a copy from 
the manual that is often used in training our first line of 
leaders, E-5, sergeants, I think. What do you call them in the 
Navy? E-5s?
    Admiral Mullen. Petty officers.
    Mr. Bentivolio. Petty officers, thank you. Petty officer. 
You have same, similar classes where they learn leadership 
skills?
    Admiral Mullen. Yes.
    Mr. Bentivolio. Including risk management analysis, 
correct?
    Admiral Mullen. Well, it's certainly included. We certainly 
have a leadership focus.
    Mr. Bentivolio. Right. Thank you.
    Mr. Keil, Mr. Sullivan, thank you, and you brought up risk 
management as well. Are you familiar with--well, it says here, 
let me read this, leaders and individuals at all levels are 
responsible and accountable for managing risk. They must ensure 
that hazards and associated risks are identified and controlled 
during planning, preparation, and execution of operations. Are 
you familiar with that?
    Mr. Keil. Yes, sir.
    Mr. Bentivolio. Are you familiar with the matrix that I'm 
talking about, referring to?
    Mr. Keil. Generally, yes, sir.
    Mr. Bentivolio. Generally, okay. How would you evaluate, if 
you got an intelligence report saying that November 16th that 
the British intel agency has foiled an attack on the Libya's 
National Transition Council and the British ambassador was 
about to get assassinated or tried to on February 6 in Syria, 
and in 2012, the U.S. closed the embassy in Syria, On June 15, 
2012, Tripoli, Libya, reporting a string of attacks on Western 
diplomats and international organizations. If you were going to 
Libya, how would you evaluate or on that matrix, what would be 
the level of risk? High, extremely high, medium or low?
    Mr. Keil. I would say extremely high, sir.
    Mr. Bentivolio. An extremely high, would you not try to 
address those things to lower that risk, including worst-case 
scenarios?
    Mr. Keil. Yes, sir.
    Chairman Issa. The gentleman's time has expired, but you 
can answer.
    Mr. Keil. Yes, sir, and but it can't just be addressed 
strategically. It also has to be addressed tactically. You 
can't separate those two. Too often people are quick to say, 
Oh, it was the Bureau of Diplomatic Security's responsibility. 
It doesn't stop there. It's more of a strategic question. It's 
got to be a whole-of-organization approach to risk management.
    Mr. Bentivolio. A culture within the organizations?
    Mr. Keil. Yes, sir.
    Mr. Bentivolio. And because of that absence of culture, the 
captain of this ship, so to speak, probably wouldn't get a very 
good rating; is that correct?
    Mr. Keil. Yes, sir.
    Mr. Bentivolio. And who was the captain of the Department 
of State at the time?
    Mr. Keil. Secretary of State.
    Mr. Bentivolio. And name please?
    Mr. Keil. At that time it was Secretary Clinton.
    Mr. Bentivolio. Thank you very much.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Missouri, who has been 
patiently looking in and out, coming in and out for this very 
opportunity.
    Mr. Clay. Thank you, Mr. Chairman, for conducting this 
hearing.
    And thank the witnesses for appearing, and hopefully some 
of our questions are being answered.
    And, Mr. Chairman, at this time, I would like to yield to 
my friend, the husband----
    Chairman Issa. Well, thank you.
    Mr. Clay. The husband of the brilliant Dr. Rockeymoore, Mr. 
Cummings of Maryland.
    Chairman Issa. Oh, so I was your second choice.
    The gentleman is recognized.
    Mr. Cummings. Thank you very much. I'll tell my wife you 
said that.
    The ARB assigned accountability to three individuals within 
the Bureau of Diplomatic Security, the deputy assistant 
secretary responsible for Libya, her boss, the principal deputy 
assistant secretary, and the assistant secretary. However, the 
ARB did not find specific fault with the under secretary for 
management, Patrick Kennedy, who is the supervisor of the 
assistant secretary.
    The Republican staff report released on Sunday night 
stated, ``The ARB downplayed Kennedy's role in the 
decisionmaking that led to the inadequate security posture in 
Benghazi.''
    Ambassador Pickering, do you agree that you downplayed 
Under Secretary Kennedy's role?
    And Admiral Mullen, would you answer the same question?
    Ambassador Pickering. No. I think that we looked very 
carefully at this. We have had numerous dialogues about this 
here this morning. We did not find the pattern of 
decisionmaking on the part of Secretary Kennedy deficient with 
respect to security. We did find the pattern of decisionmaking 
at the deputy assistant secretary level in the Bureau of 
Diplomatic Security deficient, and we found the review of that 
pattern by her boss, the assistant secretary, lacked, put it 
this way, sufficient attention to leadership and management, 
that it was deficient. We've talked here about that, and I 
believe that's the best description I can give you of that 
interrelationship.
    Mr. Cummings. Admiral Mullen?
    Admiral Mullen. I would only add that, again, we were 
guided by the statute that said, Look at who was making the 
decisions, and that's--it's almost hard to overstate the 
significance and the nexus of those decisions being made in the 
DS Bureau by Lamb and fully supported by her boss, Boswell.
    Mr. Cummings. As evidence----
    Ambassador Pickering. Not only to reinforce that, we were 
specifically admonished under the statute not to take as 
dispositive the acceptance of responsibility by senior officers 
who clearly didn't make decisions and, in some cases, were not 
informed but took that responsibility pro forma as part of 
their sense of obligation to their department.
    Mr. Cummings. As evidence of this allegation, the 
Republican staff report discusses a memorandum that Under 
Secretary Kennedy approved in December 2011, extending the 
special mission for 1 year. The Republican staff report said 
this; ``The document and the testimony show that one of the 
major contributing factors to this deficiency was the temporary 
nature of the Benghazi compound authorized by Under Secretary 
Patrick Kennedy.''
    Ambassador Pickering, did the Accountability Review Board 
review the December 2011 memorandum approved by Under Secretary 
Kennedy?
    Ambassador Pickering. Yes, we did.
    Mr. Cummings. Ambassador Pickering, can you explain what 
role Under Secretary Kennedy had in that memo and why you did 
not conclude that he was responsible for the specific measures 
at the temporary facility?
    Ambassador Pickering. He was asked to approve the extension 
by all of the bureaus concerned, including the Bureau of 
Diplomatic Security which had responsibility in carrying out 
that extension to carry out the appropriate security measures. 
There was not a proposed panoply of security measures which 
Kennedy was asked to approve. It was part of the process that 
the Bureau of Diplomatic Security had that responsibility, 
would take it and carry it out.
    Mr. Cummings. Admiral Mullen, do you agree with that?
    Admiral Mullen. I do, and one very specific line item in 
that memorandum designated the expected number of ARSO's, 
security agents or officers in Benghazi, and that gets back to, 
in implementation, where the decisions were made. The failure 
and accountability was in not meeting that need.
    Mr. Cummings. Then, finally, in fact, that memo was 
approved before it reached the under secretary by both the 
Bureau of Diplomatic Security and the Bureau of Overseas 
Building Operations, both of which were responsible for the 
security at the post. The Republican staff report also finds 
fault with Under Secretary Kennedy plays a role in approving 
the decision not to expand--extend the SST, a Defense 
Department team helping with security in Tripoli, the report 
states, and this is--I'll close with this, ``The decision to 
end the SST mission in Libya in July 2012 was made by 
Ambassador Kennedy, albeit based upon a recommendation from 
Charlene Lamb.''
    Do you all have a comment on that?
    Ambassador Pickering. Yes, I would just comment that to the 
best of our knowledge and belief, the continuation of the SST 
was not also actively supported by Ambassador Stevens, and that 
played a role as well in the decisionmaking.
    Mr. Cummings. I'll yield.
    Chairman Issa. With that we go--go ahead, Admiral.
    With that, we go to the gentleman from Florida.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Admiral Mullen, just to follow up, there was the discussion 
about giving the head's up to Cheryl Mills, so what was the 
purpose of doing that?
    Admiral Mullen. The purpose was to--the purpose was to, 
having sat through an interview with Ms. Lamb, who answered all 
questions very honestly--there's been an issue raised today 
about whether there was any question about her, and there 
wasn't ever, about Ms. Lamb and her straightforwardness--but 
the single purpose was very obviously very early in the overall 
process post-Benghazi, the testimony was having run a large 
department, I spent a lot of time when I was head of the Navy, 
as well as chairman, and in previous jobs, but really in those 
head jobs, that the senior jobs, looking at who should, who 
would be best qualified for whatever the question was----
    Mr. DeSantis. No, I understand that and I understand----
    Admiral Mullen. And so testified.
    Mr. DeSantis. Sorry to interrupt, but I'm limited on time, 
and I understand, as a CNO, and I was in the Navy when you were 
CNO, and I appreciate that, but I guess, you know, you're on 
this ARB. I just--what is it? Like what interest do you have in 
who the State Department puts up or not? I understand why, 
given your Navy position, how you would have done that with the 
Defense Department.
    Admiral Mullen. Actually, it had nothing, it had nothing to 
do with ARB, and it had everything to do with a heads up in 
order to at least give my view that this was going to be a weak 
witness to an agency head who was working through who was going 
to appear.
    Mr. DeSantis. Ambassador Pickering, this may, was mentioned 
previously, but this 1998 ARB recommendation about the 
Secretary of State personally reviewing the security situation 
in these outposts and closing some if there is not adequate 
security, and this was after the East Africa bombings, was that 
something, because I know you were high in the State 
Department, was that something that you remember, and did you 
think that that recommendation made sense?
    Ambassador Pickering. Yes.
    Mr. DeSantis. And so the issue with not submitting 
interrogatories to Secretary Clinton or not interviewing her 
about, you know, what determinations did she make with respect 
to Benghazi, what was the reason for not doing that?
    Ambassador Pickering. I think that we made it clear that, 
as I said a moment ago, that's, that particular process, which 
Secretary Albright implemented in her own way of having a daily 
meeting in the morning with the assistant secretary of 
security, seems to have dwindled away. It did not exist, and 
therefore, there was a weakness, in our view, in perhaps 
pushing issues up that might have attracted the attention of 
the Secretary, but that was not done.
    But that was not, in our view, a fault with the Secretary. 
It was a fault with the assistant secretary for security, who, 
if he had that view, should have pushed it up. That was, of 
course, a decisional question. We found weaknesses in taking 
account of a whole series of activities in the region that 
everybody seemed to live with and not take as a kind of bell 
ringing in the night that the situation was getting worse and 
you better take a look at it.
    Mr. DeSantis. And I understand that. I guess my issue is, 
is, you know, Benghazi and eastern Libya generally, like when I 
was in Iraq in 2007, there were foreign fighters coming into 
Iraq from Libya. And we knew when we were conducting operations 
against Qadhafi that a lot of his opposition was an Islamist 
opposition. And so it just seems to me that that process 
breaking down, I understand how that, but this particular area 
on the eve of 9/11, it just seems to me that there should have 
been more alarm bells ringing off that would go all the way to 
the top. And I understand your point about the breakdown, but 
it just seems to me it would have been helpful to get the 
Secretary's input on what she did or didn't do proactively, 
understanding that there may be fault beneath because of the 
critical nature of that, and so I just want--my final question 
would be, you know, as you sit here today, and obviously, it 
would be to both Admiral Mullen and Ambassador Pickering, are 
you satisfied with the United States Government's response to 
what happened in Benghazi writ large?
    Ambassador Pickering. No, and I think that our report was 
designed, sir, to provide a series of recommendations----
    Mr. DeSantis. But what I'm saying is----
    Ambassador Pickering. --on what to do.
    Mr. DeSantis. The response, since you've done the report, 
are you satisfied with the action that the government's taken, 
and then, just as somebody, and I know this is outside the 
purview of your report, but just as an American, and certainly 
Admiral Mullen, as a distinguished military officer, you know, 
are you satisfied with what we've done to bring the folks who 
actually did this to justice?
    Ambassador Pickering. I'm--look, you've got a couple 
questions here. What was done to follow up the ARB generally 
through the newspaper reports, I think they are making a 
serious effort to do it, but I would be happier if I sat down 
and had a full briefing and then could give you the kind of 
judgment that I hope you would expect from somebody with 
experience.
    Chairman Issa. Heck, we'd be happy to get a briefing, too.
    Ambassador Pickering. Yeah, I understand. On the FBI's 
work, I think that's something you really need to talk to them 
about. There have been complaints that they aren't moving soon 
enough, but we all know the difficulty of investigative 
activities in foreign countries where, in fact, it requires a 
huge security presence even to go and take a look at the crime 
scene. And I think there are formidable problems that the FBI 
faces in being able to provide a rapid response. And I think I 
understand as well as most. I, certainly as a citizen, I would 
like to see it instantaneously, but as, I hope, a rational 
person, I have some understanding of what it is they have to 
contend with.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Tennessee, Mr. DesJarlais.
    Mr. DesJarlais. Thank you, Mr. Chairman.
    Thank you, gentlemen. I know it's been a long hearing.
    There's many lingering questions on Benghazi. One I get 
asked quite frequently, and I want to get your perspective, 
Ambassador and Admiral, on this particular issue, and that is 
the claim by the State Department, the Secretary of State, the 
intelligence community as to the fact that this attack was the 
result of a YouTube video. What is your perspective as to why 
that was propagated for so long?
    Ambassador Pickering. Look, that all happened after the ARB 
was, in effect, reported. It was not in our line of 
responsibility, and therefore, I think that principally those 
investigating criminally are going to have to look for motive 
and rationale. And I believe, in fact, that, without bucking it 
too much, that's where the real decisionmaking on what really 
was motivating the guys will have to take place.
    Put it this way: There was an attack on Egypt apparently 
more directly related to the video that took place on the 
afternoon before the attack on Benghazi. There is some 
indication that that attack stimulated interest in Benghazi, 
only indication.
    There are some who have said there is testimony that, in 
fact, the video was in people's minds.
    Mr. DesJarlais. Okay. I mean, I think we can all buy that 
story, sir.
    Ambassador Pickering. But I can't give you a conclusive 
view because I haven't done the work.
    Mr. DesJarlais. Okay, I think we can all buy that.
    You're an American. You listened to this. You watched the 
news, and you had to have been a little bit ashamed of the fact 
that this was propagated for 2 to 3 weeks. I think this is 
important because we have family that still have not had 
justice, the justice that Obama went on television and promised 
we would get; we would catch these people. It's a year later; 
there's not even been an arrest. And, you know, that's a 
problem.
    And so it goes to the credibility, and I just wanted to get 
your perspective. I get your talking points, and I know what 
happened in Egypt, and that story might have held water for, 
what, maybe 6 hours, but not 3 weeks. But yet, you know, to the 
American people the credibility of the administration, the 
State Department and the intelligence community was diminished 
because they continued to propagate that.
    Admiral, do you agree?
    Admiral Mullen. We made very clear early on, and obviously 
it was almost a month later when----
    Chairman Issa. Admiral, if you would take your mic, please.
    Admiral Mullen. Sorry. We made very clear early on, and 
obviously, we started a month later, that we thought it was a 
terrorist attack based on, actually not just based on sort of 
the public discussion but based on the evidence. And certainly 
I----
    Mr. DesJarlais. What do I tell the folks back home?
    Admiral Mullen. I guess the way I would answer the question 
is to say I understand the question.
    Mr. DesJarlais. Uh-huh, you understand.
    Admiral Mullen. But it really was outside our purview to 
get in.
    Mr. DesJarlais. A lot of people think it was political. I 
mean, we were 7 weeks from a Presidential election; this was 
just messy, and we didn't want to deal with it, but what it did 
create was a lack of an investigation taking place immediately. 
It was delayed about 3 weeks, and that's why I bring it up.
    But let's get back to something that is more germane to 
today's hearing. Raymond Maxwell is one of the people selected 
for accountability. Can you tell me what Raymond Maxwell did to 
contribute to the inadequate security posture in Benghazi?
    Ambassador Pickering. He told us that he had made a 
conscious decision not to read the intelligence.
    Mr. DesJarlais. Okay. And did you look at the testimony of 
his supervisor, Beth Jones, where she said it's been determined 
that there was no intelligence they could have told us that 
this attack was underway; it wasn't material.
    Ambassador Pickering. That was all substantive to our 
discussion. We did interview Ms. Jones. From what I can see, 
her subsequent testimony to the committee indicated she was not 
aware of the fact that her subordinate was not reading the 
intelligence.
    Mr. DesJarlais. But in fact, there was evidence that he had 
not stopped reading all the intelligence.
    Ambassador Pickering. He made a statement to us that led us 
to believe that he had stopped reading intelligence.
    Admiral Mullen. And he did not clarify it, as it has been 
clarified I've seen in certain documents.
    Ambassador Pickering. And in every interview, we gave 
people at the end of the interview the warning and the right, 
did they have anything more to say to explain their testimony 
to us?
    Mr. DesJarlais. Okay. So was Maxwell's finding for 
accountability directly related to the attack on Benghazi or 
was the accountability unrelated to the attack?
    Ambassador Pickering. We believe it was related to the 
security question. If he didn't know the intelligence, he 
couldn't understand the security problem in full.
    Admiral Mullen. And, sir, just very quickly, from my 
perspective, in that interview. I mean, again, I was stunned 
and shocked when I heard him. What it represented to me was a 
detachment from the responsibilities for Libya and then inside 
Libya and Tripoli and Benghazi. It was a strong indicator of 
his detachment, and he as a very senior guy in the State 
Department, responsible with everything else that was going on 
in the world, it sort of lay right in front of him.
    Mr. DesJarlais. Okay, so I'll----
    Ambassador Pickering. And, sir, he said he did this because 
he didn't want to confuse in public speaking classified and 
unclassified, while at the same time, he was clearly reading 
all of the State Department classified material, so this didn't 
seem to us to be a responsible position or a reasonable 
position, and I fully support what the admiral said.
    Mr. DesJarlais. Okay, so you think at this point, he still 
should be one of the four individuals based on what you know 
now? This is, of all the things that happened in Benghazi, this 
is one of the guys that should take the heat?
    Ambassador Pickering. We haven't changed our view. 
Certainly, I haven't.
    Mr. DesJarlais. Thank you.
    Chairman Issa. We go to Mrs. Lummis.
    Mrs. Lummis, would you yield me about 10 seconds.
    Mrs. Lummis. Yes, Mr. Chairman.
    Chairman Issa. I just want to make one thing clear in a 
question. I'm following up on Dr. DesJarlais. You held him 
accountable because he was derelict in focusing on his 
responsibility. However, people above him and below him were 
acutely aware that there had been a series of attacks, 
including the two on the British ambassador and the like. So 
the actual attacks and the actual risk was not a question but 
only the classified information. I just want to make sure 
that's correct. We've had both of you in depositions on this.
    Ambassador Pickering. I think we believed that his 
responsibility in the bureau extended to everything taking 
place in Libya.
    Chairman Issa. So he's part of the culture of not caring 
enough but, in fact, people above him and below him, including 
Under Secretary Kennedy, were acutely aware of the growing 
danger and risk actually occurring in Benghazi?
    Ambassador Pickering. They were not----
    Chairman Issa. That's a yes or no.
    Ambassador Pickering. They were not required to follow, Mr. 
Chairman, on a daily basis. He had the dot. He made it clear he 
had the dot, and he was--they were not--these----
    Chairman Issa. Now, look we're aware of the----
    Ambassador Pickering. --his universe to cover.
    Chairman Issa. Admiral--or ambassador, we're not----
    Ambassador Pickering. I love the promotion, keep giving it 
to me.
    Chairman Issa. No, ambassador is forever, we know that. The 
fact is that we are not disagreeing that there was a level, a 
sequence of responsibility.
    Ambassador Pickering. Yes.
    Chairman Issa. So, trust us, we are not saying you were 
wrong in holding certain people accountable. One of the 
challenges here, as Dr. DesJarlais said, is, Look, you had 
absolutely no mandate to deal with the fact that the American 
people were outright lied to as to the cause of the attack and 
misled for a long period of time, including on virtually every 
Sunday talk show. We understand that wasn't your mandate, but 
neither was your mandate to look at the question of a system, 
under Under Secretary Kennedy, that did not allow anybody to 
pull the panic button, but rather, it kept looking for one 
person who would decide not to do, not to have Benghazi open or 
to man it with resources they may not have had. Mrs. Lummis, I 
would ask----
    Ambassador Pickering. Quite the contrary, Mr. Chairman. One 
of our recommendations was that there ought to be a system, a 
very simple one, where there were differences of view between 
the regional bureau supporting the ambassador in the field and 
Diplomatic Security, that it ought to be resolved by the two 
assistant secretaries immediately. If it couldn't go there, it 
should go to Kennedy and his political opposite number in this 
point, Wendy Sherman. If they couldn't solve it right away, the 
Secretary. So we believed, in fact, that push up was not taking 
place, and the principal responsibility, as Admiral Mullen I 
think explained a while ago, seemed to be at the level of the 
people who had the responsibility to push up, who were in a 
sense covering their decisions.
    Chairman Issa. Thank you.
    I would ask unanimous consent the gentlelady have the full 
5 minutes. Without objection, so ordered.
    Mrs. Lummis. Thank you, Mr. Chairman.
    I want to follow up on Dr. DesJarlais's and the chairman's 
line of questioning. You did, as the Accountability Review 
Board, admit last December that there was no protest prior to 
the attacks, correct?
    Ambassador Pickering. Correct.
    Mrs. Lummis. Is it true that there really were video and 
audio feeds from Benghazi as the attacks unfolded?
    Ambassador Pickering. No. There were video feeds to the 
tactical center in Benghazi monitored by a DS agent.
    Mrs. Lummis. And did the----
    Ambassador Pickering. Who had an opportunity to see certain 
cameras that were put in for precisely that kind of 
surveillance.
    Mrs. Lummis. Okay. And so did the DSA agent have an 
opportunity to communicate what he was seeing on the film to--
--
    Ambassador Pickering. Yes, he was speaking over the 
telephone on a regular basis with the DS operations center at 
the State Department in Washington.
    Mrs. Lummis. Okay. So that gets it into the chain of 
command. So that information could have been or should have 
been available to the President, to the Secretary of Defense, 
the Secretary of State; is that correct?
    Ambassador Pickering. That particular set of information 
was shared in the State Department. I don't know to what degree 
it went beyond the State Department.
    Mrs. Lummis. So we still don't know why Susan Rice went on 
those Sunday talk shows when they had the information that this 
wasn't due to a spontaneous protest and instead said it was.
    Ambassador Pickering. We did not obviously have 
responsibility for investigating that, so I don't even want to 
give you an opinion on it.
    Mrs. Lummis. Okay. Was it an organized terrorist group that 
attacked?
    Ambassador Pickering. That is something the FBI will have 
to answer. I can say the following: From my observation of the 
surveillance camera film, which was spotty, not complete, some 
of the invaders showed some modicum of organization for a short 
period of time and some showed a lot of disorganization, but 
Admiral Mullen is the military expert. I don't know whether he 
has any comment on that or not.
    Admiral Mullen. I think that's pretty well said. I would 
say it was a combination.
    Mrs. Lummis. Okay. Is it true that a former GTMO detainee 
who knew Ambassador Stevens claimed responsibility for the 
attack after it happened? Is that true?
    Ambassador Pickering. I believe you're getting into 
classified intelligence and that we can't take you there now.
    Mrs. Lummis. Okay. Is it true----
    Chairman Issa. Will the gentlelady suspend?
    Mrs. Lummis. Yes.
    Chairman Issa. That is not true. That is not classified 
that they made an overt claim of responsibility. The 
gentlelady's question had to do with that a group had claimed 
it. They made a very public claim.
    Mrs. Lummis. Okay, thanks, Mr. Chairman.
    Ambassador Pickering. Yeah, but--okay.
    Mrs. Lummis. Is it true that there's documentation that the 
Muslim Brotherhood and operatives from Egypt were involved in 
the attack?
    Ambassador Pickering. Our report indicates that one 
Egyptian organization, which is named in the report, was 
possibly involved, and I'm not sure. I think that that's in the 
unclassified. I hope it is.
    Mrs. Lummis. Okay. If we--is it true that they were seeking 
to loot surface-to-air missiles that were gathered up at the 
annex?
    Ambassador Pickering. I can't comment on that.
    Mrs. Lummis. Okay. Is it possible that they were trying to 
acquire classified communications codes?
    Ambassador Pickering. I can't comment on that.
    Mrs. Lummis. Okay. Is it true that they were planning to 
kidnap the ambassador and it went wrong?
    Ambassador Pickering. I can't comment on that.
    Mrs. Lummis. Thank you Mr. Chairman I yield back.
    Chairman Issa. Would the gentlelady yield?
    Mrs. Lummis. I will.
    Chairman Issa. Mr. Sullivan, Mr. Keil, I just had one 
question that has come up again and again in your post mortem 
of problems. I'm a big fan of really great security systems, 
and my favorite one is how they produce high quality 
automobiles on the Japanese assembly lines. They have overhead 
lines and any production worker--and this has become common in 
America too--anyone on the production line can pull if they see 
a bad part or a safety hazard they can pull a chain and the 
line shuts down. That's how they make sure they don't have 
defects.
    Is one of the problems you've observed that whether or not 
we have a growth in the bureaucracy, an Under Secretary of X, 
Y, and Z, who theoretically report directly to the Secretary, 
isn't one of the problems that the culture doesn't allow one 
person who sees a problem to simply shut it down? In other 
words, one group is making the facilities decision as a 
complete exception to the safety standards; another person is 
held accountable after a decision is made to be in a hopelessly 
worthless building, one whose wall had been breached by a very 
small piece of explosive, and yet that person didn't have the 
ability to say, stop, we're not going to be in Benghazi because 
policy drives whether you are in Benghazi, facilities drives 
what building you're in, and then diplomatic security is told 
to make sure that they make it safe.
    Isn't the functional structure at the Department of State 
one in which instead of having everybody be able to shut 
something down for safety, virtually nobody in some situations 
can independently shut it down other than the Secretary of 
State herself?
    Mr. Sullivan. I think what we looked at here was enabling 
people to be able to do that very thing. I think what we saw 
here, a Secretary, there's a lot of very, very good outstanding 
people at the Department of State.
    Chairman Issa. Agreed.
    Mr. Sullivan. Diplomatic security. I think when it comes to 
risk, we, as a country, what I've been briefed on, we've made a 
determination that we're going to go into these high-risk 
areas. What I think is there just needs to be an improvement in 
how we go about doing our risk management and how we come up 
with the best plan to mitigate that risk.
    We've seen, we have seen stovepiping, I think that's an 
issue, I think that's an issue in any organization. But to me, 
this is about identifying what those problems are and fixing 
it. And I do see that that move is afoot. But I do think when 
you go into any high-risk area, I do think that there is always 
going to be that threat. We're never going to be able to 
eliminate all of that risk but we need to come to a--I think 
State Department needs to come to a, arrive at a spot where, 
you know, they look at the criticality of that program and they 
come up with the best mitigation for that threat.
    Chairman Issa. I thank the gentleman.
    Mr. Cummings. Mr. Chairman, may I have 30 seconds to just 
sum up?
    Chairman Issa. Yes.
    Mr. Cummings. Mr. Chairman, you said a moment ago you said 
something, and you said that's not true when you were talking 
to Admiral Pickering.
    Admiral Pickering, I just want you to clear that up the 
chairman said to me he misunderstood, but I want the record 
clear.
    Chairman Issa. I was only saying based on her question 
which the Ambassador misunderstood.
    Mr. Cummings. Because these records--I don't want your 
reputation to be impugned in any way.
    Ambassador Pickering. I've lost part of the conversation. 
I'd be glad to address the question.
    Chairman Issa. It was simply that what her question was if 
properly understood was about a public report, and it was clear 
that you didn't understand she was asking about the public 
report which then you both cleared up.
    Mrs. Lummis. That is true.
    Ambassador Pickering. Because I know, I will put it this 
way, unpublic information----
    Chairman Issa. We do not want unpublic information here 
today.
    Ambassador Pickering. And I would always say, Mr. Chairman, 
just let me say this: Kidnapping seemed to me to be far-fetched 
because, in effect, in the testimony that was given in the 
public report, they did not make a serious attempt to go into 
the closed area of the villa. It is not even sure, in my view, 
they knew the Ambassador was there.
    So I would say while I said I didn't want to touch that, I 
would say in retrospect, it doesn't seem highly likely. Could 
be, but I don't think so.
    Mr. Cummings. Thank you, Mr. Chairman.
    Chairman Issa. Thank you. We're now going to recognize that 
everyone has had a first round. I would like to get this panel 
out of here in less than 10 minutes. So I'm going to look to my 
left and tell the gentlemen that I will waive my time and give 
you, between the two of you, 5 minutes. I will look to my right 
and give my ranking member 5 minutes, and no one will get a 
minute more. The gentlemen over there may split there time 
starting now.
    Mr. Jordan. I thank the chairman for the generosity.
    Admiral Mullen, we learned earlier that in the very first 
week of the ARB being formed, you gave Cheryl Mills a heads up 
because you felt Charlene Lamb, who was coming to testify in 
front of this committee was quote, and the response to Mr. 
DeSantis' question, ``a weak witness.''
    So my question is real simple. Why should you care? Why 
does it matter? Weak--if she was a weak, strong witness, short 
witness, tall witness, male witness, female witness, why in the 
heck does it matter? Your job is to figure out what took place 
at the State Department not to decide what kind of 
representative the State Department sends in front of a 
Congressional committee. So why in the heck did you care?
    Admiral Mullen. I indicated before that I did that having 
nothing to do with the ARB, and having everything to do with 
the fact that I've run departments, provided witnesses, and as 
the head of a----
    Mr. Jordan. If she was a strong witness, if she was going 
to convey a good light for the State Department, would you have 
called up Cheryl Mills and say hey, Charlene Lamb is going to 
knock it out of the park you know make sure you coach her and 
get her ready and send her in front, she is going to be 
stellar. Would you have called Cheryl Mills then?
    Admiral Mullen. In my interpretation or judgment at that 
point, she is going to be a strong witness? No.
    Mr. Jordan. So the only reason you called her is because 
she was going to be a weak witness and convey a bad light on 
the State Department.
    Admiral Mullen. The only reason I called was to give her a 
heads up that I thought the Department could be better 
represented at the hearing.
    Mr. Jordan. Let me walk you one more thing before I yield 
my time to the gentleman from Utah.
    Isn't it true that you were selected, you were notified by 
Cheryl Mills that you were going to serve on the ARB?
    Admiral Mullen. Correct.
    Mr. Jordan. So Cheryl Mills called you up, said, Admiral 
Mullen, I want you to serve on the board. A week into the 
formation of the board you call her back up and you say, hey, 
Cheryl Mills, the lady who's about to go in front of the 
committee that has jurisdiction looking into this is going to 
be a terrible witness. You need a heads up on this, and oh, by 
the way, at the end of the report before it goes public, you 
give Cheryl Mills and Hillary Clinton a chance to look at the 
report and make edits if they want to, and yet, I forget one 
important point, maybe the most important point. In your 
opening statement you said you operated and the board operated 
independent.
    Admiral Mullen. We did operate independent.
    Mr. Jordan. I just want to make it clear. I yield my time 
to the gentleman from Utah.
    Admiral Mullen. And the only thing I'd like to comment with 
respect to what you said in the last statement was in the 
normal process, as we report it out, we were done with the 
report, and we went to Secretary Clinton to give her a briefing 
on the report. It was hers to take, that was the tasking, and 
hers to choose what to do with if she chose to sign it out.
    Mr. Jordan. And Admiral that's all fine, but don't convey 
this as independent. If Cheryl Mills picked you, you gave her a 
heads up within days of starting, and you let them look at the 
report and edit the report at the end, that's all fine if 
that's the way the statute reads, but don't try to tell us that 
it's independent.
    Admiral Mullen. Ms. Mills didn't pick me. She called me and 
asked me to do this for the Secretary of State.
    Mr. Jordan. Okay that's not picking. All right. I got that.
    Chairman Issa. The gentleman from Utah.
    Mr. Chaffetz. I just have to ask as a follow-up to that. 
You testified that Charlene Lamb you thought was honest, you're 
not questioning her integrity so what made her a weak witness?
    Admiral Mullen. It was my reaction from having sat down 
with her for a couple of hours at that particular point in 
time.
    Mr. Chaffetz. So she's honest, she's full of integrity but 
that made her a weak witness?
    Admiral Mullen. My sense was, Mr. Chaffetz, my sense was 
that she had not appeared before, this was not certainly, it 
certainly wasn't routine, from that standpoint, and it was not, 
and I just ask you, I have to ask you to believe me, it was not 
certainly intended to never put her in front of the committee, 
or at least speak to that.
    Mr. Chaffetz. This is the problem. With all due respect, 
you make in your fourth paragraph of your testimony you go to 
great lengths about the unfettered access, the ability to talk 
to people. We didn't get that same privilege. We don't have 
that on the same panel.
    The President of the United States said before the American 
people and said that he would ``I think it is important to find 
out exactly what happened in Benghazi and I'm happy to 
cooperate in any way that Congress wants.''
    That's never happened. It doesn't happen in this panel, it 
doesn't happen from the State Department. That is part of the 
frustration. I don't mean to single you out at all. I 
appreciate you being here and what you've done in your career. 
We still don't have answers to very basic things.
    The video, or the lack of a video, is kind of an important 
element to what happened or didn't happen in Benghazi. You 
didn't even look at that.
    Now I need to ask Mr. Sullivan, because part of the reason 
that you and Mr. Keil are here is because we saw in Al Jazeera 
of all places the independent panel on best practices. You 
convened this panel at the recommendation of the ARB. You 
started this panel back in April, correct? Mr. Sullivan?
    Mr. Sullivan. Yes, sir.
    Mr. Chaffetz. When did you complete your work.
    Mr. Sullivan. We completed our work just before the report 
came out which would have been the end of August, beginning of 
September.
    Mr. Chaffetz. Who specifically--I want a name--did you give 
this report to? This report is dated August 29, 2013, this 
report is dated then.
    Mr. Sullivan. Yes, sir.
    Mr. Chaffetz. Who did you hand this to?
    Mr. Sullivan. The report was handed to Greg Stern who is 
the acting----
    Mr. Chaffetz. I'm sorry, who is he?
    Mr. Keil. We presented actually under the Federal Advisory 
Committee Act, we were legally bound to present the report to 
the Overseas Security Advisory Committee, which is a FACA-
exempt group, and their executive counsel had to take a look at 
the report before it could officially go to the Department of 
State.
    Mr. Chaffetz. Has it gone to the Department of State?
    Chairman Issa. Your time is expired. This will have to be 
the last question.
    Mr. Sullivan. I don't know.
    Mr. Chaffetz. I would ask my friend, the ranking member, if 
he would be okay just to finish this line of questioning. 
Please, if can have an additional minute.
    Chairman Issa. Without objection, so ordered.
    Mr. Sullivan. The Department of State does have the report.
    Mr. Chaffetz. One of my fundamental challenges and problems 
is the United States Congress doesn't have this report. It's 
been almost a month. We don't have this report. And yet the 
first time it comes up, to the best of my knowledge, is on Al 
Jazeera, that's where we've got to get this stuff? And so----
    Mr. Sullivan. Congressman, I think that was really 
unfortunate----
    Mr. Chaffetz. Do you know how it happened?
    Mr. Sullivan. I do not. And believe me, that, I believe 
that's extremely unfortunate that that report came out that 
way. The State Department, quite frankly, didn't even have a 
chance to look at that report before it was, before that came 
out.
    Mr. Chaffetz. So who is going to investigate how Al Jazeera 
gets a copy of it before the State Department or the United 
States Congress gets to it? Where did it go? You used to be the 
head of the Secret Service. You know how this stuff works. How 
did this happen?
    Mr. Sullivan. Sir, all I know is that we provided this 
report, as Greg said, I was not there that day. I was out of 
town. But this report was provided to the representative of the 
Overseas Security Advisory Committee, and the next thing we 
knew within 2 days, that report had been leaked out.
    Mr. Chaffetz. I do hope for those State Department 
officials, Mr. Chairman, I'm going to wrap up, the State 
Department officials that are here in this room that are 
listening to this, to understand this they've got to get to the 
bottom of this, and we still, as the United States Congress, 
have to get a copy of this. For Al Jazeera to have it a month 
almost before us is just not acceptable.
    Chairman Issa. I thank the gentleman. We now go to the 
ranking member.
    Mr. Cummings. Admiral Pickering, Admiral Mullen Mr. 
Sullivan and Mr. Keil, many of my comments mainly at Ambassador 
Pickering and Admiral Mullen, I'm so glad you're there. I'm 
glad you did what you did.
    There's a book that I love called The Speed of Trust by 
Covey. At some point, we have to have trust in somebody. When 
you lose trust, what happens is that it's almost impossible for 
any relationship to succeed.
    And I know that you come here, and I notice that everybody 
gives you these nice compliments and everything and then all 
depending on who it is, then you hear a lot of negatives and 
sometimes positive. But again, I thank you for what you've 
done.
    Let me ask you, Admiral Mullen, there's been a number of 
questions about this heads up, and sounds like it was more just 
general advice as to who could best present testimony, but 
going back to the, now back to the ARB, did you all take it 
easy on Charlene Lamb?
    Admiral Mullen. We did not.
    Mr. Cummings. I can't hear you.
    Admiral Mullen. We did not.
    Mr. Cummings. Did you give her a pass?
    Admiral Mullen. No, we held her accountable.
    Mr. Cummings. Would you agree with that, Admiral Pickering? 
Ambassador. I'm sorry.
    Ambassador Pickering. Okay.
    Admiral Mullen. Absolutely.
    Mr. Cummings. I apologize. During the transcribed 
interviews with the committee staff, numerous officials 
described the week of the attacks on Benghazi as an intensely 
dangerous, complex and confusing week of protests and other 
violent episodes at U.S. facilities around the world. For 
example, Eric Boswell, the Assistant Secretary of Diplomatic 
Security, described a multitude of events threatening U.S. 
posts around the world.
    This is what he told us; ``The state of play was not only 
in Benghazi but in Tripoli, we were very concerned about 
Tripoli, but also things were starting to go haywire in other 
places. We had an attack on our embassy in Sana'a, Yemen, where 
demonstrators penetrated the perimeter, did a great deal of 
damage, milled around inside the compound and in subsequent 
days, there were other such demonstrations, so I had my hands 
full. We had,'' and this continuing on with the quote, ``we had 
a mirror innovation of a compound in Khartoum, Sudan, where 
very large thousands of demonstrators in each case, there was 
thousands of demonstrators, saw thousands of demonstrators, 
came up against the wall of this brand new mission.''
    Continuing; ``There was a similar attack by a mob on our 
embassy in Tunis, another brand new facility, a large number of 
demonstrators penetrated into it, into the facility, another 
round, did a lot of damage. It was very alarming at the time.''
    Admiral Mullen, I'm trying to put myself in the shoes of 
our military, diplomatic and intelligence officials who were 
trying to deal with this in very few days. I noted the ARB 
looked specifically at Benghazi, but can you tell us anything 
about how our military would have dealt with this entire week 
of incidents?
    Admiral Mullen. You mean in terms of a military response.
    Mr. Cummings. Yes.
    Admiral Mullen. It would have been obviously posturing 
forces, increasing levels of readiness, moving them as rapidly 
as we could, literally, as you described it, around the world 
in order to respond. And it would pull us away from places like 
the Persian Gulf where we have a lot of forces, even, quite 
frankly, the Western Pacific we started to roll from there, 
forces that were heavily engaged as well in places like--or in 
Afghanistan. So it wouldn't have, it wouldn't be for, I'd say, 
a short period of time, impossible to kind of move forces into 
place, but sustaining them in, lo, these many areas for a long 
period of time, that's where we don't have enough forces.
    Mr. Cummings. Ambassador Pickering, what about the State 
Departments's global perspective? How do you begin to even 
process all of this incoming information?
    Ambassador Pickering. Well, I think that we have a system 
to do it, but the responses to cascades of basically 
deteriorating events are always measured against what are the 
resources of the State Department to mobilize reserves.
    And in truth, Mr. Cummings, there ain't no reserves. We're 
short on dough, people are stretched. We have to take away from 
one set of foci where we're working online, operationally, pull 
people out and put them other places.
    When compounds are under pressure, particularly where there 
are dependents, that raises another very serious question of 
how do we get them out of harm's way as soon as we can? So 
there are multiple questions. And I can understand that 
assistant Secretary Boswell was literally up to here to have 3, 
4 or 5 major attacks if you can put it this way on U.S. 
facilities taking place in the space of 3 or 4 days.
    And so that is getting close to exhaustion. And in many 
ways, the ability to ride that out and to see the way through 
it represents, in my view, an extraordinary devotion to duty.
    Mr. Cummings. Mr. Chairman, I again thank you for bringing 
our witnesses forward. Thank you all very, very much. We really 
appreciate your testimony, all of you. Thank you.
    Chairman Issa. I thank you. I also thank our witnesses and 
as we close, we thank each of you for your service, both in 
your roles of investigation and for your many years of Federal 
service.
    We have learned today, I believe, a great deal about how 
the, particularly the Admiral and the Ambassador, view the ARB 
deficiencies, recommendations. We certainly have a number of 
statements made that I believe this committee will take note of 
and reflect on including Admiral Mullen's statement that, in 
fact, had there been in the neighborhood of 30 defense forces 
in Benghazi, the attack may not have occurred because at that 
point it would have been viewed as a harder target.
    At the same time we contrast that with the two heroes who 
were lost at the annex, a facility that was, by comparison, 
better fortified and better armed. What it means to us is that 
there is no single point of accountability, there is no single 
fix that will deal with this.
    Having been many times in the embassy in Beirut, I know 
what a facility that is heavily guarded costs as compared to 
one that is heavily fortified by design.
    Recognizing that we will always have areas of risk, it is 
one of the challenges of this committee to recommend to the 
Foreign Affairs Committee and to the Appropriations Committee 
such funding in investments and organization as may allow a 
better decision process to be made.
    One of the challenges I believe this committee and the 
other committees of jurisdiction will have is if the decision 
is that we must have a diplomatic presence, and then facilities 
and manpower must be procured, it takes away the honest 
authority of the Congress to appropriate such funds as they see 
fit, and ask the administration to live within those funds.
    That struggle does that not occur in this committee. Our 
recommendations will be based on a process, hopefully leading 
to better decision processes.
    I want to thank you again. I want to thank the next panel 
of witnesses for their patience. We will take a very short 
recess and reconvene. Thank you.
    [Recess.]
    Chairman Issa. We now recognize our second panel of 
witnesses. Ms. Patricia Smith is the mother of Sean Smith who 
lost his life in the attacks on the U.S. diplomatic facilities 
in Benghazi on September 11, 2012. And Mr. Charles Woods is the 
father of Tyrone Woods, who also lost his life that night.
    I want to thank you for your patience. Hopefully you 
benefited as much from the question and answers as the 
committee did.
    Pursuant to the rules of the committee, could you please 
rise to take the oath. Raise your right hand.
    Do you solemnly swear or affirm the testimony you will give 
today will be the truth, the whole truth and nothing but the 
truth?
    Please be seated. Let the record indicate both witnesses 
answered in the affirmative.
    You waited a long time through the first panel, and there 
were a great many questions. There will be many less questions, 
and I would ask that you tell us what you feel what you've 
experienced so that we can understand what it's been like for 
this slightly more than 1 year since the death of your loved 
ones. Ms. Smith.

                  STATEMENT OF PATRICIA SMITH

    Ms. Smith. I don't know exactly know what to say. I have 
been ignored by the State Department. I've been told I was 
unimportant, and I had to find everything I know by going on 
the Internet and asking questions, because nobody from the 
government has gotten back to me to tell me anything, and I 
mean that by saying anything. And it's been, I hate to put in 
the record, but it has been pure hell living through all this 
and not getting any answers. I wanted to be able to put 
everything beside me and have everything go away. But I can't 
do that because I don't have plenty of answers that I need.
    One silly question that I had was every time I see this on 
TV, I see these bloody fingerprints crawling down the wall of 
that Benghazi place, and I keep asking everybody, do those 
belong to my son? And nobody has told me anything. One person 
said, no, it's not them. It's not him. But that's just the kind 
of answers I get. Are those his bloody fingerprints? And I know 
you people can't answer that now. But this is how it feels, and 
it feels terrible. I want answers. I want to know what happened 
with my son. And I know you can't tell me anything classified, 
but tell me something. The only thing--wait a minute, I take 
that back, I apologize, I was told a few things and they're all 
lies.
    Obama and Hillary and Panetta and Biden and Susan all came 
up to me at the casket ceremony. Every one of them came up to 
me, gave me a big hug and I asked them what happened please 
tell me. And every one of them said, it was the video. And we 
all know that it wasn't the video, even at that time they knew 
it wasn't the video. So they all lied to me.
    But what they said was, I will check up on it and get back 
to you for sure. And do you know how many times I heard from 
them? None. I don't count. People of America don't count. The 
only thing that counts is their own selves and their own jobs. 
And the people that are involved in this get suspended for a 
short time, paid the whole time, and then rehired or whatever 
it is that they do.
    I want to know what happened to my son. Why can't these 
people tell me this? I'm sorry. I'm ranting.
    That's it.
    Chairman Issa. Thank you.
    Mr. Woods

                   STATEMENT OF CHARLES WOODS

    Mr. Woods. Thank you, Congressman Issa, for inviting 
members of the family. First of all, I'd just like to say, this 
tie right here is special to me. It was worn at my son's 
funeral. And I only wear it on special occasions and this right 
here I trust is something special that is happening. The other 
thing that is special that is happening is after Ty went home 
to be with Lord, I really was concerned about his son that was 
born just, he only saw for a very brief time before he left on 
assignment, how he'd be doing and after 1 year, we spent a day 
with him yesterday that was the one ray of sunshine through the 
clouds this week, so a few special things have happened here 
and I thank you for what you're doing.
    It's been over a year since four brave Americans were 
tragically killed in Benghazi. And after 1 year, we know very 
few answers that we have been asking for the last year. We 
don't know much more than we did a year ago.
    Two of my heroes while growing up were John F. Kennedy and 
Martin Luther King. Reverend King made the statement that 
justice delayed is justice denied. It's been over a year. We 
have no justice and we have very few truthful answers that have 
been provided.
    Public testimony is necessary in front of a committee such 
as this so that the American people can get the truth. So I 
thank you very much for what you're doing here. Now, voters, 
they need to know the truth about what happened in Benghazi in 
order to protect America's freedoms. Now a lot of people 
unfortunately say that we can't tell the people the truth, we 
have to answer, I can't answer that question. Such as the 
Ambassador did. There are too many of these witnesses that are 
testifying behind closed doors, and we don't know what they 
said. We don't see their faces on TV to tell whether or not 
they're credible witnesses. We don't see whether or not the 
right questions were asked to get to the truth or whether 
meaningless questions were asked instead.
    So it's very important that we have public testimony by 
credible witnesses with firsthand--not hearsay--knowledge of 
the situation. That is why it's imperative that you call people 
like General Ham, you call people like Ty's friends who have 
contacted various committees and wanted to testify through 
their attorney but have not been issued subpoenas.
    There are people out there that have firsthand knowledge, 
and public testimony is necessary.
    The voters need to have the truth about Benghazi so that 
the voters can protect the freedom of America.
    Now after 1 year, there are certain questions that I would 
like to have answered. Recently I sent a letter to the 
President who offered to reach out for answers some of the 
questions I asked I would like to direct to this body as well.
    I am the father of Ty Woods, who was killed while 
heroically defending the American consulate in Benghazi. These 
are some of the questions. Who made the decision to stand down 
and when and why was that decision made?
    Now there is some conflict as to whether or not there was 
an order to stand down. There are very credible sources that 
say that Ty and five of his special forces workers were denied 
three times, once they went, were denied. They waited a certain 
period of time, second time they were denied. They waited 
another period of time. Third time, they were denied. They went 
anyway.
    We need to ask the people that were there, not rely upon 
hearsay evidence as to whether or not there was an order to 
stand down.
    More importantly, we also need to know find out who it was 
that gave that order to stand down and why that order was given 
to stand down? The former admiral of the Pacific fleet said 
that in all of his decades of service, this has never happened 
where a rescue attempt was not at least attempted immediately, 
and immediately does not mean the next day. Immediately does 
not mean 8, 9, 10 hours later.
    When is also important, because Ambassador Stevens was 
alive for a substantial period of time after he made that 
initial distress call. It's very possible that there would have 
been no loss of life if that first order to stand down had not 
been given. We need to find that out.
    Another question is, is it true that General Ham was 
relieved from duty for refusing to follow the order not to 
rescue? I have had a general tell me that according to his 
intel, that General Ham was relieved of duty because 
immediately after the distress call was relayed to him, he was 
told to stand down. And his words, according to this general 
were, I don't speak like this, screw it, and, within moments, 
General Ham was relieved of his duty by an inferior officer.
    Now the spin that was given by the administration was that 
this was a prescheduled rotation of generals. Well, I think it 
is an insult to the intelligence of the American community to 
say that a general in the middle of a battle would be relieved 
because of a prescheduled rotation, and especially by an 
inferior officer. We need to have that direct testimony by 
General Ham, and it needs to be public so that the public, so 
that the voters can view the credibility of who is telling the 
truth, because the ARB contradicts that and says that there was 
not any denial of support by anyone from Washington at page 37.
    Finally, this is a very personal question to me, but a very 
important question, and that is if the President's child were 
in Benghazi, would the rescue attempt have been more 
aggressive? There are very--there's very strong evidence of 
what the answer to that question is, and I will let every 
American make that decision for themselves.
    Thank you.
    Chairman Issa. Thank you.
    I'll be brief in my questions and first I will start with a 
comment for both of you. We're essentially the Select Committee 
on Investigations here in the House, and we have a counterpart 
in the Senate, and we have a long history of doing 
investigations and sometimes people talk about us writing 
subpoenas and demanding people and hauling people before this 
committee. And we don't walk away from that. Sometimes it's 
necessary.
    Today I want you to know that just today, I signed 
subpoenas for Alec Henderson and John Martinek.
    Mr. Woods. Thank you.
    Chairman Issa. If there are additional witnesses who have 
facts and were on the ground and want us to issue subpoenas if 
their names could be provided to us we will do so.
    We are issuing the subpoenas for these two individuals 
because the State Department has repeatedly lied in how they 
reflected these people's availability saying that they were 
available if they wanted to come forward. Well, a spokesperson 
in the press office after repeatedly being asked by press 
officials, not us, the press officials essentially created the 
obvious slant which was that these individuals were free to 
come forward, but there was a criminal investigation and they 
might harm it.
    We finally have reached the end of our rope after repeated 
requests for these individuals. In fact, their names have never 
been formally given to us, but rather, a large stack of 
information delivered to us as classified while, in fact, on 
their face being unclassified is guarded by State Department 
official and we may not make copies of it.
    Instead we were able to find from open source, the names of 
these individuals, and we today subpoenaed them.
    We will not end our investigation until all your questions 
are answered.
    Mr. Woods. Thank you.
    Chairman Issa. One of the questions, Mrs. Smith, that I 
have is how could President Obama tell you that, in fact, this 
had anything to do with a video when he said, quite frankly 
during a live debate in Denver, that the next morning in the 
Rose Garden he knew it was a terrorist attack, and that 
statement in the Rose Garden obviously occurred prior to your 
son coming home. So that one I find hard to believe.
    Ambassador Rice, on the other hand, continued to be 
somewhat delusional as to the cause of this on five sequential 
television appearances. Secretary Clinton, I'm not sure what 
difference it makes to her, but I am surprised that she would 
make a categoric statement of something that her own acting 
ambassador on the ground has said before this committee, under 
oath, he knew from the moment it happened that it was, in fact, 
a terrorist attack and more importantly the Secretary was well 
aware that the Ambassador went to bed at 9:05 and would never 
have gone to bed if, in fact, there was a large demonstration 
occurring outside his door.
    For both of you, I really truly regret your loss and I can 
see the pain that you deal with every day. I'm not going to 
inflict any more pain on you here today.
    The promise I make is that as long as I have this gavel, I 
will continue to pursue this. As you go down the dais at least 
most of the dais, you're going to see people who have worked on 
this and will continue to work on this. And I want you to take 
particular note to Mr. Chaffetz who, on my request, made the 
first trip to the region was with General Ham and if he were 
sitting next to you, the testimony he would give as to what he 
found out from General Ham before the handlers got to him was 
quite a bit different than what was later related.
    So, Mr. Woods, we will work with you, we will work with 
both of you to try to get you the truth.
    The fact is that will not bring your loved ones back. And 
the only thing we can say is that it may save somebody else as 
a result of their efforts. And I also want to reiterate what I 
think is understood is those who picked up arms to defend the 
compounds undoubtedly saved the lives of their colleagues. And 
if reports are correct, there were more than 30 people who are 
alive today because of their heroic efforts. And I want to 
thank you for that.
    I recognize the ranking member for his question.
    Mr. Cummings. Thank you very much. I don't have any 
questions. But I do want to thank you all for being here.
    It is so important, and Mr. Woods, the last conversation I 
had with you was a very wonderful conversation and I have 
actually written about, and I remember you asked two things 
that we find out who did this, who is responsible, and do 
everything in our power to bring them to justice. But you also 
said something else and that was to do everything that we could 
to make sure it doesn't happen to anybody else. I made a 
commitment to you that day and I continue to make a commitment 
to you today to do just that.
    So Mrs. Smith and Mr. Woods, I join my colleagues in 
expressing our sympathy for your loss, and honoring their 
memories. It's tough, I know, and very, very difficult. Not all 
of the heroes who were killed in Benghazi have family here 
today, but I wanted to honor those individuals as well as I 
know you would.
    Mr. Woods, like your son, Glen Doherty was a Navy SEAL who 
spent his life serving our country. He was part of the team 
that responded to the USS Cole attack and he participated in 
two tours of duty in Iraq.
    I'd like to read some words of kindness that friends of 
Glen Doherty shared at his memorial. Here is what one friend 
and former Navy SEAL said about Glen.
    My friend Glen, he would never pound his chest or tell you 
how great he was. Glen was a great listener and always had 
experience and advice. He was the jack of all trades and the 
master of all, a person that was great at everything he did, a 
warrior, spirit balanced by kindness of hearts.
    Here is what another friend and former Navy SEAL said about 
him. Glen was, without a doubt, the most liked man I have ever 
met. He was the kind who went through which hundreds of people 
knew one another and kept in touch and up-to-date with each 
other. I can't remember ever hearing anyone say a bad thing 
about the man, which I found particularly interesting 
considering he was one of the most genuine men I have ever 
known.
    He was a brother in arms as well as a brother in life. 
Don't cry for Glen. He would not approve of that. Celebrate a 
man who lived well and died with a gun in his hands fighting 
for those too weak to fight for themselves.
    Another former Navy SEAL described Glen this way. He said 
Glen Doherty was a true American hero in every sense of the 
word. He embodied the selfless spirit, unwavering determination 
to succeed, and a dedication to our country that sets the 
standard for what every American should strive to be.
    The loss of this incredible warrior is one that will 
forever hurt this Nation's heart, as Glen was truly a gift to 
the many people that knew him, and even to the ones who didn't. 
There is nothing he wouldn't do to help those that were close 
to him and he never met a stranger that he would not befriend. 
Glen was one of the finest men I have ever had the pleasure of 
knowing. And the brotherhood that mourns of the loss of one of 
its very best.
    And I think that we can as a matter of fact, I know we 
could say the same about your sons. They were gifts to us. And 
guess what? You are also gifts to them. And we're going to do 
everything in our power, as the chairman said, to get to the 
bottom of this. But we thank you so much for being here.
    Ms. Smith. I do have another question. And it is not really 
a question, but, it is, when I spoke to Obama and Hillary and 
all the rest that I told you about, they all promised me, 
including Obama, that he would get back to me and that it was 
the fault of the video. So don't tell me that he didn't know 
about it. He may have changed his mind, but he did tell me that 
it was the fault of the video. And I don't trust my government 
anymore because they lie to me.
    Mr. Cummings. Again, I want to thank you all both for being 
here.
    Chairman Issa. Thank you.
    Mr. Jordan.
    Mr. Jordan. Again, I will be brief too. I can't add to 
what's been expressed already other than just to say thank you 
and your family for the service to our country for coming here 
and testifying today. God bless you, and I'm committed just 
like the chairman said to getting to the truth, asking every 
question, getting every witness on that witness stand under 
oath. It's the way our system works. There's a problem in the 
executive branch, they have to come here in front of Congress 
under oath and answer questions from the legislative branch. 
That's how you have accountability. That's how you have the 
checks and balances as the Founders wanted. And I'm committed 
to doing that, but again, I just want to thank you for you and 
your family's courage and the sacrifice that each of your 
families has made for our country.
    Chairman Issa. Mr. Chaffetz.
    Mr. Chaffetz. Well, thank you, thank you, Mr. Chairman and 
I thank you both for being here. God bless you and your 
families. I just love when Americans, ordinary Americans do 
extraordinary things, and for both of your sons and the others 
that were involved, we can never forget their service, their 
sacrifice and the millions of people, quite frankly, that have 
gone before them and done as well. And I can only hope that my 
kids will look at what your kids did. I just appreciate it. I 
just want to say thank you.
    As Mr. Jordan said, part of what we do as a Nation which 
makes us different from so many others is we are self-critical, 
we do look hard at these things and that's why we have this 
inspired document called the United States Constitution.
    And so you will always have an open door here. We have a 
duty and obligation to find out the truth because you deserve 
that, our country deserves that and we have to make sure that 
it never ever happens again.
    But here is my concern, here is a quote from the President, 
this is November, November 14th, of last year. The President 
said, ``I think that it is important for us to find out exactly 
what happened in Benghazi, and I'm happy to cooperate in any 
ways that Congress wants.''
    That has never, ever happened. Not even close. Not even 
close. And it's sad to me to be 13 months after the fact and 
look you in the eye and tell you, that has never happened.
    This is, again, the President: ``We have provided every bit 
of information that we have and we will continue to provide 
information.''
    Again, it has never, ever happened. The President 
continued, and we have got a full-blown investigation and all 
that information will be disgorged to Congress.
    Again, I'm here to look you in the eye and tell you that 
hasn't happened either. They told us today the accountability 
review board didn't even look at the video they didn't even 
look into that, they didn't see if that was one of the factors.
    The President continued, and I don't think there's any 
debate in this country that when you have four Americans killed 
that's a problem, and we've got to get to the bottom of this 
and there needs to be accountability.
    Thirteen months later there hasn't been the accountability. 
That hasn't happened either.
    Finally, the President said, we've got to bring those who 
carried this out to justice. And there won't be any debate from 
me on that. I can tell you as a Member of Congress spending as 
much time as everybody here who is still sitting here by the 
way, that hasn't happened either.
    And so I know there are a lot of people who say why are you 
still doing this? Why? It is all politics. We've been through 
this. And you're exactly the reason why. And I think if we just 
lived up to the promise that the President of the United States 
days after an election made to the American people, made to 
you, that's fine that's the standard. I just want to live up to 
what the President said. I just want the President to do what 
he said he would do.
    Do you have any comments, Mrs. Smith?
    Ms. Smith. I have many comments, but I can never bring them 
to mind when I want to.
    Mr. Chaffetz. You'll think about them tonight, I know that 
happens to all of us.
    Ms. Smith. There are just so many, many things that have 
happened and, I just want my government, I love my country. I 
love my country. But I sure don't like my government. And if 
these people are involved in this, why don't you, why don't you 
get them out here to tell us their story? Why isn't Hillary out 
here telling us? It was her department. Why hasn't she been 
subpoenaed? Why can't somebody call her get her out here and 
put her under oath and say okay, what did you know?
    Ms. Smith. And hope that maybe she will tell the truth.
    Mr. Chaffetz. Mr. Woods?
    Mr. Woods. I would like to take this opportunity.
    Mr. Chaffetz. Sorry, your microphone again, sir.
    Mr. Woods. I would like to take this opportunity to 
publicly honor Congressman Chaffetz. He has lived up to that 
promise to reach out to my family. After this happened, he gave 
me his personal cell phone number. Once I called him up, he was 
in the process of taking his children to Disneyland. He took a 
substantial chunk of his family's time out to talk with me.
    He was so concerned about this that in October, right after 
it happened, when it was still fresh, he went back to Benghazi, 
a very dangerous place, or back to Libya with General Ham. And 
before General Ham was compromised possibly, we don't know, he 
asked him that very pointed question about whether, you know, 
there were assets and whether there was an order to stand down.
    Now, I'm old school. I keep my brains in my shirt pocket. 
I'm not the sharpest person in the world, so I have to write 
important things down, and this is what General Ham told Jason 
Chaffetz. General Ham told the Joint Chiefs of Staff the forces 
were available but no order to use them was given. That is in 
direct conflict to page 23 of the ARB report. We need to have 
public testimony, where the public can judge credibility and 
find out whether one is credible or the other. Jason Chaffetz 
is a man of impeccable credibility. There's no question.
    Mr. Chaffetz. You're very kind, too kind. God bless you 
both, thank you.
    Mr. Chairman, we need to hear from the survivors who were 
on the ground that night. It needs to be in public so the 
country can hear it, so these families can hear it. Those that 
survived the attacks in Benghazi are the ones that we have to 
hear from.
    Yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Pennsylvania, Mr. Meehan.
    Mr. Meehan. A grateful Nation thanks you for the sacrifice 
of your children, the service of your children, and the 
sacrifice of your families.
    My prayers are with you, and I'll be inspired by your 
courage and testimony here today to assure that we do what we 
can to continue to try to get you answers, and I thank you for 
your courage being here.
    I yield back.
    Chairman Issa. Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    Ms. Smith and Mr. Woods, I want to express on a personal 
level my gratitude and my sympathy to you for the loss of your 
sons and to everyone that loved your sons and all of the four 
victims of Benghazi. And when you were testifying, I couldn't 
help but think of this dichotomy of death that sometimes it 
walks slowly to the front door of your life and it gives you 
plenty of time to get your affairs in order: You've had a good 
life. You have time to say goodbye to the people you love. You 
have time to offer a prayer for your soul. It just walks slowly 
and knocks gently on the front door.
    And then sometimes it kicks in the front door unexpectedly 
with no notice, and you don't even have time to offer a prayer.
    The word ``closure'' is used all the time, and my 
experience is it's only used by people who have never suffered 
the loss of a child because there is no closure. I can't offer 
you closure. What I hope we can offer you is the truth, facts, 
justice, and let you do with that what you need to do as you 
walk down that road we call grief.
    So we can't give you closure, just the facts, the truth, 
and the real jury, Mr. Woods and Ms. Smith, is the American 
people. They're the ones watching this trial unfold, and they 
will decide. They heard this morning a perspective that 
everything that can be investigated has been investigated, 
everything. That's one perspective.
    The other perspective is you didn't even bother to 
interview some of the central key eyewitnesses. And the 
American people are going to have to decide whether or not they 
would ever tolerate an investigation where you don't call 
eyewitnesses and you don't call the people responsible for 
whatever the duty was.
    But I want to leave you with this, I want you to know this, 
from the upstate of South Carolina, I am asked about Benghazi 
more than any other issue. It has not been forgotten. I suspect 
you both live a long ways from the upstate of South Carolina, 
but just know, Republican, Democrat, independent, don't know, 
don't care, from church to the grocery store to Costco, 
frankly, to the golf course, I am asked about Benghazi and, in 
effect, about your sons more than any other issue. So the jury 
has not forgotten.
    Ms. Smith. Get answers, please.
    Mr. Gowdy. Yes, ma'am. I will work with Mr. Chaffetz, whom 
I agree with you on your characterization of, and the others, 
and frankly, there are folks on both sides----
    Mr. Woods. Right.
    Mr. Gowdy. --who want to find out, and I appreciate the 
fact that Mr. Cummings has been here all day. I can't give you 
closure. I just want to give you the facts and the truth and 
justice and let you use it however you need to use it.
    Yield back.
    Chairman Issa. Thank you.
    The gentlelady from California, Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    To Ms. Smith and Mr. Woods, we have no idea what you're 
going through. Even those of us who have lost spouses and 
endured horrific experiences have no idea, but we are a 
grateful country for the service of your sons, and we want to 
see that the truth bears out.
    We also want to make sure that this doesn't ever happen 
again, and we know you're here in part because you don't want 
to see anyone else go through this.
    And I think it would be helpful to us to hear about your 
sons. So if you could just take a couple of minutes each and 
talk about how wonderful they were. I mean, Mr. Woods, I 
believe your son was a Navy SEAL and served in some of the most 
dangerous places on the planet to protect our country. Could 
you just tell us a little bit about each of your sons?
    Mr. Woods. I was told that Ty was a SEAL among SEALs. He 
was an alpha male among alpha males. We sat around when the 
bodies were coming in with several of his SEAL friends, and we 
were exchanging stories like what you're asking for. They 
exchanged a story with me that I had never heard before, and 
one was that Ty was two things, a man of incredible physical 
and moral strength. He would not allow what they would refer to 
or he would refer to, he would use the word ``smoke and 
mirrors.'' He would not allow any breach of integrity. He could 
bench press over 500 pounds. You've seen a picture of his arms, 
okay? Obviously, a recessive gene. And once someone in 
authority lied to him, gave him smoke and mirrors, he took that 
strong Navy SEAL arm of his, lifted the person up by this part 
of their body, and said, in Navy SEAL language, I'll 
paraphrase, ``don't ever lie to me again. No more smoke and 
mirrors.''
    If Ty--and I seriously think there's a very good chance up 
in heaven he might know more about this hearing than anyone in 
this room knows right now. He might know about the lack of 
integrity. He might take one of those people who, you can kind 
of paint the picture, who has shown smoke and mirrors, and 
figuratively speaking lifted that person up and said, ``no more 
lies, no more smoke and mirrors.'' That's what Ty would want. 
Thank you.
    Ms. Speier. Ms. Smith.
    Ms. Smith. I keep--I'm not a good button pusher. Sean was 
married. I didn't see very much of him toward the end. He was 
stationed in The Hague. I didn't know about Benghazi. I didn't 
know anything about Benghazi. Now I even learned how to spell 
it, which took a little bit, but he said he was always being 
sent out to various different places. And he would call me all 
the time, and I would call him all the time. And we kept in 
touch that way, and--I was 38 before I even had him. I was told 
I couldn't have kids, but my family called him Patsy's kid 
because that was my kid, my miracle baby. Well, my miracle baby 
was abandoned in Benghazi that I couldn't spell before, but I 
can now, and he was--I don't know what to say about him. He was 
just a wonderful kid, and I loved the hell out of him, and I 
always will. I don't know what else to say.
    Ms. Speier. Thank you.
    I yield back.
    Chairman Issa. Thank you.
    The gentlelady yields back.
    We now go to the gentlelady from Wyoming, Mrs. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman.
    Mrs. Smith, could I ask you to introduce some of your 
family members who are with you here today?
    Ms. Smith. Okay. This is my friend Don, Don Howard.
    Mrs. Lummis. Hello, Don.
    Ms. Smith. And that's it.
    Mrs. Lummis. Okay. Well, I'm so pleased that, Don, you're 
with us as well.
    Ms. Smith. Don. Don.
    Mrs. Lummis. Don, yes, thank you so much for being with us.
    And Mr. Woods, could you introduce your family members who 
are with you today?
    Mr. Woods. Well, I brought two of Ty's sisters. And one is 
Joy. She's the oldest. She's a senior in high school. And Hope, 
she's an eighth grader. They also have another sister by the 
name of Faith.
    Mrs. Lummis. Well, I thank you for introducing your family 
members, and there's a verse in the Bible that says, Surely 
goodness and mercy shall follow me all the days of my life. In 
your case, Mr. Woods, surely Hope and Joy will follow you all 
the days of your life and Faith as well. So you can rest 
assured that your family will be enormously supportive of each 
other as you endure this loss, and that you will fill a hole in 
Ty's life that their father would deeply appreciate, so thank 
God for family and for you all.
    And Ms. Smith, I want to hope for you that you'll have the 
peace of God because, like Mr. Gowdy, the people that I 
represent visit about you and your children and what they did 
for our country with me frequently in the great hope that we 
will continue to search for answers. And I want to congratulate 
the chairman of this committee, the chairman of the 
subcommittee, Mr. Chaffetz, and all the gentlemen with whom I 
serve on my side of the aisle and all the gentlemen and ladies 
with whom I serve on the other side of the aisle who are in 
relentless pursuit of the truth.
    I, too, Mrs. Smith, hear from many of my constituents that 
they don't trust their government anymore. And it's among the 
saddest things that I hear from my constituents, and it makes 
me sad to hear it from you here today. But that's why we're 
here. That's why we were elected, to restore people's trust in 
their own government, and on this issue, trust will not be 
restored until we get to the truth, and so we will continue to 
seek the truth. We appreciate your participation, and we wish 
you God's good graces as we continue to pursue the truth.
    Mr. Chairman, I yield back.
    Chairman Issa. I thank the gentlelady.
    We now go to the gentleman from Michigan, Mr. Walberg.
    Mr. Walberg. Thank you, Mr. Chairman.
    And I guess what I want to say to you two is that as a 
Member from Michigan, a Member who understands my position 
representing a district, not even a State but a district, but 
that district is made up of people who expect us to stand 
firmly behind the Constitution, the oath of office we've taken, 
which involves defending and protecting our citizens against 
all enemies, both foreign and domestic.
    There are times when a bureaucratic maze sometimes becomes 
the enemy of a good and great country, which is none other than 
a good and great people. Your sons were good and great people. 
Their memories will continue to expand the opportunities for 
defining what good and great is in the context of America. My 
sons and daughter, my grandsons and granddaughter, when they 
hear the story that I will tell them, regardless of what the 
history books say about the heroes of Benghazi, and I've 
learned to spell it now, too, Ms. Smith, with an H in it.
    Ms. Smith. Yes.
    Mr. Walberg. They will hear the story of men who rushed in, 
men who stood firm, men who understood the cost and ultimately 
gave the supreme sacrifice, but I hope they also hear the rest 
of the story from me, that I was privileged to serve in a 
Congress that didn't stop looking for and achieving the truth.
    I'm not looking for a pound of flesh. I'm not looking even 
for punishment, though I think it ought to be meted out, but 
I'm looking for the truth. Your family members would have done 
no less, and so I can't ask you any questions, but I can assure 
you of my commitment to continue the effort toward truth that 
would honor your sons and our great country, and I yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Oklahoma, Mr. Lankford.
    Mr. Lankford. Bless you all for a very long day. I cannot 
imagine what it was like to start the travel here and to know 
that the destination was going to end up right here where you 
are right now after a very, very long day, so thank you. I am 
overwhelmed with Psalm 34:18, where it says, The Lord is near 
the brokenhearted, and He saves those who are crushed in 
spirit. And I pray that for you and for your family that you 
will experience the closeness and nearness of God and the 
comfort that only He can provide in this.
    Here's another city you may not be able to spell, Ms. 
Smith. Like Benghazi, all of us learned how to spell that, 
Wewoka, Oklahoma.
    Ms. Smith. What is that?
    Mr. Lankford. Wewoka, Oklahoma.
    Ms. Smith. Wewoka?
    Mr. Lankford. Is a tiny little town in my district, and in 
August, I held a town hall meeting in Wewoka, Oklahoma, a town 
you've never heard of until just right now.
    Ms. Smith. That's right.
    Mr. Lankford. And they asked me about Benghazi, and they 
wanted to know in small town Oklahoma what's being done to get 
the facts out and hold people in Libya that did this to 
account. There are people all over the country that care deeply 
about this, small towns and big towns, and they stand with you. 
And I thought you needed to know that today, that the good 
folks in Wewoka, Oklahoma, care deeply about what's going on as 
well as in big towns.
    Ms. Smith. Okay. I'm going to look you up.
    Mr. Lankford. Well, you need to look it up, yeah. Go to 
Oklahoma City and move east, and you'll find Wewoka out there.
    Ms. Smith. Okay.
    Mr. Lankford. Grateful that you all are here. Thank you for 
being a part of this day, and please keep us informed of the 
questions that you have. It is important that you receive what 
you were promised, and that's the facts and the truth, and we 
want to help in that in every way we can.
    With that, I yield back.
    Chairman Issa. I thank the gentleman.
    We now go to the gentleman from Michigan, Mr. Bentivolio.
    Mr. Bentivolio. Thank you very much, Mr. Chairman.
    Ms. Smith, Mr. Woods, I would like to echo and reiterate 
what my colleagues have said earlier and their sentiments and 
know in your hearts I grieve with you. I feel your--I share 
your frustrations in finding the truth. I was never a career 
politician. I served 26 years part time and full time in the 
military and served in Vietnam and Iraq Freedom. Since I've 
been here in Washington, and I'm new, I started January 3rd, 
and I came to the realization that the hardest thing to find 
here in Washington is the truth.
    Ms. Smith. True.
    Mr. Bentivolio. It's a rare thing. With the verbal two-
steps, the shuffle, the verbal moonwalk, the dodge, and all of 
those smoke and mirrors, it's pretty hard to find it. And I 
feel your frustration and understand exactly what you mean when 
you say, I love my country, but my government is a problem. 
Yep. But I want you to know that I'm joining and have joined 
because one of the reasons I came here was to find out what 
actually happened in Benghazi. As a soldier, I always believed 
in the warrior ethos, never leave one of our own behind, and I 
know in the unit that I came from we have, we hold that warrior 
ethos pretty high, with high regard, and the people I served 
with, well, like your losts, strived valiantly, endured greatly 
in service to our country. My office is open and at your 
service, whatever you need, don't hesitate to ask. I'm sure it 
applies to everyone here.
    Thank you, God bless you.
    Ms. Smith. Thank you.
    Mr. Bentivolio. I yield back my time.
    Chairman Issa. I thank the gentleman.
    I guess I'm the last ``thank you.'' It's been a long day. 
It's been a long year, longer for you than for any two people 
we could possibly conceive of. Both for you and for the other 
surviving family members that are not here today, we thank you 
for your comments and statements, including the written 
statements you heard me read at the beginning.
    I don't think any words are going to equal what has to be 
done, so I told you a little bit about what this committee is 
doing. You saw people with differing opinions on the dais. The 
opinion that ultimately matters is the opinion of the Speaker 
of the House. The Speaker of the House has authorized 
repeatedly the investigation to continue, the subpoenas, and 
all the work that we're doing. And I'm quite sure that as long 
as John Boehner is Speaker, I will have the ability and the 
authority to continue getting to the bottom of this.
    And since we're all piling on, on Mr. Chaffetz, the fact is 
that I have a team that you saw a great many of today, and 
they, too, will continue to have that ability to go anywhere 
anytime and get to the truth. It takes a long time, and for 
that, I apologize. But we haven't quit, and we won't quit.
    Mr. Woods, I can only say that it's seldom I would note for 
the record that my sister Faith, my sister Hope, and my 
departed sister Willow would be very proud of the naming 
practices within your family, and with that one light note of 
the day, we stand adjourned. Thank you.
    Mr. Woods. Thank you.
    [Whereupon, at 3:24 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC] [TIFF OMITTED] 85095.016

[GRAPHIC] [TIFF OMITTED] 85095.017

[GRAPHIC] [TIFF OMITTED] 85095.018

[GRAPHIC] [TIFF OMITTED] 85095.019

[GRAPHIC] [TIFF OMITTED] 85095.020

[GRAPHIC] [TIFF OMITTED] 85095.021

[GRAPHIC] [TIFF OMITTED] 85095.022

[GRAPHIC] [TIFF OMITTED] 85095.023

[GRAPHIC] [TIFF OMITTED] 85095.024

[GRAPHIC] [TIFF OMITTED] 85095.025

[GRAPHIC] [TIFF OMITTED] 85095.026

[GRAPHIC] [TIFF OMITTED] 85095.027

[GRAPHIC] [TIFF OMITTED] 85095.028

[GRAPHIC] [TIFF OMITTED] 85095.029

[GRAPHIC] [TIFF OMITTED] 85095.030

[GRAPHIC] [TIFF OMITTED] 85095.031

[GRAPHIC] [TIFF OMITTED] 85095.032

[GRAPHIC] [TIFF OMITTED] 85095.033

[GRAPHIC] [TIFF OMITTED] 85095.034

[GRAPHIC] [TIFF OMITTED] 85095.035

[GRAPHIC] [TIFF OMITTED] 85095.036

[GRAPHIC] [TIFF OMITTED] 85095.037

[GRAPHIC] [TIFF OMITTED] 85095.038

[GRAPHIC] [TIFF OMITTED] 85095.039

[GRAPHIC] [TIFF OMITTED] 85095.040

[GRAPHIC] [TIFF OMITTED] 85095.041

[GRAPHIC] [TIFF OMITTED] 85095.042

[GRAPHIC] [TIFF OMITTED] 85095.043

[GRAPHIC] [TIFF OMITTED] 85095.044

[GRAPHIC] [TIFF OMITTED] 85095.045

[GRAPHIC] [TIFF OMITTED] 85095.046

[GRAPHIC] [TIFF OMITTED] 85095.047

[GRAPHIC] [TIFF OMITTED] 85095.048

[GRAPHIC] [TIFF OMITTED] 85095.049

[GRAPHIC] [TIFF OMITTED] 85095.050

[GRAPHIC] [TIFF OMITTED] 85095.051

[GRAPHIC] [TIFF OMITTED] 85095.052

[GRAPHIC] [TIFF OMITTED] 85095.053

[GRAPHIC] [TIFF OMITTED] 85095.054

[GRAPHIC] [TIFF OMITTED] 85095.055

[GRAPHIC] [TIFF OMITTED] 85095.056

[GRAPHIC] [TIFF OMITTED] 85095.057

[GRAPHIC] [TIFF OMITTED] 85095.058

[GRAPHIC] [TIFF OMITTED] 85095.059

[GRAPHIC] [TIFF OMITTED] 85095.060

[GRAPHIC] [TIFF OMITTED] 85095.061

[GRAPHIC] [TIFF OMITTED] 85095.062

[GRAPHIC] [TIFF OMITTED] 85095.063

[GRAPHIC] [TIFF OMITTED] 85095.064

[GRAPHIC] [TIFF OMITTED] 85095.065

[GRAPHIC] [TIFF OMITTED] 85095.066

[GRAPHIC] [TIFF OMITTED] 85095.067

[GRAPHIC] [TIFF OMITTED] 85095.068

[GRAPHIC] [TIFF OMITTED] 85095.069

[GRAPHIC] [TIFF OMITTED] 85095.070

[GRAPHIC] [TIFF OMITTED] 85095.071

[GRAPHIC] [TIFF OMITTED] 85095.072

[GRAPHIC] [TIFF OMITTED] 85095.073

[GRAPHIC] [TIFF OMITTED] 85095.074

[GRAPHIC] [TIFF OMITTED] 85095.075

[GRAPHIC] [TIFF OMITTED] 85095.076

[GRAPHIC] [TIFF OMITTED] 85095.077

[GRAPHIC] [TIFF OMITTED] 85095.078

[GRAPHIC] [TIFF OMITTED] 85095.079

[GRAPHIC] [TIFF OMITTED] 85095.080

[GRAPHIC] [TIFF OMITTED] 85095.081

[GRAPHIC] [TIFF OMITTED] 85095.082

[GRAPHIC] [TIFF OMITTED] 85095.083

[GRAPHIC] [TIFF OMITTED] 85095.084

[GRAPHIC] [TIFF OMITTED] 85095.085

[GRAPHIC] [TIFF OMITTED] 85095.086

[GRAPHIC] [TIFF OMITTED] 85095.087

[GRAPHIC] [TIFF OMITTED] 85095.088

[GRAPHIC] [TIFF OMITTED] 85095.089

[GRAPHIC] [TIFF OMITTED] 85095.090

[GRAPHIC] [TIFF OMITTED] 85095.091

[GRAPHIC] [TIFF OMITTED] 85095.092

[GRAPHIC] [TIFF OMITTED] 85095.093

[GRAPHIC] [TIFF OMITTED] 85095.094

[GRAPHIC] [TIFF OMITTED] 85095.095

[GRAPHIC] [TIFF OMITTED] 85095.096

[GRAPHIC] [TIFF OMITTED] 85095.097

[GRAPHIC] [TIFF OMITTED] 85095.098

[GRAPHIC] [TIFF OMITTED] 85095.099

[GRAPHIC] [TIFF OMITTED] 85095.100

[GRAPHIC] [TIFF OMITTED] 85095.101

[GRAPHIC] [TIFF OMITTED] 85095.102

[GRAPHIC] [TIFF OMITTED] 85095.103

[GRAPHIC] [TIFF OMITTED] 85095.104

[GRAPHIC] [TIFF OMITTED] 85095.105

[GRAPHIC] [TIFF OMITTED] 85095.106

[GRAPHIC] [TIFF OMITTED] 85095.107

[GRAPHIC] [TIFF OMITTED] 85095.108

[GRAPHIC] [TIFF OMITTED] 85095.109

[GRAPHIC] [TIFF OMITTED] 85095.110

[GRAPHIC] [TIFF OMITTED] 85095.111

[GRAPHIC] [TIFF OMITTED] 85095.112

[GRAPHIC] [TIFF OMITTED] 85095.113

[GRAPHIC] [TIFF OMITTED] 85095.114

[GRAPHIC] [TIFF OMITTED] 85095.115

[GRAPHIC] [TIFF OMITTED] 85095.116

[GRAPHIC] [TIFF OMITTED] 85095.117

[GRAPHIC] [TIFF OMITTED] 85095.118

[GRAPHIC] [TIFF OMITTED] 85095.119

[GRAPHIC] [TIFF OMITTED] 85095.120

[GRAPHIC] [TIFF OMITTED] 85095.121

[GRAPHIC] [TIFF OMITTED] 85095.122

[GRAPHIC] [TIFF OMITTED] 85095.123

[GRAPHIC] [TIFF OMITTED] 85095.124

[GRAPHIC] [TIFF OMITTED] 85095.125

[GRAPHIC] [TIFF OMITTED] 85095.126

[GRAPHIC] [TIFF OMITTED] 85095.127

[GRAPHIC] [TIFF OMITTED] 85095.128

[GRAPHIC] [TIFF OMITTED] 85095.129

[GRAPHIC] [TIFF OMITTED] 85095.130

[GRAPHIC] [TIFF OMITTED] 85095.131

[GRAPHIC] [TIFF OMITTED] 85095.132

[GRAPHIC] [TIFF OMITTED] 85095.133

[GRAPHIC] [TIFF OMITTED] 85095.134

[GRAPHIC] [TIFF OMITTED] 85095.135

[GRAPHIC] [TIFF OMITTED] 85095.136

[GRAPHIC] [TIFF OMITTED] 85095.137

[GRAPHIC] [TIFF OMITTED] 85095.138

[GRAPHIC] [TIFF OMITTED] 85095.139

[GRAPHIC] [TIFF OMITTED] 85095.140

[GRAPHIC] [TIFF OMITTED] 85095.141

[GRAPHIC] [TIFF OMITTED] 85095.142

[GRAPHIC] [TIFF OMITTED] 85095.143

[GRAPHIC] [TIFF OMITTED] 85095.144

[GRAPHIC] [TIFF OMITTED] 85095.145

[GRAPHIC] [TIFF OMITTED] 85095.146

[GRAPHIC] [TIFF OMITTED] 85095.147

[GRAPHIC] [TIFF OMITTED] 85095.148

[GRAPHIC] [TIFF OMITTED] 85095.149

[GRAPHIC] [TIFF OMITTED] 85095.150

[GRAPHIC] [TIFF OMITTED] 85095.151

[GRAPHIC] [TIFF OMITTED] 85095.152

[GRAPHIC] [TIFF OMITTED] 85095.153

[GRAPHIC] [TIFF OMITTED] 85095.154

[GRAPHIC] [TIFF OMITTED] 85095.155

[GRAPHIC] [TIFF OMITTED] 85095.156

[GRAPHIC] [TIFF OMITTED] 85095.157

[GRAPHIC] [TIFF OMITTED] 85095.158

[GRAPHIC] [TIFF OMITTED] 85095.159

[GRAPHIC] [TIFF OMITTED] 85095.160

[GRAPHIC] [TIFF OMITTED] 85095.161

[GRAPHIC] [TIFF OMITTED] 85095.162

[GRAPHIC] [TIFF OMITTED] 85095.163

[GRAPHIC] [TIFF OMITTED] 85095.164

[GRAPHIC] [TIFF OMITTED] 85095.165

[GRAPHIC] [TIFF OMITTED] 85095.166

[GRAPHIC] [TIFF OMITTED] 85095.167

[GRAPHIC] [TIFF OMITTED] 85095.168

[GRAPHIC] [TIFF OMITTED] 85095.169

[GRAPHIC] [TIFF OMITTED] 85095.170

[GRAPHIC] [TIFF OMITTED] 85095.171

[GRAPHIC] [TIFF OMITTED] 85095.172

[GRAPHIC] [TIFF OMITTED] 85095.173

[GRAPHIC] [TIFF OMITTED] 85095.174

[GRAPHIC] [TIFF OMITTED] 85095.175

[GRAPHIC] [TIFF OMITTED] 85095.176

[GRAPHIC] [TIFF OMITTED] 85095.177

[GRAPHIC] [TIFF OMITTED] 85095.178

[GRAPHIC] [TIFF OMITTED] 85095.179

[GRAPHIC] [TIFF OMITTED] 85095.180

[GRAPHIC] [TIFF OMITTED] 85095.181

[GRAPHIC] [TIFF OMITTED] 85095.182

[GRAPHIC] [TIFF OMITTED] 85095.183

[GRAPHIC] [TIFF OMITTED] 85095.184

[GRAPHIC] [TIFF OMITTED] 85095.185

[GRAPHIC] [TIFF OMITTED] 85095.186

[GRAPHIC] [TIFF OMITTED] 85095.187

[GRAPHIC] [TIFF OMITTED] 85095.188

[GRAPHIC] [TIFF OMITTED] 85095.189

[GRAPHIC] [TIFF OMITTED] 85095.190

[GRAPHIC] [TIFF OMITTED] 85095.191

[GRAPHIC] [TIFF OMITTED] 85095.192

[GRAPHIC] [TIFF OMITTED] 85095.193

[GRAPHIC] [TIFF OMITTED] 85095.194

[GRAPHIC] [TIFF OMITTED] 85095.195

[GRAPHIC] [TIFF OMITTED] 85095.196

[GRAPHIC] [TIFF OMITTED] 85095.197

[GRAPHIC] [TIFF OMITTED] 85095.198

                                 <all>

</pre></body></html>
